<html>
<title> - NO CHILD LEFT BEHIND: EARLY LESSONS FROM STATE FLEXIBILITY WAIVERS</title>
<body><pre>[Senate Hearing 113-400]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-400
 

   NO CHILD LEFT BEHIND: EARLY LESSONS FROM STATE FLEXIBILITY WAIVERS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING NO CHILD LEFT BEHIND, FOCUSING ON EARLY LESSONS FROM STATE
                          FLEXIBILITY WAIVERS

                               __________

                            FEBRUARY 7, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                         U.S. GOVERNMENT PRINTING OFFICE

78-922 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                 MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont             RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania       JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina             RAND PAUL, Kentucky
AL FRANKEN, Minnesota                    ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado              PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island         LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin                 MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut       TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

           Pamela J. Smith, Staff Director and Chief Counsel

                 Lauren McFerran, Deputy Staff Director

               David P. Cleary, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                       THURSDAY, FEBRUARY 7, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education,
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of
  Tennessee, opening statement...................................     2
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    19
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    21
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    23
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    26
Bennet, Hon. Michael F., a U.S. Senator from the State of
  Colorado.......................................................    27
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky.......    30
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode
  Island.........................................................    32

                            Witness--Panel I

Duncan, Hon. Arne Duncan, Secretary, U.S. Department of
  Education, Washington, DC......................................     5
    Prepared statement...........................................    12

                          Witnesses--Panel II

Holliday, Terry K., Ph.D., Kentucky Commissioner of Education,
  Lexington, KY..................................................    35
    Prepared statement...........................................    37
King, John B., Jr., Ed.D., New York Commissioner of Education,
  Slingerlands, NY...............................................    39
    Prepared statement...........................................    41
Smarick, Andrew R., M.P.M., Partner, Bellwether Education
  Partners, Lawrenceville, NJ....................................    47
    Prepared statement...........................................    49
Haycock, Kati, M.A., President, The Education Trust, Washington,
  DC.............................................................    57
    Prepared statement...........................................    58

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
     Senator Baldwin.............................................    75
    Letter to Senator Baldwin from Wisconsin ASCD................    76
    Response by Arne Duncan to questions of:
        Senator Murray...........................................    77
        Senator Hatch............................................    80
        Senator Murkowski........................................    81
    Response by Terry K. Holliday, Ph.D. to questions of:
        Senator Murray...........................................    83
        Senator Murkowski........................................    84
    Response by John B. King, Jr., Ed.D. to questions of:
        Senator Murray...........................................    88
        Senator Murkowski........................................    89
    Response to questions of Senator Murkowski by Kati Haycock,
      M.A........................................................    90

                                 (iii)



 
   NO CHILD LEFT BEHIND: EARLY LESSONS FROM STATE FLEXIBILITY WAIVERS

                              ----------


                       THURSDAY, FEBRUARY 7, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in
room SH-216, Hart Senate Office Building, Hon. Tom Harkin,
chairman of the committee, presiding.
    Present: Senators Harkin, Sanders, Whitehouse, Bennet,
Franken, Baldwin, Hatch, Alexander, Isakson, Murkowski,
Roberts, and Paul.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education,
Labor, and Pensions will please come to order. I welcome
everyone to our first education hearing of the new Congress.
Today's hearing will focus on No Child Left Behind Flexibility
Waivers to the States.
    Nearly half a century ago, the U.S. Congress passed the
landmark Elementary and Secondary Education Act of 1965 during
the 88th Congress. It was one of the great accomplishments of
that Congress, and I think it bears repeating what the aim of
it was. It was to address the needs of vulnerable students,
needs that were not being met by the States. It was designed to
provide schools and communities additional resources
specifically targeted to help lift children out of poverty by
ensuring equal access to quality education for all.
    The Federal Government stepped in because many States could
not or would not provide for their most vulnerable children.
Since being signed into law in 1965, the Elementary and
Secondary Education Act has been reauthorized seven times. Each
reauthorization has sought to enhance the law's effectiveness
while staying true to its original mission to improve
educational outcomes for disadvantaged students.
    The ESEA was last authorized in 2001 during the
administration of President George W. Bush. That law, the No
Child Left Behind Act, aimed to increase the transparency of
schools' effectiveness or, I should say, lack of effectiveness
in meeting the needs of students who were struggling, students
living in poverty, students who were English language learners,
and students with disabilities.
    The law's goal was to give families and the general public
the data they needed to assess whether students in a given
school were being taught the reading and math skills they
needed to be successful. Only the Federal Government could
require that this data be tracked for all students across the
country.
    In October 2011, this committee passed a reauthorization of
ESEA, preserving the reporting and transparency components of
No Child Left Behind and continuing to emphasize strategies to
close the achievement gaps for disadvantaged students.
Unfortunately, we could not move that bill beyond this
committee. However, in this new Congress we will redouble our
efforts to reauthorize ESEA and to address more effectively the
needs of disadvantaged students.
    In the absence of a reauthorized law, President Obama and
Secretary of Education Duncan have offered waivers to No Child
Left Behind. Those waivers aim to address the needs of States
and local districts to improve instruction and provide
flexibility, to address the needs of students and the educators
serving them. As of today, 34 States and the District of
Columbia have received approval of their waiver requests. These
States are now 5 months into implementing their waiver plans.
Meanwhile, the remaining 16 States have either submitted a
waiver request, have not submitted a request, or have been told
their waiver has not been approved.
    The implementation of waivers has relieved States from
requirements such as Adequate Yearly Progress and also from
restrictions on how certain title I funds are used. As the
Department of Education continues to work with the States to
implement waivers, here's what this committee needs to do. We
need to understand the status and scope of State waiver plans
being implemented. We need to consider the conditions and
activities of States that do not have approved waivers. And we
need to ensure that the policies and programs we support are
effective in meeting the needs of our most vulnerable students.
    While almost 50 years have passed since the initial passage
of the Elementary and Secondary Education Act, many of the
conditions that led to its passage have not changed
dramatically. In 2012, the child poverty rate was 20.5 percent.
Over 6 million public school students were students with
disabilities. More than 5 million public school students across
the country were English language learners.
    Today we'll hear from two panels. All witnesses will share
their thoughts on the Department of Education's waivers and how
those waivers are impacting our most disadvantaged students.
    Our first panel, of course, will be Secretary of Education
Arne Duncan, who will give us an update on the implementation
of the waivers. On the second panel, we'll hear from two State
chief school officers, and we'll also hear from Andy Smarick
and Kati Haycock, advocates and analysts who can speak to the
particular needs of disadvantaged students.
    I thank them all for being here. We'll introduce them
later. But now I'd like to turn to Senator Alexander for his
opening remarks.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Secretary, welcome.
    I'd like to thank the Chairman for this hearing. It is very
timely to talk about waivers and what we'll be able to do this
year on the Elementary and Secondary Education Act. And I
welcome the Secretary. I said when he was appointed by the
President that he was one of the President's best acts, and I
still think that. And I appreciate his service and his
leadership. We have occasional differences of opinion, but we
focus on the things we agree on, and I'm glad he's where he is.
    On the subject of waivers, the Chairman did a good job of
reciting the history of the Elementary and Secondary Education
Act. I mean, the bottom line is that it expired in 2007 except
for a provision that says if Congress didn't act, it continued.
Congress didn't act, so it's continued. And we're overdue in
doing our job and taking a look at the Elementary and Secondary
Education Act and reauthorizing it for another period of time.
I mean, that's our responsibility. We should do it. So that's
our fault. That's on us.
    In the meantime, some of the provisions of the Elementary
and Secondary Education Act don't work right when applied to
States. So the Secretary has stepped up and said, ``Well, I'll
solve the problem by using a waiver authority.'' This waiver
authority is a pretty simple provision that was put into the
Elementary and Secondary Education Act in 1994. I'm not sure
anybody paid a lot of attention to it when it was put in. It's
one page.
    It says the Secretary can waive any statutory or regulatory
requirement under the Act, and the way you get a waiver is that
a State educational agency or local educational agency or
Indian tribe submits a waiver request to the Secretary. Then it
says it shall be developed and submitted by the local agency to
the State agency and by the State agency to the Secretary.
That's all it says.
    That would suggest to me that a waiver like that would be--
let's say before No Child Left Behind was passed in 2001, if I
were the education commissioner of Tennessee, I might write the
Secretary and say, ``Mr. Secretary, could I use some of the
title II money, which isn't being as well used now as it should
be''--that's something Senator Harkin and I and Secretary
Duncan all agree on--``may I use it to help create a teacher
evaluation plan for Tennessee?'' And the Secretary could say,
``Yes, you can,'' or ``No, you can't.''
    What's happened, though, is that the Secretary's using of
this waiver authority has gone much broader than that. It's
become a sort of Washington version of the old game children
used to play called Mother, May I? We used to play it in
Tennessee. I think it's played around the country. You say,
``Mother, May I?'' and then the mother says, ``You may do thus
and so,'' and if you do the right thing, you get to do it, and
if you don't get to do it, you're out of the game.
    So this is an example where the State might say, ``Mother,
may I create a teacher evaluation system,'' and instead of
saying yes or no, the Secretary says, ``You may, but only if
you wash your hands and practice the piano and do your homework
and cleanup the kitchen and rake the yard.'' And you might say,
``Well, Mother, that's not what I asked to do,'' and Mother
would say, ``Well, but that's what you have to do if you want
to go out and play.''
    So what happens is this simple waiver authority has turned
into a conditional waiver, with the Secretary having more
authority to make decisions that, in my view, should be made
locally by State and local governments. According to the
procedure, a State would apply for all 10 waivers and agree to
implement four principles, and it's pretty detailed. Here's the
Tennessee document. By the time you get through with everything
that's required, this one page of law turns into a great big
thick book.
    Is that bad or good? There's a lot of good in it. In the
State of Tennessee, most of what Secretary Duncan wanted done,
the Governor and the legislature wanted to do anyway. They
didn't have a lot of trouble agreeing on what to do. But it's
more complicated than it needs to be.
    The State of Iowa, where the Chairman is from--there was a
disagreement in Iowa. They have their own evaluation system,
but according to the Secretary or the department's view of an
evaluation system, it isn't the right evaluation system. So
Iowa's request for a waiver was denied.
    The State of California requested a waiver. That was denied
because California law doesn't permit such a teacher evaluation
system. I'm all for teacher evaluation systems. I just don't
think they ought to be defined and run out of Washington, DC.
    So we have a problem here. The problem is that more and
more decisions are being made in Washington about whether
schools and teachers are succeeding or failing when, in fact,
the Secretary and I and Senator Harkin pretty well agreed on a
bill last year that basically moved many of those decisions out
of Washington. That was part of what we agreed to do. So we've
gone, in my view, in the wrong direction.
    Are all the results bad? Absolutely not. Some of the
results are good. But the correct thing for us to do, in my
opinion, is for the Secretary to show restraint on insisting on
a one-size-fits-all set of conditional waivers and step back
and just say yes or no in a much simpler way, giving more
allowance.
    Or even better, we should do our job in the Congress,
working with the House, take Representative George Miller's
advice when he said last year, Mr. Chairman, that we ought to
have a lean bill, and see if we can go back to work this year
and reauthorize the Elementary and Secondary Education Act and
put into law whatever needs to be put into law, let the
Secretary step back from the waivers, and let the States make
their own decisions about whether teachers are succeeding or
failing.
    So this is a very timely hearing. I look forward to working
with the Secretary and the Chairman and other members of the
committee. I hope we can take the work we did in the last
Congress, focus on what we agree on, come up with a lean bill,
pass it, and let the House pass whatever they pass.
    My last comment, Mr. Chairman--excuse me for going on a
little long--is that the Senate just changed its rules a little
bit, which would help us in this way. It's easier to go to
conference. So the House may pass a bill that's different than
our bill--and beforehand, I could understand the majority
leader's feeling that, well, the Republicans won't let us go to
conference, and I haven't got time to fool with that. Now it's
easy to go to conference.
    We ought to pass whatever we can pass. The House can pass
whatever it can pass. Let's go to a bipartisan conference and
see if we can get a result and move away from this Washington
version of Mother, May I?, which is the waiver process that
we've gotten into with Congress having a major amount of the
responsibility for the fact that the Secretary is undertaking
these waivers.
    Thank you.
    The Chairman. Thank you, Senator Alexander. Since my name
and my State was mentioned, I want to say to my friend from
Tennessee that had I been Secretary, I just would have denied
Iowa's waiver request, also. It just wasn't good. I just want
to get that on the record.
    Today we welcome U.S. Secretary of Education Arne Duncan to
our hearing. He's no stranger to this committee. Secretary
Duncan has served as the Secretary of Education since January,
2009. In fact, he was one of President Obama's first cabinet
appointees. Under Secretary Duncan's leadership, the Department
of Education has launched a series of prominent initiatives,
including the Race to the Top competitions, the Investment in
Innovation Program, and, of course, the effort that we are here
to discuss today, the State Flexibility Waiver from No Child
Left Behind.
    Prior to joining the Obama administration, Secretary Duncan
served as chief executive officer at the Chicago Public Schools
for 8 years. In his early career in education, he served as the
district's director of magnet schools and in 1996 was an
integral partner in establishing the Ariel Elementary Community
Academy in Chicago.
    Mr. Secretary, thank you for your leadership and your
service to our country. Thanks for joining us today. We look
forward to your testimony. Your statement will be made a part
of the record in its entirety, and I'll set the clock at 10
minutes. But if you go over that, I won't get too nervous.

 STATEMENT OF THE HONORABLE ARNE DUNCAN, SECRETARY, DEPARTMENT
                  OF EDUCATION, WASHINGTON, DC

    Secretary Duncan. Thank you so much, Chairman Harkin and
Ranking Member Alexander and all the other members of the
committee. I really appreciate the opportunity to testify on
the flexibility that the Department of Education has provided
under ESEA to empower States, districts, and schools to move
forward with reforms that benefit all students.
    I'm going to keep my testimony relatively brief. I'll be
happy to take any questions you might have, but I think you
have some fantastic panelists coming after me. You have two of
the Nation's best superintendents from Kentucky and New York,
Terry Holliday and John King. You have a couple of outside
experts, Kati and Andy, who are very, very thoughtful on that.
And hearing from particularly the State sups who are living
this every day, I think, will be really informative to this
body.
    Before I begin, I just want to take a moment to recognize
you, Senator Harkin, for your extraordinary career in public
service. I know, Senator, it's a little bit early, a little
premature, to be talking about your legacy, and there'll be
many more tributes to come over the next 2 years. But I didn't
want to let this moment pass without expressing my real
appreciation for all that you have done and continue to do for
our Nation's students.
    Over the last 4 years, I've been so grateful for your
clarity of vision, your counsel, and your tireless commitment
to strengthening public education, from working to give
students better Internet access to improving teacher prep. The
Americans with Disabilities Act, one of your crowning
achievements, is truly our Nation's emancipation proclamation
for students with disabilities.
    We all know we still have a long way to go before every
child with a disability has equal educational opportunities.
But we're so much closer to realizing that dream, that core
tenet of the American promise, because of your leadership and
your service. Thank you so much for that.
    I said a moment ago that we have provided ESEA flexibility
to States. That's absolutely true. But the guiding principle of
ESEA flexibility is that flexibility must first benefit
students. We must protect our Nation's young people. Every
State that receives that flexibility from NCLB must demonstrate
its commitment and its capacity to improve educational outcomes
for all students, to close achievement gaps for disadvantaged
and minority students, to increase equity, and to improve their
quality of instruction.
    The Federal role in education is really relatively narrow.
We support States and districts, provide incentives for
innovation, research what works to boost achievement, enforce
the law, including civil rights laws. But the Federal
Government does not serve as a national school board. It never
has and it never should. We don't dictate curriculum, levy
school assessments, or open and close schools. We don't specify
the content of academic standards or negotiate teacher
contracts.
    We do have a responsibility to set a high bar to protect
the interest of students, especially at-risk students. But how
to reach that bar, I believe, should be left to States. ESEA
flexibility is very much in keeping with that limited, narrow
Federal role. And it's no secret that I'm a big believer in
State and local leadership in education. I spent 7\1/2\ years
as the CEO of the Chicago Public Schools, and I lived the
reality, both the strengths and the significant shortcomings of
the No Child Left Behind law.
    By the time I came to Washington 4 years ago, I knew, along
with millions of parents and educators, that NCLB was
fundamentally broken and it was time to be fixed. NCLB was a
critical step forward to improve transparency and
accountability for all students and subgroups. That law, as you
know, was passed in 2001. The world has changed pretty
dramatically since that time, and we have learned so much since
then.
    For example, in 2001, Facebook didn't exist. Yet here in
2013, NCLB is still somehow the law of the land. And as 2014
approaches, the law has become a barrier to reform. It,
unfortunately, encouraged--and this was not intentional, but
just was a byproduct. It, unfortunately, encouraged too many
States to actually lower standards and to teach for the tests.
    I went on a listening and learning tour in late 2009 and
gathered feedback from teachers and parents and administrators
and students themselves. I visited more than 30 States to
figure out what we could do to fix No Child Left Behind, and my
staff traveled to literally every State in the Nation.
    After hearing from stakeholders in early 2010, our
administration issued a blueprint for reform. We called on
Congress to work together to complete a strong, bipartisan
reauthorization that would correct the shortcomings of NCLB and
better protect and serve all students and put the right
incentives in place to raise the bar.
    Chairman Harkin, Senator Alexander, Senator Enzi, and all
of you on the committee--many of you will recall that I came up
and met with you repeatedly to try to push through a strong
bill that would protect and serve all students. But you also
know we stand here today without that reauthorization. So in
September 2011, 4 years after ESEA was due to be reauthorized
and 16 months after the President issued his blueprint,
President Obama announced that for States committed to reforms
that would implement NCLB's goals, our department would grant
waivers that comprise ESEA flexibility.
    I granted those waivers pursuant to my authority as
Secretary of Education under Section 9401 of ESEA. That statute
permits the department to grant waivers to certain provisions
of NCLB where a State has demonstrated those waivers are
necessary to improve student learning and increase the quality
of instruction. Providing waivers was always, always our Plan
B. But I was not willing to stand idly by and do nothing while
students and educators continued to suffer under No Child Left
Behind.
    Today and every day, I stand ready, willing, and able to
partner with all of you to fix NCLB. But in the interim, let me
talk to you about why I thought waivers were important. I'm
going to try and walk you quickly through a number of slides
and then open it up.
    The first one is just trying to look at what existed before
and where we tried to go. As I mentioned earlier,
unfortunately--this, I think, was not at all intentional, but
19 States, almost 40 percent of our Nation, lowered standards
to comply with No Child Left Behind. It's one of the most
insidious things that happened there. What we try to do is
support States that are raising standards, and we've seen 46
States raise standards, a huge step in the right direction.
    I think under No Child Left Behind there was far too much
focus on a test score and on the proficiency cut score, that
bubble of students around that narrow bar. What we wanted to
put in place were multiple measures and a focus on growth and
gain so there weren't incentives to teach to a narrow band of
students but to help every child, whether the child was special
needs or a highly gifted child or anyone in between, to provide
incentives for teachers and schools and States to be helping
every child to progress.
    No Child Left Behind labeled many schools failures but
didn't do a lot to help those schools and those students who
were actually struggling. That fundamentally has to change. To
me, it's not about labels. It's about what are we doing to
change students' lives and change their educational trajectory.
Many, many schools under No Child Left Behind were labeled as
failing. Some were absolutely struggling. Some were actually
showing real progress. And when schools are improving each
year, to have them labeled as failures doesn't make sense.
    I've often also said the only reward under No Child Left
Behind is you are not labeled a failure. Something is wrong
with that. When you have schools and districts and States who
are beating the odds every single day, and they're seeing
remarkable student growth and achievement in under-resourced
communities, we have to shine a spotlight on excellence and
success. And, to me, that's a huge important part of what we
try to do with the waiver package.
    I very much agree philosophically with Senator Alexander. I
think too much of what happened under NCLB was dictated from
Washington, and there are many strings attached to how
districts could spend. I think as a country we underinvest in
education. We'd like to invest a lot more, and I'm going to
always be the biggest proponent of that.
    But where we have existing resources and we're dictating
from Washington how they be spent, that ties the hands of local
educators who know their children and communities best. One of
the things we've done through waivers is free about $2.8
billion, not in new money, but in existing money, not dictating
from Washington how that be spent, but listening to local
educators, holding them accountable for results, but letting
them figure out what the best ways are to help children learn.
    Then, finally, there was a significant emphasis in NCLB on
teacher quality, and that was an important step in the right
direction. However, the measures of teacher quality were all
based upon paper credentials. There was no connection between
what that teacher was actually doing in the classroom and
whether that teacher's students were actually learning. We've
tried to bridge that divide with waivers.
    Next slide, please. As I stated earlier, I'm trying to go
through these pretty quickly. Under No Child Left Behind, 19
States dummied down standards. I come from one of those States,
from Illinois, and I had a shock of a lifetime about midway
through my course as CEO of the Chicago Public Schools. We had
been raising student test scores almost every year and felt
pretty proud of that. We got back data from an outside
independent group that showed our goal of getting students to a
proficiency cut score, while that looked important, had no
correlation to them being successful beyond high school and
college.
    In fact, if we were serious about getting them ready, that
proficiency cut score was far too low. We had to get our
students to an advanced status. We found that out
independently. The State's resources and the State's
accountability system was incenting all the wrong behavior and,
in fact, doing, I thought, grave damage to children and
families. We've tried to reverse that.
    No Child Left Behind had a focus on accountability and data
and subgroups as very important. However, it was a very narrow
focus. And, yes, reading and math are hugely important. But I
always say if you have the best third grade test scores in the
world, but 50 percent of your students are dropping out of high
school, you are not changing those students' lives. You can't
go get a job with a third grade test score.
    So looking at not just an absolute score, but looking at
growth and gain, how much students are improving each year, the
student comes in far behind and leaves your class just a little
bit behind. That's not a failure. That's great progress. That's
tremendous work. And I want to look at outcomes. Are graduation
rates going up? Are dropout rates going down?
    For me, the biggest challenge we have as a nation is that
we have a 25 percent dropout rate today. We have a million
young people leaving our schools for our streets. There are no
good jobs out there for them. We have to do everything we can
to increase graduation rates and reduce dropout rates. We've
seen some real progress there, but we have a long, long way to
go.
    The goal can't simply be just to graduate from high school,
but what are you doing beyond that? And for the first time in
our country, the first time in our country, under the waiver
package, States are starting to look at outcomes beyond
graduation. Are students going on to college? Are they going on
to college not having to take remedial classes? Are they
actually prepared? Are they persevering while they're there?
    And looking at a more comprehensive set of indicators, is
it more complex? Absolutely. Does it present a much more honest
and comprehensive and long-term view of what I call outcomes?
This is a huge step in the right direction. All the leadership
here, all the creativity, is coming from States.
    Next slide. This one is a fascinating one, Mr. Chairman,
that I didn't fully understand until we got into this. And I
thought it would be particularly pertinent because of your
extraordinary work in championing the rising opportunities of
young people with disabilities. No Child Left Behind, again,
not intentional--and this gets a little technical--but because
of large N sizes, there were many, many hundreds of thousands
of children across the State who were invisible. Let me say
that one more time--who were invisible under No Child Left
Behind. They were not a part of the accountability system.
    And what I've given you is just a small handful, like 9 or
10 States, of how many more schools under waivers are now
accountable for the results of children with disabilities
versus under No Child Left Behind for the past X number of
years. This is true for children with disabilities. This is
true for English language learners. This is true for poor
children. This is true for African-American children. This is
true for Latino children.
    The fact that these children were unaccounted for, were
invisible, is, again, not something I think anyone knew. I sort
of wondered had this body been aware of this fact, would
someone like you, Senator Harkin, have voted for the original
bill if you knew how many children with disabilities were not
in the mix. But to see so many thousands of additional schools
and hundreds of thousands of students now where adults have to
be accountable for their learning every single year--this is a
very, very significant step in the right direction.
    Next slide. I talked about this a little bit. But the goal
is not just to label challenges but to help those students most
in need of help. Raising the bar on college- and career-ready
standards for every single child is hugely important, making
sure that we are closing gaps. Kati Haycock will testify
later--has talked a lot about closing gaps in half at a rapid
pace. I think all of us would like those gaps to disappear
tomorrow. But that, unfortunately, is not where we are.
    If we can rapidly close those gaps in half, we start to
demonstrate what the country is capable of doing. If we can
have States and districts start to break through on this, we
create a body of evidence of best practices. And making sure
that those students that are furthest behind are improving at a
faster rate than those who are further ahead is a core tenet
around our flexibility.
    And, again, making sure that we are taking real action, not
just labeling schools as failures, but taking dramatic action
when schools aren't working--and the vast majority of schools
in our Nation are improving, are getting better each year. But
we have a relatively small number of schools where 40, 50, 60
percent of students are dropping out, and that's been true not
just for a couple of years, but often for a couple of decades.
    Yes, we have insisted on strong, clear action, and that's
been a little bit controversial. But in those cases, I'm
absolutely convinced that we have condemned not just those
children, but entire communities to poverty. We have to
challenge the status quo and do something better, and we're
seeing a tremendous level of courage and creativity coming from
school districts and States around the country there.
    Next slide. We talked about this a little bit. Just to give
you one concrete example, in Massachusetts, there was a school
that was labeled a failure under No Child Left Behind, but
actually was showing real progress. And under the new system in
Massachusetts, the State-designed system, that school, Columbus
Park Preparatory Academy in Worcester, MA--it was labeled among
the bottom 20 percent in schools in the State under NCLB. In
fact, it is getting better each year. That school is not a
failure. That school is a success. It is improving. It is doing
the hard work.
    Shining a spotlight on success, not mislabeling them as
failures--and think how demoralizing that is to teachers who
are working so hard to be labeled a failure when they're seeing
real improvement each year. Think how confusing that is to
parents, who think, ``My school is getting better, I'm
participating,'' and then you get a letter from the Federal
Government in Washington, saying, ``No. In fact, your school is
a failure.'' It is dishonest. It is misleading. It is
demoralizing. It is the wrong thing. Shining a spotlight on
success is hugely important. We have to do a lot more of that
in this country.
    Next slide. I talked about this. We've tried to free almost
$3 billion in title I money that under No Child Left Behind was
prescribed by Washington. We don't have the best ideas here.
The best ideas come from the local level, and we want to
continue to empower folks to use scarce resources to best meet
the needs of their children and communities.
    Next slide. There's nothing more important than getting a
great principal into every school and great teachers into every
classroom. Talent matters tremendously in education. And for
decades in this country, we have acted as if talent didn't
matter. We've acted as if every teacher was the same or every
teacher was above average.
    We haven't focused on principal support. As in education,
as in politics, as in the business world, as in nonprofits,
leadership matters. Great principals lead great schools. Great
teachers do miraculous things with children. When you have
teachers who aren't as effective, students fall further and
further behind. It gets to the point where it's almost
impossible to catch up. So having honest, hard, tough,
difficult conversations around teacher and principal
effectiveness, we have seen a level of activity and dialog
around the Nation as part of the waiver process that I think is
extraordinarily healthy and, frankly, is decades overdue.
    Let me just give you one example. Governor Haslam, your
good friend, Senator Alexander, in Tennessee, I think has done
a remarkable job of working to improve teacher and principal
evaluation systems, and he is now in the second year of
implementing the new statewide system there in Tennessee. And
there were lots of skeptics and many real challenges in
Tennessee, but collectively, the State, I think, has listened
and learned and improved the system.
    Department officials there in Tennessee met with 7,500
teachers around the State and surveyed 16,000 teachers and
1,000 administrators for input on the new evaluation system. In
Memphis, art teachers were very frustrated because they were
being evaluated based in part on school-wide performance in
math and English, and they thought that wasn't fair.
    You had a really enterprising and really innovative music
teacher named Jude Davison in Memphis. He thought he could do
something better, and he convened a group of arts educators to
come up with a fairer system. He wasn't scared of
accountability. I haven't met a teacher yet that is. They just
want it to be fair. They want it to be honest. And after he
surveyed art teachers around Memphis, Mr. Davison's committee
developed a blind peer review evaluation to access portfolios
of student learning in the arts.
    That work has proven to be so popular that Tennessee is now
making that system available statewide. That's the kind of
innovation, flexibility, and local leadership and creativity
that waivers have spurred that were basically impossible under
No Child Left Behind.
    Next slide. You know, at times, partisan ranking here in
Washington--I appreciate both Chairman Harkin and Senator
Alexander and your huge commitment to working in a bipartisan
way. What we've seen across the country is tremendous
bipartisan support for waivers. We've seen 32, 33 States come
in across the political spectrum from far left to far right. We
have another seven or eight States that are currently under
review. And for all the drama you have here in Washington,
there's been a lot of quietness, just a lot of hard work,
courageous work, going on in States around the country.
    The media loves to focus on controversy and noise. The lack
of noise here has, I think, led to an under-reported story of
how much courage, how much leadership, regardless of politics
and ideology, that we've seen across the country.
    Let me just close by saying that we approach this work with
a tremendous sense of excitement coupled with a real sense of
humility. What's exciting about ESEA flexibility is that States
are leading the way in strengthening education for all
children. In the vast majority of cases, State and local
leaders have been extraordinarily innovative and have shown
great courage in challenging the educational status quo in
which 25 percent of our young people don't ever graduate from
high school.
    And as I've said a number of times, I'm not interested in
flexibility simply for its own sake. I'm not interested in
plans that just look good on paper. We're working with every
State that receives a waiver to ensure that they follow through
on their commitments. And we are partnering with each State to
support their ambitious and tough and challenging work, with a
laser-like focus on what makes the difference for children.
    I don't have a moments doubt that State flexibility is a
significant and major improvement for children and for adults
from NCLB. But I absolutely know at the same time that we and
our partners in the States will make mistakes as we move
forward on implementing flexibility. We have to continue to
learn from these mistakes, correct them quickly, and share that
learning across the country. But we can never let the perfect
become the enemy of the good, and that's what I think we've
done for far too long here in education.
    We all approach this work with a clear knowledge that if
this was easy, it would have been accomplished a long time ago.
Ensuring a world class education for every child is both a
demanding challenge and an urgent imperative for our Nation,
our communities, and our children. I know that all the members
of this committee share those core beliefs, and I look forward
to continuing to work with members to ensure that, in America,
education truly becomes the great equalizer. It must be.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Secretary Duncan follows:]
            Prepared Statement of the Honorable Arne Duncan
    Chairman Harkin, Ranking Member Alexander, and members of the
committee. Thank you for inviting me here today to testify on the
flexibility that the Department of Education has provided under the
Elementary and Secondary Education Act of 1965 (ESEA) to empower
States, districts, and schools to move forward with reforms that
benefit all students. I say that we have provided flexibility under the
law to States, which is true, but the guiding principle of ESEA
flexibility is that it is for students.
    We have worked closely with States to ensure that every State that
receives flexibility from the No Child Left Behind Act (NCLB)
demonstrates its commitment and ability to improve educational outcomes
for all students, close achievement gaps, increase equity, and improve
the quality of instruction. However, this is not a change from one
federally mandated, top-down system to another. Congress set the
standard for flexibility in the law, and each State that has received
flexibility met that standard in its own way. Each State's plan
addresses the unique strengths, challenges, and needs of its districts,
schools, principals, teachers, and students.
    No Child Left Behind was a landmark Act. Eleven years ago,
Congress, with strong bipartisan support in the Senate and the House,
rightly said that our schools needed to focus on all students; that for
America to continue to succeed, all of our children had to succeed.
That is why NCLB sought to hold every State, district, and school
accountable for 100 percent of students being proficient in reading and
math by the end of the 2013-14 school year.
    NCLB's goals were the right ones--holding all students to the same,
challenging standards; closing achievement gaps; and providing
transparency and accountability for the proficiency and graduation
rates of all students. But, the closer we have gotten to 2014, the more
NCLB has changed from an instrument of reform into a barrier to reform.
And, the kids who have lost the most from that change are those who
benefited the most in the early years of NCLB--students with
disabilities, low-income and minority students, and English learners.
    Because, in practice, NCLB unintentionally encouraged States to
lower their standards so that more students would appear to be
proficient, even though they weren't--and many States did. NCLB also
labeled every school that missed a single target as failing, including
some that were making progress in educating disadvantaged students and
closing achievement gaps. It mandated one-size-fits-all interventions,
regardless of a school's needs, preventing critical resources from
being targeted where they could do the most good for kids. The
exclusive focus on tests, and disregard for other important measures of
success, forced teachers to teach to the test. And, subjects such as
history and the arts were pushed out.
    That is why, in March 2010, the President released his ESEA
Reauthorization: A Blueprint for Reform, and called on Congress to
complete a strong, bipartisan reauthorization that served the interests
of all of our children. He convened--Chairman Harkin, Senator
Alexander, Senator Enzi, and other congressional leaders--at the White
House to develop a plan for reauthorization. Our Administration greatly
appreciates the effort that this committee has put forth to reauthorize
the law, but as you know, that has yet to happen.
    So, after more than a year of working with Congress, in August
2011--4 years after ESEA was due to be reauthorized--the President
directed me to develop a plan to provide States relief from some of No
Child Left Behind's outdated and burdensome provisions, in exchange for
new commitments to reforms to help prepare America's students to
graduate from high school prepared for college and a career--higher
standards that reflect college- and career-readiness; effective
accountability systems that hold schools accountable for the
performance of all students and all subgroups; and ensuring that every
child has a great teacher and great principal. The following month, he
stood with Democrats, Republicans, and Independents, including Chairman
Harkin, Governor Haslam of Tennessee, and Governor Chafee of Rhode
Island, to announce the details of that package. And in February 2012,
our Administration approved the first 11 States that would receive new
flexibility under the No Child Left Behind Act.
    This flexibility represents a new Federal-State partnership forged
by our Administration, using the authority provided by the law to
empower States and school districts to decide how best to meet those
commitments, and supporting those efforts. Because what has become
clear from the past decade of NCLB is that the goals are important, but
they are only the beginning, not the end. What is most important is to
create the conditions and provide States, districts, schools,
principals and teachers with the tools for reforms to grow. Congress
recognized that principle of continuous improvement when it provided
for flexibility in NCLB but limited it to waivers that would increase
the quality of instruction and improve academic achievement for
students. And we have maintained that high bar, because, as Congress
recognized, flexibility for flexibility's sake does nothing for
students, their families, or our country.
    Almost exactly 1 year ago, the President announced the first group
of States to receive ESEA flexibility. Today, 34 States and the
District of Columbia have received flexibility--of these, 20 are led by
Republicans, 14 by Democrats, and one by an Independent. Nine States,
Puerto Rico and the Bureau of Indian Education have submitted requests
that we are currently considering, and we expect additional States to
submit requests by February 28.
    States are using their flexibility to move forward with reforms
that benefit all students. They are implementing more effective
accountability systems that include multiple measures of school and
student performance--so that when States, districts, and schools think
about how best to target supports and interventions, and how to help
principals and teachers improve their performance, they are looking at
a range of factors that affect students, not just at a single test on a
single day.
    For example, Colorado has developed a system that emphasizes
individual student growth and provides parents and community members
with data showing whether students who aren't meeting standards are on
track to meet them within 3 years, and whether students already
achieving at high levels are maintaining that performance. Schools are
also being rated based on current achievement, graduation rates,
dropout rates, and ACT scores. New York is targeting not just the
specific schools where subgroups are struggling, but the districts
where subgroup graduation rates or achievement are among the lowest in
the State. Schools in these districts, as well as other schools that
are not meeting graduation rate or achievement targets, conduct in-
depth needs assessments and develop plans to implement targeted
interventions to improve achievement and graduation rates. These kinds
of reforms can make a real difference in outcomes for students with
disabilities, low-
income and minority students, and English learners, in ways that NCLB's
one-size-fits-all requirements simply could not.
    States are also focused on building capacity at all levels of their
education system, for long-term, continuous improvement that benefits
students, instead of simply focusing on avoiding Federal labels. Many
States are creating State-level offices and regional centers that
oversee and support low-performing schools and districts.
Massachusetts's District and School Assistance Centers help districts
assess their needs and plan interventions, and provide opportunities
for districts and schools to learn from each other and share what
works. Kentucky's Office of District 180 worked with universities to
establish Centers for Learning Excellence, which place specialists in
schools to work directly with the principal and teachers to help
improve instruction.
    These are just some examples of what States are doing with ESEA
flexibility that hold great promise for our Nation's children. I hope
that their efforts will inform your work on reauthorization, just as
they are informing all of the Department's work on education reform.
    In addition to better accountability systems, flexibility is
supporting improved teaching and learning across all districts and
schools in these States. States are putting in place more rigorous
standards, and have developed plans to ensure that all students,
including students with disabilities and English learners, have access
to those standards. Now, parents and teachers really will know whether
their kids are on track to graduate from high school prepared for
college and careers.
    And, States are implementing improved support and evaluation
systems to provide principals and teachers with better information
about their practice and targeted professional development to improve
that practice. Senator Alexander's home State of Tennessee has been a
leader in this work, and is in its second year of implementing a new
evaluation system that takes into account multiple measures of teacher
practice and student learning and ensures that teachers receive regular
feedback to inform their instruction.
    Finally, we have established an unprecedented, department-wide
system of monitoring and support for States. Our job is to ensure that
States are implementing their plans, and working with them to make sure
that they are achieving results for kids and helping them to improve
their plans where they are not. Because this isn't simply about
compliance--it's about results. And, we are providing technical
assistance and facilitating communities of practice among States and
educators--because the greatest progress will come from educators
solving new challenges and problems together.
    As we move forward, we will continue to reach out to States,
districts, schools, principals and teachers, parents, students, and
others who care about education, to make sure that flexibility is
making a difference for students--through higher standards, supports
and interventions targeted to students' needs, and improved teaching
and learning. We will work with States, districts, and schools to
support educators as they continue to work to improve their efforts, so
that all students graduate from high school ready for college and
careers. America's children and families deserve nothing less, and I
look forward to continuing to work with this committee toward that
goal.
    Thank you, and I am happy to answer any questions that you have.

    The Chairman. Mr. Secretary, first, thank you for that
excellent testimony. More than that, I want to thank you for
your leadership over the last 4 years in what I would call
stepping into the breach. When we couldn't act here in the
Congress for whatever reason, you saw it necessary to not just
sit idly by and let No Child Left Behind tear down our
education system even more.
    You acted with courage and forthrightness in setting up a
system that I believe was fair to all. In setting up a waiver
system that basically set the bar high but let States figure
out how they might do it. You know, the States are still the
great experimental laboratories.
    But I think when we passed ESEA in 1965 and since then,
we've always said there is a role for the Federal Government in
making sure that kids that are disadvantaged, for whatever
reason, are fully included in our educational system, are fully
challenged, fully challenged to the utmost of their abilities.
I think what you have done in the last couple of years with the
waivers is instructive to us as we begin to renew our efforts
to reauthorize the Elementary and Secondary Education Act.
    With that as a background, I just have a couple of
questions that I would like to proffer. Again, you ensured that
the waivers went beyond reading and math--thank you. I have
been talking about that for a long time; areas that are
important for a well-rounded student: history, sciences, music,
arts, physical education.
    In your own words, how have the waivers helped to expand
that narrow focus that was one of the unintended consequences
of No Child Left Behind? How was that expanded? You had a whole
list of them on that slide.
    Secretary Duncan. Yes. I don't know if we can go back to
that slide, but I think, again, the initial focus of NCLB on
reading and math--that's right. Those are the core, those are
fundamental, and those are foundational. It's a starting point.
It can't be an ending point. In looking at a holistic set of
different measures and, again, looking not just at a test
score--and I keep going back to that. Looking at a proficiency
cut score creates lots of the wrong incentives to teach to a
narrow band of children, not teach to 100 percent of children
in a class.
    Looking at growth and gain--how much are students
improving--but then looking at a whole host of indicators
beyond test scores. I worry that we've done too much teaching
to the test. Testing tells us some things. But I want to look
at graduation rates. I want to look at dropout rates. I want to
look at students taking and passing AP classes, IB classes,
dual enrollment for college, getting college credit while
they're in high school. I want to look at what their academic
trajectory is after they graduate from 12th grade.
    You have, not because of our mandates, but because of State
leadership, a whole host of indicators that different States
are looking at. And I think this body, as you move toward
reauthorization, has an amazing chance to take the best ideas
from the best States and figure out how to comprehensively,
holistically, not simplistically, evaluate how schools and
districts and States are doing.
    The Chairman. States have been responsive to this, right?
    Secretary Duncan. This has all come from States.
    The Chairman. So that whole line of ESEA flexibility has
come from the States.
    Secretary Duncan. And they've come up with some great ideas
that me and my staff could never have imagined.
    The Chairman. I think that's important to note. Second, one
of the challenges with NCLB transparency was that many schools
had not been reporting the proficiency of students because they
reported there were too few students in a subgroup. Now, I will
back up a little bit. There were some good things in No Child
Left Behind, and one of those was beginning to look at these
subgroups, this disaggregation of information.
    The problem we had in NCLB, as you know full well, Mr.
Secretary, was that we didn't define how big that subgroup was
to be. Some States put the N group, to use that lingo, very
high and so children were hidden. Some of the information that
we have gotten from your department says that more than 10,000
additional schools will report on student proficiency because
of these new accountability systems.
    But now, once again, States have introduced the concept of
super subgroups, the combining of some subgroups such as
students who are English learners with students with
disabilities, to form a larger subgroup. If these super
subgroups are being used, how are we going to know how kids
with disabilities, for example, are performing?
    Secretary Duncan. It's a great question. Going back to No
Child Left Behind, hundreds of thousands if not millions of
children were invisible under that system, and literally tens
of thousands of schools, individual schools, were not
accountable for children in those subgroups. So I think no one
in this body, I assume, understood. I didn't begin to fully
understand at the time. As we've gone through this process,
it's become much more apparent to me.
    So what we've tried to do is make sure, again, that
hundreds of thousands of children if not millions--that tens of
thousands of schools were now accountable for the academic
outcomes of children with disabilities and African-American and
Latino and ELL students and disadvantaged students who live
below the poverty line and homeless children. A fine line that
we talked briefly about before we came out is, ideally, you'd
want to get down to an N of one for that child.
    You can't do that for a couple of reasons. One, there are
some protections, some privacy laws, that absolutely make
sense. And, second--and I'm no psychometrician--but,
statistically, you have to have a certain N size in order for
people to draw conclusions from the number of children--let me
be clear--not just in a school, but in a grade, in third grade,
in fourth grade, in fifth grade.
    What we've tried to do is make sure that we maintain that
accountability for subgroups, but use this idea of super
subgroups to actually brighten the focus, brighten the
spotlight on subgroup achievement. States continue--this is
really important. States continue to have to publicly report on
each subgroup separately. But by combining subgroups, thousands
more schools are now specifically accountable for the children
in those subgroups than they would have been before.
    And we did not allow any State to use a combined subgroup
without demonstrating what protections they had in place to
ensure that they couldn't mask any individual subgroups'
ongoing failure to meet performance targets. So there's a level
of technicality we can get into. I think it's a really
important conversation for this body to have with us as we move
forward on reauthorization.
    Did we get it perfectly? I'm not sure if we got it
perfectly, but I promise you this is a huge, huge step in the
right direction. And with reauthorization, whenever that comes,
we have a chance to take the next step.
    The Chairman. Thank you, Mr. Secretary.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Secretary, do you plan to offer waivers to individual
school districts and States that didn't submit a request for a
waiver, like Texas, or that had their applications rejected,
such as California or Iowa?
    Secretary Duncan. Let me back up. California we did reject.
Iowa we did not reject. We're still working with Iowa and
another State or two. California has absolutely the right to
continue to reapply. We have a deadline at the end of this
month. My strong preference is to work with States. I think
there's lots of both legal and--you know, 15,000 school
districts. That's a hard portfolio to manage. Fifty States--we
think we can get our arms around that. So we'll cross that
bridge when we get there.
    But we have until the end of the month to have States
apply. The vast majority of States in the country we're working
in very close concert with. And my hope, in an ideal world, is
that every State would come in by the end of the month. Will
that happen? I'm not sure. But we're actually in conversations
with some surprising States, and I'm hopeful there.
    Senator Alexander. So at this time, you're not planning to
grant waivers to individual school districts who don't go
through the States.
    Secretary Duncan. Yes. My entire focus right now is on
States. Again, at the end of the month, we'll see who's in, who
did not come in, and who we're still working with. And let me
be clear. There are a couple of States like Iowa where they
applied and we haven't approved yet, but we haven't rejected.
Those are still in process, and those could still be approved
at a date beyond the end of this month.
    Senator Alexander. Well, as I read the statute, I don't see
any authority that you have to approve an application for a
waiver from an individual school district unless it goes
through a State. So I am pleased with that answer.
    These waivers last for 3 years? Is that the idea--the
authority?
    Secretary Duncan. I think we have the ability to waive for
up to four. We have done sort of 2-year waivers. We really want
to learn and then decide on how they are implementing and
whether to re-up or not. And, again, in an ideal world, sooner
rather than later, at some point, we would together find a way
to reauthorize and fix the law.
    Senator Alexander. What happens to the waivers when the law
is reauthorized?
    Secretary Duncan. My understanding is that the waivers
become obsolete.
    Senator Alexander. They go away and States move back to the
law?
    Secretary Duncan. That's my strong belief, and I'm happy to
be corrected if I'm wrong. But, again, to be very clear, this
was our Plan B because of the congressional lack of action.
    Senator Alexander. The concern I have both in the waiver
and even in the law is that--let's take teacher evaluation. You
pretty well write the law for a State on teacher evaluation. I
mean, we've had a little experience with that in Tennessee, and
I appreciate your compliment of Governor Haslam. I totally
agree with you. I don't know of a State that quietly has done
more over the last number of years to deal with the difficult
problem of finding fair ways to reward outstanding teaching. I
mean, that's sort of the holy grail of K through 12 education,
and I think you and I agree on that.
    But your prescriptions--I mean, you've got six criteria
that a State must follow in developing a teacher evaluation
system, you said in your testimony. What if a State in its
waiver doesn't do what you and your department think it ought
to be doing according to, quote, ``meaningfully differentiate
performance using at least three performance levels''? Do you
go in and tell them exactly what to do, or do you jerk the
waiver out? How detailed do you get in helping a State write
its own teacher evaluation system?
    Secretary Duncan. Well, obviously, this is still very early
on. But the fact of the matter is the vast majority of States
around this country, again, across the political spectrum,
we've worked in great partnership with, and we're finding
solutions together. So, again, you've got testimony from a
couple of State superintendents. Feel free to talk to any
Governor or any State superintendent around the country.
    And have we been perfect in this? I promise you we haven't
been. Have we tried to listen and learn and work together? You
know, that spirit--I think anyone would tell you we've done our
best to try and be a good partner. And our goal going forward
in reauthorization is that we build upon the good work of
States and not go back and----
    Senator Alexander. Well, let me--I'm about out of time.
    Secretary Duncan. I'm sorry. I'll shorten my answers.
    Senator Alexander. No, no. I don't want to interrupt you.
But I'd like to ask you one last question. As we look ahead, we
need to reauthorize ESEA. Right? I mean, we need to do that.
That's the Administration's goal. That should be our goal.
    Secretary Duncan. We needed to do that years ago.
    Senator Alexander. What advice would you have for this
committee, based on your work with us over the last 2 years, on
the easiest way for us to work together to get a result in this
Congress that we weren't able to get in the last Congress?
    Secretary Duncan. Well, I think it's no secret that for a
couple of years Congress has been pretty dysfunctional, and
there's been a breakdown along partisan lines and an
inflexibility, an unwillingness to compromise and to find
common ground, not just on this issue but on many, many issues.
And I think if there's any area where folks want to come
together in a nonpartisan, non-ideological, bipartisan way, I
can't think of a better area than education. And I think with
the leadership of you two here and folks across this committee,
I'm actually hopeful.
    But my team and I have put in hundreds and hundreds of
hours in what proved to be a fruitless effort over the past 2
years. And in all candor, I would have liked to have gone to
waivers earlier to give States more time to be thoughtful. But
in deference to leadership in Congress, which was the right
thing to do, we delayed that move for months.
    Whatever I can do to be a good partner, please hold me
accountable to do that. But I think at the end of the day, not
just on this issue but on a whole host of issues facing our
Nation, we need congressional leaders to find the common ground
that you talked about and come together.
    Senator Alexander. Well, I look forward to working with
Chairman Harkin on that as he--we were both thinking the same
thing. We put in lots of time, too, and we produced a bill. We
voted it out of committee in a bipartisan way, and it didn't
get brought to the floor for whatever reason. So I'm committed
to moving ahead. I'd like to do that. I look forward to working
with you and with the Chairman, and we'll talk more about that
as the days go on.
    Secretary Duncan. I know how committed you are. I know
that.
    Senator Alexander. Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    And in order of appearance, it'll be Senators Franken,
Hatch, Sanders, Isakson, Bennet, Roberts, Baldwin, Murkowski,
Whitehouse. I now recognize Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I agree that we should work
together to do a reauthorization. I was proud of the work that
we did as a committee to pass a bipartisan bill out of this
committee last Congress. It wasn't everything I wanted, but I
hope we can do that again, and I hope we can move it to the
floor.
    I want to ask you a few questions that are kind of things
that I think about a lot. Growth, measuring growth--I remember
your first testimony while I was on this committee when you
talked about taking a sixth grade teacher who has a kid with a
third grade level of reading, and that teacher takes that kid
to a fifth grade level of reading. That teacher is a hero. But
under the way No Child Left Behind worked, that teacher was a
goat because the kid didn't reach proficiency.
    I think it's really important that--and I know that almost
all of the States that have flexibility, have waivers, are
using a growth model in some way. What is your concept of the
way we should measure growth? Because it's so important to me
that we're measuring every kid's growth. No Child Left Behind--
I like that name.
    When you have bubble kids and teachers teaching to--we call
it in Minnesota the Race to the Middle. The kid at the very top
and the kid at the very bottom are ignored. I think every
child's growth should be measured. What are your thoughts on
that?
    Secretary Duncan. Amen, and let me make it more stark. It
wasn't the top kid and the bottom kid. It was the top 45
percent and the bottom 45 percent, the 90 percent of kids who
were not the focus, and it was that small 5 or 10 percent
around that proficiency. So not just the top and the bottom,
but the vast majority of kids on either end of the spectrum--
that was not the incentive under No Child Left Behind.
    Again, to get away from looking at just the proficiency and
to look at, to your point, how much every single child, whether
they are special needs, whether they are average, whether they
are highly gifted--is that child improving each year? And is
there a perfect way to measure it? No. Are lots of States
working in this area? Absolutely. So there's been huge progress
here.
    The one point I want to make that I think is so important
is that while waivers was our Plan B, the tremendous benefit of
waivers, which, again, I didn't fully anticipate, was a level
of creativity coming out of the States. And as you guys go back
to reauthorize, you should not go back to our blueprint or,
frankly, your blueprint. You should go get the best ideas
coming from the best States. And if you do this reauthorization
around growth and around everything else we're going to talk
about, it could be pretty spectacular.
    I think what we have done is we have speeded up the level
of learning as a country, and, again, not perfectly. But the
amount of creativity around growth and around a whole host of
other subjects coming from States, including Minnesota, is
pretty remarkable. And the best thing I could do and the best
thing this body could do--and a better answer to your question
as well, Senator Alexander--is to listen and to learn and to
pay attention to the creativity coming from the States, and if
we do that, we're going to land in a very, very attractive
spot.
    Senator Franken. I want to ask you about computer adaptive
tests. I was doing a principal roundtable, because a piece of
what I want to do is to make sure that we're recruiting and
training principals for high-need schools. I had a principal
roundtable, and a principal referred to NCLB tests as
autopsies. And what he meant by autopsies was that the kids
take the test in late April, and they get the results in late
June when the kids are out of school, and the teachers can't
use them to instruct their instruction.
    With computer adaptive tests, you get the results right
away because they're computerized. They're adaptive in that
they can--and this is an issue that I want to ask you about.
They can measure you out of grade level, and I think that makes
it easier to measure growth. And I want to know how you feel
about computer adaptive tests. I feel very strongly that we
should have them as long as you're making sure that every kid
is getting toward proficiency on that grade level.
    But it seems that growth and computer adaptive testing, in
my mind, go hand in glove with the added addition of being able
to get the results right away.
    Secretary Duncan. I think you and I are in absolute
agreement. And on a broader basis, again, different from 2001
when NCLB was originally signed into law, the amount that
technology can and should change how we educate children is
pretty remarkable. There are schools in New York City, in
John's State, where--again, let me be clear between testing and
evaluation. I'm not a big believer in a whole bunch of
testing--but where every single day, teachers are understanding
not what they taught, but what their children learned, and it's
a really important distinction.
    The goal of teachers is not to teach. The goal of teachers
is to have their children learn. Every single day, using
technology, teachers have real-time feedback as to what their
children learn that day, not once a year as an autopsy after
the fact. But think about how empowering that is for great
teachers, to understand every single day that,

          ``This is what my children learned and comprehended
        and need to move to the next level, or this is what
        they didn't get, and I have to figure out a way to
        reteach.''

    To have that feedback on a daily basis so they come in the
next morning with a specific game plan, an instructional plan
for that child--think how radically different that is than a
teacher teaching to a class of 30 or 35 all the same way, at
the same time, day after day after day, and having no real
insight into ``Are my children learning?''
    Senator Franken. Thank you. And may I have just in the
record that I realize that ``added addition'' is a tautology. I
said that earlier in my question. I think so. An added
addition? It's not a tautology? What is it?
    The Chairman. An added addition.
    [Laughter.]
    Senator Franken. OK. I'll submit that question to a
grammar----
    Secretary Duncan. I don't know what tautology means.
    Senator Franken. A redundancy.
    Secretary Duncan. Thank you.
    Senator Franken. I'm sorry. I've wasted everyone's time.
    [Laughter.]
    The Chairman. I'm glad we got that cleared up.
    I guess Senator Hatch is not here.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    Secretary Duncan, I want to commend you for the leadership
in the department and thank you for staying on. We had a
conversation the other day, and you assured that. I just want
to memorialize that in the record because you've done a
terrific job.
    Can you explain to me how you describe the invisible
children, the children with disabilities who became invisible?
How did they do that under No Child Left Behind?
    Secretary Duncan. This is such an important point that I
think no one in this body, I assume, had any idea on it. I
don't think the people who wrote the bill had any idea on it. I
just gave you a slide for nine States for children with
disabilities. If you think about 50 States for children with
disabilities and then 50 States for children who are African-
American or 50 States for children who are Latino, ELL, think
about the math of this.
    So the short answer is that because N sizes, the number of
students that were captured for a school or for a grade under
No Child Left Behind, were relatively high, there are lots of
schools with children who are ELL or special needs or African-
American or Latino or who live below the poverty line who are
in those schools who are literally, literally not a part of
that school's and, therefore, that district's and that State's
accountability system. So they were, by definition, invisible
under No Child Left Behind.
    Senator Isakson. But I thought the law dictated that they
would be in a disaggregated group for evaluation purposes, used
further to measure the school's AYP for the purposes of needs
improvement.
    Secretary Duncan. Only if the N size was large enough. And
the N sizes were too large--again, this is some gaming that
States did. You had N sizes of--I'll just make this up, but if
your N size was 80 in that school and that was approved, and
you had 79 kids, it didn't count.
    Senator Isakson. So that's how they got around the
evaluation.
    Secretary Duncan. Yes, sir.
    Senator Isakson. It's good for that to be public, because I
don't think a single member of the committee knew that. I
certainly didn't.
    Secretary Duncan. This is really, really profound. As the
committee moves forward to reauthorization, the idea of
invisible children has to go away.
    Senator Isakson. One thing I do know, though, as one of the
nine folks that wrote this thing back 12 years ago now, is we
knew the AYP was going to be a problem. The better schools did,
the harder it was going to be to meet it, and you'd end up
having performing schools becoming needs-improvement schools,
which is the reason why reauthorizing ESEA is absolutely
essential for us to do.
    But I want to commend you on the waiver system that you
developed. Georgia was one of the States that got a waiver. And
I think from those waivers and from those schools, the new
things they're doing give us a template for what we can do if
we can ever get around to reauthorization in terms of the
Congress.
    Secretary Duncan. Yes.
    Senator Isakson. It's kind of professional malpractice for
us to be blaming schools for the performance of a law which we
haven't reauthorized in, I think, 5 years. Is that right? 2007.
So I commend you on what you're doing in the flexibility.
    I know the one thing that I was most impressed with--and
I'm not bragging about my State. Well, I guess I am bragging
about my State. But the career and college performance
readiness index is a whole lot more understandable for both the
parent and the teacher and the department in terms of student
performance. And those are the types of things these waivers
are going to bring about.
    Secretary Duncan. Yes. Again, I just want to echo your
praise for Georgia and a lot of this creativity we've seen, not
around a third grade test score, but about outcomes for
children in high school and beyond. Georgia, Senator, has been
at the forefront of that and has really helped to push my
thinking. So I just want to thank your State leadership there.
And just to reiterate your point, when and if you guys move
toward reauthorization, there's a lot there to learn from
that's really valuable.
    Senator Isakson. My last question before I run out of
time--you've done a great job in terms of allowing alternative
certification to meet the qualified teacher requirements of
ESEA and No Child Left Behind. When we get to a
reauthorization, will you help us to memorialize that in ESEA?
Because if we don't, we're not going to be able to meet the
standards we need to meet in the classroom.
    Secretary Duncan. Yes, absolutely. Again, that goes to a
broader point, that this idea under--there's a lot of time and
energy in No Child Left Behind around what were called HQT,
highly qualified teachers. It was at that time, again, in 2001,
a step in the right direction to start to say that teachers
matter. The problem with that was it was 100 percent paper-
based and had nothing to do with student learning.
    I'm much less interested in paper credentials or
alternative or traditional routes. I just want to know, whether
it's traditional universities or nonprofits or whatever, that
those who are producing teachers for this country--are they
producing teachers that are having an impact on student
learning? We need a lot more of that, wherever they're coming
from.
    Senator Isakson. There are a lot more ways than just paper
and pencil ways to determine somebody's qualification. We've
got Troops to Teachers programs and things like that that are
really helpful and ought to be a part of an alternative
certification process.
    Secretary Duncan. The final thing, not to go on too long--
one of the reasons I'm a big fan of alternative certification
is that I worry about the growing lack of diversity in our
Nation's teacher workforce. And I've seen very, very little
creativity coming from schools of education around making sure
that our Nation's teachers reflect the great diversity of our
Nation's public school students. And many of the alternative
programs, including Troops to Teachers, are bringing us more
men, more men of color. We talk about the devastation,
academically, of far too many of our African-American and
Latino boys of color. Having a few more men of color as role
models and mentors and teachers sure wouldn't hurt.
    Senator Isakson. Thank you for your service.
    Thank you, Mr. Chairman.
    The Chairman. Senator Isakson, I just wanted to say that--
and I didn't want to interrupt your questioning, but having
followed this--and I know you were very active in No Child Left
Behind--the disability community was very happy with what
happened in No Child Left Behind, because before, there was
absolutely no assessment at all of students with disabilities,
and so now there was assessment done.
    This disaggregation, as you mentioned--it was only later on
we found, students with disabilities weren't part of the
accountability part of what schools had to account for, because
they were put in these big subgroups. On the one hand, they
were happy that, finally, kids with disabilities were part of
the assessment, so we now had that transparency, but they
weren't included in the accountability or the progress the
school had to make. That's why they are asking now about
putting some limits on how big that subgroup has to be.
    Senator Isakson. I remember that late night in the basement
of the Capitol when we were on the conference committee, you
and I together, working on that very thing.
    The Chairman. That's right, exactly. And, actually, at the
time, we were very happy about that.
    Senator Isakson. We were.
    The Chairman. As you said, times change. Right?
    Secretary Duncan. That was 12 years ago.
    The Chairman. That's exactly right.
    Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Thank you, Mr. Chairman. If it's OK, I'd
like to move the subject discussion just a little bit.
    Mr. Secretary, I have been extremely, extremely
disappointed about the Administration's current approach to
competitive grant programs--I think you and I have chatted
about this in the past--primarily programs like Race to the
Top. And I don't want any misunderstanding. I understand fully
the serious problems that urban America has and we have to
address that. I am absolutely supportive of putting
significantly more money in education from preschool to higher
education.
    But I hope that you understand that it's not just urban
America that has serious problems, that we have kids in Vermont
and in rural America who are struggling in their schools and
who want the opportunity for a decent education and to go to
college, where we in Vermont and all over rural America also
experience a major crisis in terms of preschool education. So
let me just discuss for a moment the Race to the Top program,
and I hope everybody hears this. And it's not a question of one
State fighting another State. We're all in this together.
    But here are the facts as I understand it, and if I'm
wrong, I would like you to correct me. Eleven States and the
District of Columbia have received nearly $4 billion Race to
the Top money, which is a very significant amount of money. Let
me name them off. This is 11 States--some of us believe
Washington, DC, should be a State--10 States plus Washington.
    There are 50 States in America. New York receives: $700
million; Florida: $700 million; Tennessee: $500 million; Ohio:
$400 million; Georgia: $400 million; North Carolina: $400
million; Massachusetts: $250 million; Delaware: $100 million;
Hawaii: $75 million; Rhode Island: $75 million; and DC: $75
million. Great. Vermont: 0; Iowa: 0; Wisconsin: 0; and ET
cetera. Minnesota: 0.
    So my point is----
    Senator Roberts. What about Kansas? Are we zero?
    Senator Sanders. You're not at zero, but you didn't get any
money.
    Secretary Duncan. Let me just for the record correct--
Minnesota has, in fact, received significant Race to the Top
money. Wisconsin has received significant Race to the Top
money. Other folks have, just to be clear.
    Senator Sanders. On early childhood, compared to this kind
of money? All right. Well, how many States, in fact, did
receive money?
    Secretary Duncan. Through Race to the Top, I don't have the
total in front of me. About half--maybe half or a little less
than half of the Nation's States received money through Race to
the Top. That's one area. We've also done lots of Promise
Neighborhood work, and we've done lots of work with district--
--
    Senator Sanders. In terms of the percentage of money that
went out, States may have received some money. Is it fair to
say that a relatively small number of States received the bulk
of the money?
    Secretary Duncan. Yes. That's a pretty fair statement.
    Senator Sanders. And the point that I want to make here--
and, again, this is not against New York. They have their
problems. Everybody else has their problems. We're all in this
together. Here's what my concern is. As I understand it, three-
quarters of the Nation's most populous States receive Race to
the Top money while more than three-quarters of the least
populous States didn't receive anything.
    And I want to give you an example of what the problem is.
The problem is that if you are a large State, a California or a
New York State, you'll have the educational bureaucracy that
can submit and work on enormously long and complicated
application forms, as I understand it. Again, I'm not picking
on New York State. But New York State submitted an application
for which it received $700 million. Their application was 450
pages long with an appendix of 1,200 pages.
    The State of Vermont, for example--and I don't think it's
dissimilar in Wyoming and in other low population States--does
not have the resources to put together an application like that
for every Federal education program. Our agency of education in
the State of Vermont has 185 employees and, as we understand
it, does not have very many grant writers at all. New York has
something like 2,600 employees and dozens of grant writers.
    The point being if I am asking people to fill out and
submit enormously complicated applications in order to get a
grant, small States with small departments of education are not
going to get the money, and I think that that is exactly what
happens. I've gone on too long.
    But I do want to ask you this. Are you mindful that rural
America has serious educational problems, that we have towns
that are very, very poor, that our kids deserve justice? Are
you going to pay attention to that issue?
    Secretary Duncan. Let me answer in a few different ways.
First of all, absolutely to your last question. And, obviously,
coming from Chicago, I did not grow up, by definition, in a
rural community, and I've tried to spend a disproportionate
amount of my time traveling rural America and learning. I've
been to dozens and dozens of rural communities in States around
the Nation, including a remote village in Alaska without heat
and running water. I've spent a lot of time on Native American
reservations.
    I am acutely aware of the real challenges in rural America.
We've seen not just through Race to the Top but through the
Promise Neighborhood work and the district competitions--we've
seen significant investments in rural communities that are
very, very important. And, again, just to be clear on facts in
terms of Race to the Top and other things, we've seen a number
of small States, including Delaware and Rhode Island, be very,
very successful.
    But I think your basic premise is can a guy from an urban
area relate and understand and really work hard in rural
communities. I give you my absolute commitment that I will
continue to do that.
    Senator Sanders. Look, of course you can. It's not a
question of whether you, personally, can. The question is the
facts are the facts. As I understand it, the bulk of the money
is going to large urban States.
    Secretary Duncan. Well, larger States in Race to the Top
received more money. But, again, you had small States like
Rhode Island and like Delaware and like DC which received
grants.
    Senator Sanders. I would conclude by saying I think you've
got to pay more attention, financially, not you, personally--
you can go wherever you want, but what matters is the checks
that are coming in to the States.
    Secretary Duncan. I think that's a fair point. And, again,
I would just encourage you to look not just at Race to the Top.
That's a piece of it. Look at what we've done through the
Investing in Innovation fund. Look what we've done in the Race
to the District fund. Look what we've done with School
Improvement Grants. Look what we've done with the Promise
Neighborhood initiative. And we have tried very, very hard to
make sure those resources are reaching rural and remote
communities.
    Senator Sanders. And I look forward to discussing this with
you further. Thank you.
    The Chairman. Thank you, Senator Sanders.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Thank you, Mr. Chairman, and I want to
thank you and Senator Alexander for working so hard to get an
authorization bill out, and I hope we can get that done.
    And thank you, Mr. Secretary, for coming up. I know you're
a very busy man. It's not often that I'm in full agreement with
Senator Sanders, but I agree with his commentary. He was in a
colloquy there with Senator--what is your name, sir?
    [Laughter.]
    I'm giving him a hard time. He and I have a thing about
Jack Benny, and that's a completely different subject. At any
rate, we were country before country was cool, and we didn't
receive any money, either, Bernie. And I would like to join you
in that respect.
    Mr. Secretary, my State has created a statewide commission
consisting of educators, school board members, representatives
from educational organizations, higher education institutions,
and, as you can see, I'm reading from a list here. But it's the
best we have in regards to education in Kansas, including
Emporia State University, which you visited, and I appreciate
your coming there. That is a teacher learning center, and we
produce a lot of very fine teachers there.
    But we're in regulatory purgatory, sir. We had the Kansas
Association of School Boards come in, and to a person,
Democrat, Republican, Independent, or whatever, the politics
didn't matter. It was the fact that they said, ``Please, the
Race to the Top right now and trying to get past a conditional
waiver is a race to regulations.'' And we don't have much time.
    This morning, I was talking to an old friend about another
matter, and he said, ``Please call my son. He's up in''--I'm
not going to name the county. I don't want to name the county
for fear that somebody's going to descend upon them. But, at
any rate, they were having such a difficult time with Principal
III. That's the one with the principal and teacher evaluation.
    He says, ``We're doing fine up here. We're trying to meet
the criteria as best we can according to the State. But the
State says that they're not going to have a waiver, anyway, so
what are we doing?'' So they don't have enough folks to really
address this problem. We have enough problems just getting good
teachers to teach good kids. And one thing about Vermont and
Kansas is that we have fine teachers and small schools,
basically not that overcrowded, and so we can really get the
job done.
    My question to you is that of the six criteria, can you
work with us on our statewide commission? We are conditional
now. We think we can meet the criteria. We think we can do the
job. And I don't know where we are on that, but I would hope
that you could at least find a waiver and not make us
conditional. I mean, conditional is just treading water.
    Secretary Duncan. I'm happy to work with you. I think
Kansas is in good shape. I'll be happy to give any details
there, but Kansas----
    Senator Roberts. Work with the Governor, former Senator and
now Governor Brownback, and Diane DeBacker. She's the
Commissioner of Education in Kansas. They both are dedicated to
this, trying to meet the criteria to get a waiver. But that
poses a whole different thing.
    According to this particular county superintendent, he
says, ``I'm the superintendent here.'' And I told him I was
going to be meeting with you or at least have the privilege of
having you before us. And he indicated--he said, ``Well, you
know, tell Secretary Duncan I'm the superintendent. He isn't.''
Those are pretty strong words.
    Secretary Duncan. Again, the application comes from the
State. I'd be happy to talk to that particular person, but I'd
be happy to talk to the State superintendent as well. And I
think the dialog needs to be between that local superintendent
and the State to make sure they're aligned.
    Senator Roberts. Well, he's having a lot of dialog with
him. He's not having much success, and he's just upset that
there's too many regulations to put up with.
    Secretary Duncan. We're happy to followup on that.
    Senator Roberts. You know, he's of the opinion that local
control is best control, and not top down. And so I just want
you to know there's a lot of angst out there. There's a lot of
concern. I know my dear friend, Senator Isakson, in Georgia has
got much lower blood pressure on this than I do, and that
you're working fine with Georgia. And if you can just work with
Kansas, I would appreciate it.
    Secretary Duncan. Yes, sir.
    Senator Roberts. Thank you very much.
    The Chairman. Thank you, Senator Roberts.
    And now Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman.
    Mr. Secretary, it's good to see you. I want to start at a
time when this town is beset by the dysfunction you described
earlier--and there are a lot of people who come here that
either don't accomplish anything or blame the dysfunction for
not accomplishing anything--to say to you thank you from the
bottom of my heart for everything you've done and for your
extraordinary leadership of this department. If it weren't for
you, because of the inability of--not this committee, by the
way, Mr. Chairman. I want to thank you and the Ranking Member
for setting an example.
    But if it weren't for you, 75 percent of our children in
this country who are now having the benefit of these waivers
wouldn't have the benefit of these waivers. If it weren't for
you, 40 States that want to get out of stuff that doesn't make
any sense to them wouldn't have been able to get out of this
stuff that doesn't make any sense to them.
    To be clear, I am a huge believer in flexibility, not just
at the State level, not just at the district level, but at the
school and the classroom level, at the kid level, which is
where it matters. And you couldn't wait for this body to do
this work. You know, anybody who spends time with a kid that's
marooned in a failing school or in a neighborhood of failing
schools or in a city or, to Bernie's point, in a town of
failing schools wouldn't wait for the excuses of this Congress
to act, and we can't wait to act.
    I agree--and Lamar Alexander and I have worked on this. I
agree that we're not regulating properly in this area as a
general matter. But I think we have a vital national interest
in setting a level of expectations and then giving people the
flexibility to do the work they need to do at the local level.
You've heard me say before when I was superintendent, I used to
wonder why people in Washington were so mean to our kids and
our teachers. And I realize now that they're not mean, but
they're distracted by other things that are a lot less
important than the education of our kids.
    You have managed time and time again to lift this up, and I
just want to say how much I, for one, appreciate it. I wish we
were doing our work as a Congress, but we're not. So, I guess
the question I have for you--oh, I have one other thing I
wanted to say about this in terms of flexibility. I also
applaud you for those billions of dollars that you have managed
to unshackle from rules and regulations that make no sense to
people that are actually teaching our kids and leading our
school buildings and allow people at the local level to make
decisions about how to use that money. I think we should do
much more of that from here rather than less of that.
    Because of the rules we've written, this Congress has
written, and because of the way States fund their schools, we
are one of three countries in the OECD that spends more money
on wealthy kids than we do on poor kids. That's a joke if you
care about closing the achievement gap, which everybody says
they do. That's ridiculous, and we haven't fixed that problem.
    I guess what I would ask you, Mr. Secretary, is if we don't
get this reauthorization done--and I'd like to get it done. I'd
like to work with you to get it done. I'd like to transform the
way we think about K-12 education in this country. But until we
do that, I'd just like to ask you what's next, and how can we
support you in the work that you're doing?
    Secretary Duncan. Well, first of all, I just want to
publicly say how much I appreciate your leadership and
thoughtfulness, and when and if this body moves toward
reauthorization, I hope they listen closely to you, because I
know you'll be listening closely to what's going on in Colorado
and around the country and come to this again with that sense
of humility.
    I think the best answer to that question will probably come
from the next panel, from the State superintendents who are
doing the real work every single day. I think my job and my
team's job is to be a great partner to States and to districts
and to listen, to learn, to challenge where we have to
challenge, to shine a spotlight on success where that's
happening.
    One small area to think about--we talked about the
flexibility we provided around title I money, moving that out
of Washington bureaucracy and moving that out to districts. One
area I've talked a lot about with this body and with both the
Chair and the Ranking Member is the relatively lack of
effectiveness of title II money, professional development
money, which goes to teachers, and it's supposed to help
teachers do the extraordinarily hard and complex work that they
do every single day. And when I talk to teachers around the
country about the $2.5 billion investment we make each year,
and you double that or more at the State and local level, they
usually laugh or cry. They're not feeling that.
    If we're serious about attracting and retaining great
talent and supporting that great talent, how we make sure--
again, we have existing resources. While we all fight for
more--and the tremendous inequities is a battle we have to take
on and leadership is going to be huge. But at the same time
we're doing that, we have to be accountable for existing
resources.
    One specific example was can we be much more creative
around title II dollars so that teachers are getting the
support they need, whether they're 25 years old or 55 years
old. But our job going forward is to listen to States, listen
to districts, empower them to close these achievement gaps,
reduce dropout rates and increase graduation rates, and make
sure those high school graduates are truly--not lying to them--
truly college- and career-ready.
    Senator Bennet. I'm out of time. But, Mr. Chairman, the
Secretary, I think, raises such an important point. Again,
because of our inability to focus on our kids, 22 percent of
whom are living in poverty in this country right now--almost a
quarter of the children in this country are living in poverty.
Our inability to focus on them and continuing to allow a
comprehensive solution to our debt and our deficit to elude us
is resulting in our hacking away at discretionary spending that
we need to invest in the next generation of Americans.
    And in a time of scarcity, I think we should be thinking
not just about how we make the dollars in your agency more
flexible. But, Mr. Chairman, I think we should be thinking
about how these Federal dollars, whether they're Department of
Education dollars, HHS dollars, Veterans dollars, actually are
able to be used at the local level to support our kids in a
comprehensive way. Our kids don't live in the silos of the
bureaucracy in Washington, DC, and it's time for us to
recognize that.
    Thank you.
    The Chairman. Thank you, Senator Bennet.
    Years ago, Jonathan Kozol wrote a book called Savage
Inequalities. I recommend it highly. I'm sure you probably have
read it. It came out back in the 1980s if I'm not--maybe late
1970s or early 1980s. And that book was instructive for me,
because I never realized before--you know, you mentioned that
we're one of three OECD countries that spend more on wealthy
kids than poor kids. Why is that? Because elementary and
secondary education funding is based on property taxes. Where
do you get the money? Where there are rich people, the rich
areas.
    I've challenged people--I've said, ``Where is it in our
U.S. Constitution that it says that elementary and secondary
education is to be funded on the basis of property taxes?''
Now, some States have done equalization formulas, and that
helps. In 1965, that's why we did the Elementary and Secondary
Education Act, to try to overcome that, to try to put some
additional resources out there to meet that inequality, that
savage inequality that Jonathan Kozol spoke about.
    Well, we aren't doing a very good job of it, quite frankly,
for a number of reasons. But when you mentioned that, I said we
have to stop and think. Is this the best way to fund education
in America?
    With that, I'll turn to Senator Paul.

                       Statement of Senator Paul

    Senator Paul. Thank you, Secretary Duncan, for coming. And
I think one of the interesting things about education and the
evolution of the ideas on education, particularly over the last
decade or so, is that you have an interesting coalition between
limited government conservatives, the teachers' union, and
people on the far left. We now distrust the Federal Government
as far as being in charge of government. In my State, I signed
a letter with the Democratic Governor of Kentucky to the
Administration asking for a waiver. I'm all in favor of the
waiver process.
    But there's a lesson from the waiver process. It's that the
Federal Government has failed. The Federal Government is
unable, really, to judge teachers. Teachers have figured this
out also, that the Federal Government is too far away from them
to be an adequate judge of whether they're good teachers,
whether you have good principals, whether you have good
superintendents, and that local control is better.
    So there's an important philosophical concern here. And I
know with the waivers you've attached other Federal
requirements which doesn't particularly suit me, but I think
it's better than what we have, which is a box that nobody liked
living within. I think innovation helps. I think competition
helps. I know you're trying to do that with some of the Race to
the Top. But, really, the ultimate competition will come when
we attach the dollars to the child.
    We had a GI bill after World War II, and we let the money
go where the ex-soldiers wanted to go. If we had that in our
country, you would totally transform education, and the good
schools would thrive, but based on local decisions, on consumer
decisions of what is a good school and what is a bad school.
People call this school choice. Some call it vouchers. I simply
say it's a decision that you're allowing to go with the parents
and the children. We have this in a limited fashion in some
ways, but you could totally transform and improve education if
you'd let the dollars flow with the child.
    What we're having is--and you can look at education--it's
not a lack of dollars, you know. We've doubled and tripled and
quadrupled the amount per pupil that we spend. We've made
classrooms smaller. When I talk to superintendents in Kentucky,
they come to me and say, ``Yes, but they tell me I have to
spend 20 percent here and 20 percent here and 20 percent
here.'' They need the freedom to decide where to spend their
money.
    All of these ideas are ideas of decentralization. They're
an idea and a conclusion that the Federal Government has been
an abject failure in this, that No Child Left Behind was a
mistake, and that what we need to have is more local control of
schools. What I'd like to know is what are your viewpoints
toward school choice and letting parents decide where the best
schools are?
    Secretary Duncan. I'm a big supporter of school choice and
competition within the public school system. I've not and will
not support the voucher idea. I understand your point on that.
Just at the end of the day, 90 percent of children in our
country are going to attend public schools, and I want to make
sure that children have a chance to attend a great public
school, which is, again, the overwhelming majority of students.
    If nonprofits, the business community, philanthropic
organizations, you know, people who have accumulated some
wealth, want to help on scholarships, I absolutely support all
of that. But I think our job here and at the State and the
local level is to create the best public school options
possible for young people.
    Two other quick thoughts--you have the benefit of, I think,
an extraordinary State commissioner who's going to testify,
giving his candid feedback on where we have been a good
partner, where we have been in the way. I think that will be
very instructive. And the final thing, just to challenge you a
little bit, is I would continue to argue that as a country we
need to invest wiser. And I talked about some of the
investments that haven't been as wise, like the title II money.
    But I want to really challenge you. I don't think we invest
enough in education, particularly for disadvantaged children.
The lack of access to high quality early childhood education is
a big problem. The lack of access to AP classes and dual
enrollment classes for young people who are trying to take that
next step is a big problem.
    Senator Paul. But the reason why you----
    Secretary Duncan. Let me just finish quickly. And the
crushing cost of college today, not just in disadvantaged
communities, but in the middle class--I think we,
collectively--I'm not saying we at the Federal level, but we,
collectively, need to do more to have the best educated
population on the planet.
    Senator Paul. But my response would be the reason why you
don't want to direct how much money goes to the disabled from
Washington is--let's say I'm the superintendent of schools in
northern Kentucky. And let's say one year I have a child who's
a quadriplegic. It costs an enormous amount of money, probably,
to take care of that child, and I want to. But the thing is one
year I have five children who are quadriplegics, and the next
year I don't.
    The money needs to be based on what your needs are. And we
shouldn't say 20 percent needs to be going to the disabled or
that--you know, it needs to be based on the actualities on the
ground, and we need to allow superintendents to decide how to
spend their money, not us in Washington.
    Secretary Duncan. I think, philosophically, we may be less
at odds than you realize, and as a superintendent, I wanted
that flexibility. And if you have a disabled child or a child
with special needs, that money needs to follow the child.
    The Chairman. I'd just like to say, Senator Paul, when you
said that, under IDEA the money does, in fact, follow the
student because of the IEPs that they have to have. If there's
a student there and they have an IEP and then they're out of
school, that money doesn't continue to keep flowing.
    Senator Paul. I'm for empowering those groups even more,
letting them decide with the parents whether they should be
involved in the testing. We've talked about that, whether they
should automatically be in the testing, or whether the parents
should have something to do with deciding whether their child
can take the test. So I'm for empowering these local groups
even more.
    Secretary Duncan. Let me just push it once more and just be
really clear, because, again, we're thinking of all these
ideas. The money should follow the child, but we can't rest
easy because the money follows the child. What are the outcomes
for those children? What's actually happening for them? And if
the money follows the child, and we wash our hands of it, and
that child is not learning, be it a disabled child or a child
who is an English language learner or a poor child or whatever
it might be--if that child isn't learning, we can't sit back
and say we've done our job.
    The Chairman. Senator Baldwin is not here.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    Thank you, Mr. Secretary, for being here with us. I was
struck by the Ranking Member's comments about his desire to
make sure that we get an ESEA bill redone, and I wanted to
thank him for that. I look forward to working with the Chairman
and the Ranking Member to do that. I, too, was proud of the
work we did on the ESEA bill. I, too, was disappointed that
there was no way to bring it up on the floor.
    I hope that the changes that we've agreed to in the rules
will free up a little bit some of the obstruction on the floor
so that we have the ability to move to bills more rapidly and
get to the process of amendment and negotiation and debate that
is the heart of our legislative task. So check me off as a pro
in that effort and not a con. I think it's really important
that we do that, and I think that the ESEA bill that we passed
gives us a really good starting point. I thank both of you for
your commitment to doing that, and if there's anything I can do
to make that more likely or to facilitate it, count me in.
    My question to the Secretary arises from an interesting
experience that I had fairly recently. A young man and his
mother came in to visit with me, not having anything to do with
education. It had to do with illness, frankly, and it had to do
with the extraordinary gift that the young man had that allowed
him to design a new way of treating the illness while still
extremely young. He was just a remarkably gifted young person,
and he was from Maryland.
    So I said, ``Well, hold on 1 second. You've got a Senator
here from Maryland, and I want to go and get her and bring her
out.'' And Barbara Mikulski from this committee came out, and
we talked to him and his mom for a while. And before very long,
the conversation with his mom had turned around to how
difficult it was for her to cope with the educational needs of
her extremely gifted child.
    As you've pointed out, we focus an awful lot on the
children in the middle who will affect the scoring. And I think
we also focus considerable resources, perhaps not as many as we
should--but there's a lot of attention and discussion on kids
who have disabilities, on kids who come with language issues,
on kids who bring issues that make them more challenged by
school than other kids.
    But I very rarely hear any discussion about kids who have
extraordinary talent and extraordinary gifts and what the ways
are that we can support them and their families. I was struck
by the mother's remark, ``It is as difficult for me to provide
the supports that my son needs as it would be had he had a
significant learning difficulty, because he's just as out of
sync with the traditional program.''
    If we're going to go back to ESEA, have we done enough for
that cohort of children and their parents in that bill, or is
that something you would recommend us to take a deeper look at?
    Secretary Duncan. I think we have to take a deeper look at
all these things. I think it's a really important point, what
do we do for gifted, talented, or advanced students. Again,
this idea of moving away from a cut score to growth and gain, I
think, creates a much better incentive structure. But that's
the start of it. I'm really interested in seeing a lot more
young people graduate from high school with college credit in
their back pocket.
    In some States--in Iowa, for example, my understanding is
that 25 percent of high school students in Iowa graduate from
high school with college credit. Governor Daniels in Indiana
did a really interesting program where if you graduated from
high school in 3 years, that fourth year of money that would
have gone to your 12th grade education was converted to a
scholarship to help pay for your first year of college.
    So I think there's a lot of work around advanced placement,
IB classes, dual enrollment, graduating early, you know, to
make sure--for me, this is not just for the gifted children,
although it would help them a lot. This is often, I think, a
great dropout prevention strategy for students who are bright
but not engaged and bored and could do better. I think this is
absolutely an area where--are we creating the right incentives,
not just K to 12, but, again, sort of K to 12 including higher
ed, to make sure more and more students have a chance to learn
at their own pace.
    Much larger conversations have moved from seat time, which
is how everything is based now, to competency. And if you can
learn something at a much faster rate and progress at a much
faster rate, that makes a lot more sense than sitting in the
same class 5 days a week, you know, 9 months out of the year,
when 3 months in that year, you know everything that's going to
be taught.
    Senator Whitehouse. Well, my time is up. So let me just
close by saying that I'm interested in this question. I'm not
sure we've grappled with it adequately. I know that Senator
Mikulski is keenly interested in it as well. If you have
information or ideas that you want to get into this committee's
discussion, please have your staff connect to my office.
    Secretary Duncan. We'll do that. Again, to be real clear, a
lot of the leadership isn't being provided by us. It's being
provided by the States, and many of these States' waivers are
doing some really, really creative things to create the right
incentive structure to create more of these opportunities. So
we'll help.
    Senator Whitehouse. You've looked at it and analyzed it.
That's what I'm looking to you for.
    Secretary Duncan. Yes, sir.
    The Chairman. Well, Mr. Secretary, this was a good morning,
and I thought we had a really good exchange. I'll just say a
couple of things in closing before we move to our next panel.
    First of all, I just want to say to my good friend, Senator
Alexander, I look forward to working with you on this. We are
blessed that Senator Alexander brings a great deal of expertise
and knowledge and background to this committee in education,
and that really benefits us all.
    I would say, Mr. Secretary, that we will continue to speak
with you. We wanted this hearing, basically, to look at the
waivers and what was happening out there. But as we move
ahead--I know the President has spoken about this, and it's
been a passion of mine for a long time. I know you've spoken
about it. The question is how we start looking at early
childhood education. I can remember the admonition of the
committee that was set up, actually under President Reagan,
when they issued their report--I keep talking about it--in
1992, 20 years ago, in which they said that we must understand
that education begins at birth.
    Somehow I think we have to understand that there isn't such
a thing as preschool. There's education, but not preschool, and
we have to think about how we can now begin to help States.
We've had Head Start programs, but we've talked about aligning
Head Start--of course, then, we did that. We started to do that
in our bill that we worked on last year, aligning Head Start
with the needs of the elementary schools.
    Anyway, I look forward to working with you on finding what
we can do to support more--I'm not going to say preschool--
early childhood education in our ESEA bill. I look forward to
more discussion on that with you.
    Unless you have anything else to add, Mr. Secretary, thank
you very, very much. We appreciate you being here and look
forward to working with you as we move ahead on our
reauthorization.
    Secretary Duncan. Thanks so much for your leadership and
for the opportunity.
    The Chairman. Thank you, Mr. Secretary.
    Our second panel--I'll introduce them as they take their
seats. We have Kentucky Commissioner of Education Terry
Holliday. Commissioner Holliday was selected by Governor
Beshear for that post in 2009 and has since served with
distinction. He has his bachelor's degree from Furman
University, a master's degree from Winthrop University, and his
doctorate from the University of South Carolina. Commissioner
Holliday presently serves on the National Assessment Governing
Board and was recently elected to lead the Council of Chief
State School Officers for the 2013-14 school year.
    Next we have Dr. John King, Commissioner of Education for
New York State. A native of Brooklyn, NY, he earned his
bachelor's degree from Harvard, a master's from Teachers
College at Columbia, a law degree from Yale Law School, and a
doctorate from Teachers College.
    Commissioner King co-founded Roxbury Preparatory Charter
School in Massachusetts, has served as managing director at
Uncommon Schools, a nonprofit charter management organization
that operates schools in New York and in New Jersey, and has
served on the Equity and Excellence Commission of the U.S.
Department of Education. Commissioner King has served as New
York State Commissioner of Education since May 2011.
    Next is Mr. Andy Smarick from Bellwether Education
Partners. He works on policies with the aim to improve
education outcomes for low-income students. Prior to that, Mr.
Smarick served as deputy commissioner of education at the New
Jersey Department of Education, where he helped to secure a
Race to the Top grant and an NCLB flexibility waiver for the
State. He also helped to launch New Jersey's new teacher
evaluation system.
    Previously, he served as Deputy Assistant Secretary at the
U.S. Department of Education and at the White House Domestic
Policy Council during the second Bush administration. Mr.
Smarick has also been the chief operating officer of the
National Alliance for Public Charter Schools. He earned his
bachelor's degree and master's degree in public management from
the University of Maryland.
    Last, we have Ms. Kati Haycock, president of the Education
Trust. In 1990, Ms. Haycock founded the Education Trust as an
advocacy organization focusing on increasing academic
achievement for all students at all levels. Prior to that, she
served as the executive vice president of the Children's
Defense Fund, the Nation's largest children's advocacy
organization. A native Californian, she earned her bachelor's
degree from the University of California Santa Barbara and a
master's degree from the University of California at Berkeley.
    We welcome you all here. I read all your testimonies last
evening, and they'll be made a part of the record in their
entirety. We'll start with Dr. Holliday and then we'll work
down. The clock says 5 minutes. If you go a little bit over, I
don't get too nervous. But if it gets way over, then I'll start
waving a pencil or something like that.
    Dr. Holliday, welcome and please proceed.

STATEMENT OF TERRY K. HOLLIDAY, Ph.D., KENTUCKY COMMISSIONER OF
                    EDUCATION, LEXINGTON, KY

    Mr. Holliday. Thank you, and I apologize in advance if my
voice cracks. I've been yelling at too many Kentucky ball games
here lately. But we'll try to get through.
    Chairman Harkin, Ranking Member Alexander, and Senator
Paul, thank you for allowing me the opportunity to speak to the
committee today about Kentucky's ESEA flexibility waiver. I'm
honored to explain to you how we are best serving the students
in Kentucky.
    First, though, let me be clear that Kentucky and my fellow
chiefs across the Nation support ESEA reauthorization first and
foremost. We feel that only reauthorization gives us the long-
range expectations of Federal accountability and the long-term
sustainability of our efforts to best serve the needs of
children. With reauthorization, we can implement policies that
address the requirements of the legislation with fidelity,
knowing that we will not have to alter those plans for any
reason other than their success in meeting the goal of getting
our students to college- and career-readiness.
    I also want to thank Secretary Duncan and President Obama
for the opportunity to innovate and build a new college- and
career-readiness-based assessment and accountability system in
Kentucky through the waiver process, and I hope the waiver
process will certainly inform reauthorization efforts and
highlight the value of State flexibility. From the very
beginning of No Child Left Behind, I have been an ardent
supporter of the vision of the legislation. Every child should
reach proficiency.
    For too long, our schools had failed to meet the needs of
many children who needed our help the most. However, as we can
all agree, while the vision of No Child Left Behind was right,
we lost something in the transition to details.
    Given the challenges of implementation and the looming 2014
timeline of No Child Left Behind to reach 100 percent
proficiency, the Council of Chief State School Officers
convened a group of chiefs to develop a model for next
generation accountability systems that would focus on college-
and career-readiness.
    This group was a natural progression to our successful work
on the Common Core Standards. During this time, the
Administration was also working on the waiver process, and we
think both of those were working together along with the work
this committee was doing.
    The timing was right for Kentucky. In 2009, our General
Assembly unanimously, unanimously passed major education reform
called Senate bill 1 which required more rigorous standards,
rigorous assessments, a balanced accountability system, and
support for educators to implement the new system. Kentucky was
one of the first States to apply for the waiver due to our
State legislation, and the waiver enabled Kentucky to have a
single accountability system rather than separate Federal and
State systems.
    Kentucky completed a waiver application that built on the
key components of No Child Left Behind. We kept a focus on
proficiency, achievement gaps, graduation rate, and annual
progress. However, we moved to a more rigorous standard--
college- and career-readiness for all children. Our State
legislation had recognized the economic imperative of having
more students graduate from high school that had achieved
college- and career-readiness in addition to basic skills
proficiency.
    We're seeing some early signs of improvement. Our
graduation rates have improved, and the percentage of graduates
from Kentucky high schools who are meeting the college- and
career-ready measure has improved from 34 percent in 2010 to 47
percent in 2012.
    In closing, I again thank this committee for this
opportunity, and I thank Secretary Duncan and President Obama
for encouraging the State-level innovation that we are seeing
in Kentucky and across the country. My request to this
committee is very simple but very difficult to do. I hope you
will move toward reauthorization as soon as possible to provide
concrete parameters for States for improving education systems
to better serve students.
    However, I strongly encourage the committee to provide
those States that have demonstrated their commitment to
accountability and college- and career-readiness for all
students, through the waiver process, the ability to continue
and grow that innovation through a flexible Federal law and
additional funding flexibility that will support States as they
work to make the vision of college- and career-readiness for
all students a reality.
    Thank you.
    [The prepared statement of Mr. Holliday follows:]
             Prepared Statement of Terry K. Holliday, Ph.D.
                                summary
    Commissioner Holliday and his fellow chiefs across the country
support ESEA reauthorization because it gives States the long-range
expectations of Federal accountability and the long-term sustainability
of their efforts to best serve students. Reauthorization also allows
State chiefs to implement policies that address the requirements of the
legislation with fidelity.
    Commissioner Holliday hopes that the waiver process will help
inform reauthorization. He believes the vision that No Child Left
Behind (NCLB) set of every child reaching proficiency is the right one,
but unfortunately in its implementation there have been unintended
consequences that have negatively impacted students.
    As a result of action taken by Kentucky's General Assembly, the
Commonwealth was one of the first to submit a successful ESEA waiver
application. Kentucky's application built on the key components of NCLB
like a focus on proficiency, achievement gaps, graduation rate, and
annual progress, but also moved the Commonwealth to a more rigorous
standard of college- and career-readiness for all students. Some of the
key elements of Kentucky's ESEA waiver include:

    <bullet> K-3 Program Review--This component measures every child's
readiness for kindergarten based on common readiness expectations that
providers can improve services to children.
    <bullet> College- and Career-Readiness--The Commonwealth has
partnered with businesses and institutions of higher education to
clearly define and measure college- and career-readiness.
    <bullet> Balanced system--The Program Review accountability measure
uses the latest in performance-based assessments and project-based
learning to measure student learning in order to move away from the
limited focus on basic math and reading skills.
    <bullet> Subgroup performance--By instituting an aggregate gap
group, Kentucky has ensured that ALL schools have the responsibility
for closing achievement gaps.
    <bullet> Comparative data and transparency--Through the use of
Kentucky's on-line report card, the citizens of Kentucky are able to
see how their schools and districts are performing.

    Although since instituting the Common Core State Standards,
Kentucky saw a drop in proficiency rates, Commissioner Holliday
believes these results are a more accurate measure of the college- and
career-readiness of the students in the Commonwealth. In fact, Kentucky
has already seen signs of improvement. From 2010 to 2012, the
Commonwealth saw a 13-point increase, from 34 to 47 percent, in the
percentage of college- and career-ready graduates.
    Commissioner Holliday urges the committee to move to
reauthorization as soon as possible but to recognize the progress some
States have made through the waiver process and allow them to continue
to grow on this innovation.
                                 ______

    Chairman Harkin, Ranking Member Alexander, and Senator Paul, thank
you for allowing me the opportunity to speak to the committee today
about Kentucky's ESEA flexibility waiver. I am honored to explain to
you how we are best serving the students in my State.
    First, though, let me be clear that Kentucky and my fellow chiefs
across the Nation support ESEA reauthorization first and foremost. We
feel that only reauthorization gives us the long range expectations of
Federal accountability and the long-term sustainability of our efforts
to best serve the needs of students. With reauthorization, we can
implement policies that address the requirements of the legislation
with fidelity, knowing that we will not have to alter those plans for
any reason other than their success in meeting the goal of getting our
students to college- and career-readiness.
    I also thank Secretary Duncan and President Obama for the
opportunity to innovate and build a new college- and career-readiness-
based assessment and accountability system in Kentucky through the ESEA
waiver process that I hope will inform reauthorization efforts and
highlight the value of State flexibility in Federal law.
    From the very beginning of No Child Left Behind (NCLB), I have been
an ardent supporter of the vision of the legislation. EVERY child
should reach proficiency. For too long, our schools had failed to meet
the needs of many children who needed our help the most. However, as we
all can agree, while the vision of NCLB was right, we lost something in
the translation to details. NCLB had some unintended consequences.
Among these were:

    <bullet> Wide variation in standards and proficiency levels across
States.
    <bullet> A focus on ``teaching to the test''.
    <bullet> Loss of a balanced approach to education with reductions
in the arts, physical education, science and other critical subject
areas.
    <bullet> A focus on ``bubble kids'' who were close to passing State
tests and not providing support for gifted/talented students or low-
performing students.
    <bullet> Confusion of parents with different systems for State and
Federal accountability that often reported contradicting results.

    Given the challenges of implementation and the looming 2014
timeline of NCLB to reach 100 percent proficiency, the Council of Chief
State School Officers convened a group of chiefs to develop a model for
next generation accountability systems that would focus on college- and
career-readiness. This group was a natural progression to the
successful work of the Common Core Standards. During this time, the
Administration was also working on the waiver process for States who
wanted to create innovative accountability systems.
    The timing was right for Kentucky. In 2009, our General Assembly
had unanimously passed Senate bill 1, which required more rigorous
standards, rigorous assessments, a balanced accountability system, and
support for educators to implement the new system. Kentucky was one of
the first States to apply for the ESEA waiver due to our State
legislation.
    Kentucky completed a waiver application that built on the key
components of NCLB. We kept a focus on proficiency, achievement gaps,
graduation rate, and annual progress. However, we moved to a more
rigorous standard--college- and career-readiness for all students. Our
State legislation had recognized the economic imperative of having more
students graduate from high school that had achieved college- and
career-readiness in addition to basic skills proficiency.
    Let me highlight a few elements of our waiver request:

    <bullet> K-3 Program Review--This component measures every child's
readiness for kindergarten based on common readiness expectations.
Through this component, we ensure early childhood providers use the
information to improve services to children. Also, we ensure that
schools are ready for children and help all children reach success in
reading and math by the end of third grade.
    <bullet> College- and Career-Readiness--Perhaps the most innovative
component of our system is the partnership with business and higher
education to clearly define college- and career-readiness and have
measures in place that track progress of individual students, schools
and districts. In grades 3-8, we have built an assessment system that
measures college/career-ready standards and reports on the progress of
individual students, classrooms, schools and districts toward the goal
of college/career-readiness for all students. At the 8th, 10th, and
11th grade levels, we have added end-of-course assessments and
independent college/career-ready assessments that provide college/
career-readiness measures accepted by colleges and businesses.
    <bullet> Balanced system--Our accountability system supports the
concept of the whole child. It was very important to our General
Assembly that we provide opportunities for students to excel in arts/
humanities, career and technology, physical education and health, world
languages, and writing/research programs. Our Program Review
accountability measure uses the latest in performance-based assessments
and project-based learning to measure student learning and student
opportunities in these areas. This ensures we have a balanced approach
to accountability rather than a limited focus on basic math and reading
skills.
    <bullet> Subgroup performance--Kentucky continues the focus on
individual subgroup performance as required by NCLB; however, due to
low student counts in some schools for some subgroups, we found that
many Kentucky schools were not being held accountable for closing
achievement gaps. Through our new accountability system, we have
ensured that ALL schools have the responsibility for closing
achievement gaps through an aggregate gap group even if they have small
counts for individual subgroups. The use of the aggregate gap group
allows for the inclusion of students otherwise missed due to the low
number of students in a single subgroup. To make sure that individual
subgroups are not being overlooked, we set ambitious performance
targets for all subgroups and use these targets to drive interventions,
and require that schools improve the performance of the subgroup that
led to their identification.
    <bullet> Comparative data and transparency--Through the use of our
on-line accountability school and district report card, the citizens of
Kentucky are able to see how their school or district is performing
compared to other schools or districts. Also, citizens are able to see
the annual targets for improvement of their school and district in
proficiency, gap, graduation rate, and college/career-readiness.

    The results from our accountability model have certainly been
catching the attention of many States. With our first assessment of the
Common Core Standards, we saw drops in proficiency rates of between 20
percent to 30 percent in language arts and math. However, we are not
shying away from these results; in fact, we embrace these as a more
realistic view of the percentage of our students who are making
progress toward reaching the most important goal of college- and
career-readiness. These results also are very much in alignment with
the National Assessment of Education Progress.
    Additionally, we are seeing some early indications of improvement.
Our graduation rates have improved and the percentage of graduates who
are college- and career-ready has improved from a baseline of 34
percent in 2010 to 47 percent for the Class of 2012.
    In closing, I again thank the committee for this opportunity to
speak, and thank Secretary Duncan and President Obama for encouraging
the State-level innovation that we are seeing in Kentucky and across
the country. My request to the committee is very simple. I hope you
will move toward reauthorization as soon as possible to provide
concrete parameters for States for improving education systems to
better serve students. However, I strongly encourage the committee to
provide those States that have demonstrated their commitment to
accountability and college/career-readiness for ALL students, through
the waiver process, the ability to continue and grow that innovation
through a flexible Federal law and additional funding flexibility that
will support States as they work to make the vision of college/career-
readiness for ALL students a reality.

    The Chairman. Thank you, Dr. Holliday, for a very good
statement.
    Dr. King.

STATEMENT OF JOHN B. KING, Jr., Ed.D., NEW YORK COMMISSIONER OF
                  EDUCATION, SLINGERLANDS, NY

    Mr. King. Good morning, Chairman Harkin, Senator Alexander,
and members of the committee. Thank you for the opportunity to
testify on New York's experience during application for and
implementation of our ESEA waiver.
    In 2009, our State Board of Regents adopted an ambitious
reform agency focused on what matters most, what teachers
teach, standards and curriculum, and how they teach it,
assessments, data systems, teacher and principal evaluations.
In 2010, the State Education Department was awarded nearly $700
million in Race to the Top, and our application was firmly
aligned with the key components of the Regents reform agenda.
    The principles of the waiver regarding implementation of
college- and career-ready standards and assessments and its
strategies to promote great teachers and leaders were well-
aligned with initiatives we already had underway. In short, the
waiver was for New York an opportunity to accelerate our
ongoing education reform efforts.
    Our work to implement college- and career-ready standards
has been extensive. As you know, we are one of 46 States to
adopt the Common Core, and our Board of Regents has actually
mapped the Common Core back to pre-K readiness for the Common
Core standards as well. The department is providing our schools
with the tools and training resources they need to implement
the Common Core, and for the first time, developing P-12
English language arts and mathematics curricula has free and
optional resources for educators.
    Our engagenewyork.org Web site, which has had over 11
million page views, provides access to an unprecedented range
of professional development materials for educators throughout
New York. We've also leveraged our Race to the Top resources to
deploy local teams of experts in curriculum assessment and data
analysis in support of this work.
    In 2010, New York enacted a statutory framework for a more
rigorous teacher and principal evaluation system and updated
that law in 2012. The law requires school districts and local
collective bargaining units to establish evaluation plans
approved by the department in accordance with the law.
    The evaluation system is based on multiple measures of how
educators support student learning, including student
performance outcomes as well as observations of teaching
practice by trained evaluators. It is designed to provide our
educators with regular, meaningful feedback to support
continuous improvement. Beyond affirming and accelerating our
work on college- and career-ready standards and the new
evaluation system, the waiver also gave us the opportunity to
strengthen and refine our accountability system.
    The central component of our waiver is the opportunity to
recognize schools in which students are making good progress
toward meeting standards of college- and career-readiness, as
opposed to focusing exclusively on absolute performance. We
have set new, realistic, and ambitious trajectories for schools
and districts to demonstrate they are increasing the percentage
of students who are on track to college- and career-readiness
while closing achievement gaps among student groups.
    In fact, under our waiver application, we've actually
raised the standards for our high schools to focus not just on
students passing high school assessments in English, math,
science, and social studies, but on students achieving scores
that indicate that they are prepared to succeed in credit-
bearing college-level courses. We've also developed metrics to
ensure that we are seeing progress for our students with
disabilities and English language learners.
    While we were able to leverage the waiver in support of our
reform efforts, it's important to emphasize that we share
Kentucky's commitment and the Secretary's commitment to the
notion of reauthorization of ESEA. But as you move forward in
that work, here's a couple of important recommendations.
    One is to emphasize early learning. The evidence is
overwhelming. It is much more effective to give a student a
high quality early education start than it is to close
achievement gaps later through costly remediation. There is
also an opportunity in reauthorization to look at how funds are
allocated and spent, particularly those funds that are
allocated to professional development, as the Secretary
discussed earlier.
    I want to emphasize again the greatest impact of the waiver
for New York was an opportunity to accelerate our reform
agenda. One illustration of that, quickly--there's a school in
New York City in Brooklyn, called Pathways in Technology Early
College High School. It is a SIG-funded--a School Improvement
Grant-funded--turnaround school with a predominantly black and
Latino male student population. They are succeeding in a
rigorous STEM curriculum.
    Through a partnership with the City University of New York
and IBM, P-Tech students will be able to leave school not only
with a high school diploma and strong training in STEM
subjects, but with an associate's degree in a growing field and
a first opportunity in line for a job at IBM. That is what
college- and career-readiness looks like. That is what our
Regents reform agenda is focused on. That's how we're
leveraging our Race to the Top resources. And that is how our
waiver is helping us to move our reform agenda forward in New
York.
    Thank you for the time. I look forward to your questions.
    [The prepared statement of Mr. King follows:]
             Prepared Statement of John B. King, Jr., Ed.D.
    Good morning Senator Harkin, Senator Alexander and members of the
committee. My name is John King, and I am the Commissioner of Education
for New York. Thank you for the opportunity to testify on New York's
experience during application for, and implementation of, our
Elementary and Secondary Education Act (ESEA) Waiver.
                        state context for reform
    I would like to give you some brief context for how it was that New
York arrived at an ESEA Waiver that maintains rigorous expectations for
student performance and aligns our accountability system with a
comprehensive reform agenda designed to achieve college- and career-
readiness for all students.
    Over the past 10 years, the New York State Education Department
(SED) has implemented a State accountability system that closely tracks
the Federal Title I accountability system codified in the current No
Child Left Behind (NCLB) reauthorization of ESEA. New York used
Adequate Yearly Progress (AYP) determinations as the basis for
accountability identification and intervention and moved schools and
districts along the NCLB improvement, corrective action, and
restructuring continuum. We strengthened the system further through
integrating into it our State Schools Under Registration Review
program, which predated NCLB and allows the Commissioner to directly
prescribe interventions in chronically low performing schools,
including recommending to the Board of Regents revocation of a school's
registration and school closure.
    New York strongly supports many policy constructs in the original
NCLB accountability system, particularly the concept of annual
assessments of students in English language arts and mathematics, a
focus on, and attention to, graduation rates, the disaggregation of
subgroup performance and measures intended to address the gap in
student performance among different groups of students, and a
commitment to public reporting of, and accountability for, results.
    However, more than 10 years into identifying schools for
improvement and intervening in them, we know that the NCLB
accountability system does not work well enough to engender the kind of
profound improvements we seek in our struggling schools. In recent
years, significant challenges with the system have emerged in New York
and across the Nation.
    New York availed itself of the flexibility opportunities that were
provided by the U.S. Education Department (USED) over the years. We
were the first State to adopt a Performance Index and use cohort
measures to track high school performance, and we were one of nine
States to be approved to implement a Differentiated Accountability
Pilot. However, New York was finding it increasingly difficult to keep
its ESEA accountability system well aligned with the bold agenda for
educational reform that the Board of Regents \1\ established in 2009.
---------------------------------------------------------------------------
    \1\ New York's State Education Department is governed by an
independent Board of Regents comprised of 17 members elected by the
legislature, with 13 members elected from each of the State's Judicial
Districts, and 4 members elected at-large.
---------------------------------------------------------------------------
    When the waiver initiative was announced, New York was eager to
take advantage of the opportunity. The waiver's principles regarding
implementation of College and Career Ready standards and assessments
and its strategies to promote great teachers and leaders were well
aligned with initiatives we already had under way. In addition, the
ability to re-conceptualize our accountability system to better support
our reform agenda was welcomed across the spectrum of educational
stakeholders in New York.
                       the regents reform agenda
    In 2009, the Board of Regents embarked on a Reform Agenda to ensure
all our students graduate high school ready to succeed in college and
careers. The key components of the Regents Reform Agenda are:

    <bullet> Implementing College & Career Ready standards and
developing curriculum and assessments aligned to these standards to
prepare students for success in college and the workplace;
    <bullet> Building instructional data systems that measure student
success and provide information to teachers and principals so they can
improve their practice in real time;
    <bullet> Recruiting, developing, retaining and rewarding effective
teachers and principals; and
    <bullet> Turning around the lowest-achieving schools.

    In 2010, New York was awarded nearly $700 million in the Race to
the Top (RTTT) competition. The State's educational community came
together in an unprecedented partnership to support the Board of
Regents comprehensive application, which was firmly aligned with the
four key components of the Regents Reform Agenda.
    We recognized that teachers and school leaders need a system of
comprehensive support to increase student achievement, particularly in
the lowest-achieving schools. Our application leveraged the State's
share of RTTT to implement several key initiatives to build the
capacity of educators statewide to directly support new standards,
assessments, curricula and professional development resources, improved
teacher and principal preparation, evaluation, and support, data driven
instruction, and mechanisms to turn around our lowest-achieving
schools.
    After a year of training and preparation, New York's schools began
to implement the most ambitious education reforms in our history. While
there have certainly been challenges, we have made significant progress
toward meeting our goals, and we are confident that the Regents Reform
Agenda, which underlies the implementation of RTTT, will build the
capacity of school districts to ensure that students graduate our
schools ready for college and careers.
                    college & career ready standards
    New York is one of 45 States plus the District of Columbia and
Department of Defense schools to adopt the Common Core. As you know,
these standards are the first to be backmapped grade-by-grade from the
skills a student needs at high school graduation to be ready for
college and career all the way back to kindergarten. The Regents have
further mapped these standards back to pre-kindergarten.
    Although in New York curriculum and professional development have
traditionally been a local school district responsibility, SED is
providing our schools with the tools and training resources they need
to implement the Common Core, and we are--for the first time--
developing P-12 English language arts and mathematics curricula as free
and optional resources for educators.
    In addition to these resources, we have created EngageNY.org, a Web
site we developed that provides access to the unprecedented range of
professional development materials we provide on each critical
component of the Regents Reform Agenda, including many materials
dedicated to classroom implementation of the Common Core. To date, we
have had more than 11 million page views on EngageNY.org, and the site
has become a model for the Nation.
    We have also leveraged RTTT to deploy Network Teams--teams of local
experts in curriculum, assessment, and data analysis--to build capacity
to sustain the reforms. Network Teams work in close partnership with
districts and schools to build the capacity of educators around our
school-based initiatives.
    Beginning in Spring 2012, SED launched the Bilingual Common Core
Initiative to develop new English as a Second Language and Native
Language Arts Standards aligned to the Common Core. As a result of this
process, we are developing New Language Arts Progressions and Home
Language Arts Progressions for every Common Core Standard in every
grade.
    We are also changing how teachers and principals are certified to
ensure that new educators have the skills required by the Common Core
and today's diverse classrooms. For example, we have adopted a new
performance-based certification exam modeled on National Board
Certification and we are designing new and more rigorous Content
Specialty Tests aligned to the Common Core to assess new teachers'
mastery of knowledge in the content areas they will be teaching.
                          teacher and leaders
    In the context of our successful 2010 RTTT application, New York
enacted a statutory framework for teacher and principal evaluations,
which we called Annual Professional Performance Reviews (APPR). The law
required school districts and local collective bargaining units to
establish local evaluation plans in accordance with guidelines
established in law. In 2012, a new, more rigorous teacher and principal
evaluation system was enacted that built on the structure of the 2010
evaluation law. Teachers and leaders evaluated under the evaluation
system receive composite scores on a 100 point scale, which includes 20
percent for student growth on State assessments; 20 percent for student
performance on locally selected measures; and 60 percent for other
sources of evidence, such as observations, rubrics, and parent/student
surveys.
    Two key features of our evaluation system are:
    <bullet> The evaluation system is based on multiple measures of how
educators support student learning, including student performance
outcomes as well as observations of teaching practice by trained
evaluators; and
    <bullet> It is designed to provide educators regular, meaningful
feedback to support continuous improvement.
    Districts and collective bargaining units must negotiate evaluation
plans, and plans compliant with the evaluation law and regulations are
approved by the Department after a thorough review. In addition, a
provision in last year's State budget made increases in State aid to
school districts--which amount to approximately 4 percent--subject to
SED approval of a negotiated APPR plan.\2\ By January 17, 2013--the
deadline for plan approval--685 out of 691 districts, more than 99
percent of the State's school districts, had complied and now are
beginning implementation of an evaluation system. Unfortunately, the
State's largest school district, New York City, was one of six
districts that did not meet the deadline. The Governor and legislative
leadership have committed to empower SED to resolve the differences
between labor and management to establish a default evaluation system
for New York City if a negotiated agreement cannot be reached.
---------------------------------------------------------------------------
    \2\ The 2013-14 proposed State budget includes a provision that
would continue to tie increases in State school aid to approval of a
teacher and principal evaluation plan.
---------------------------------------------------------------------------
    While challenging to implement in this fiscal environment, we
believe there are opportunities for districts to better align use of
title IIA funds to support teacher and principal effectiveness in the
context of the evaluation system and for implementation of the Common
Core.
                         new york's esea waiver
    When SED sought approval from the Regents to submit an ESEA
flexibility Waiver application, we did so not seeking to decrease the
levels of accountability for districts and schools, but rather to
ensure that interventions and supports would be anchored to the more
rigorous standard of college- and career-readiness.
    As described previously, the Reform Agenda adopted by the Regents
had already begun to address many of the principles that the Secretary
and U.S. Education Department established for approval of a waiver. For
example, we had adopted and had an implementation plan for College &
Career Ready standards, and the State's new teacher and principal
evaluation system included student growth as a significant factor.
    As SED began to prepare the Waiver, the Regents adopted 10 key
Guiding Principles to inform development of the application:

    <bullet> Accountability Based on College and Career Standards:
Ensure that all school districts are making acceptable progress toward
having all students achieve college- and career-ready standards;
    <bullet> Measures Aligned to the Common Core: Base accountability
on a broad set of measures aligned to the Common Core standards,
including proficiency and growth in English language arts, mathematics,
and graduation rates;
    <bullet> Use of Both Student Achievement and Growth: Use
determinations of both student growth and proficiency to measure
teacher, principal, school, and district performance;
    <bullet> Fair, Accurate and Meaningful Data: Report data in a way
that is clear and meaningful to educators, parents, and the public;
    <bullet> Identification of High and Low-Performing Schools:
Identify, in addition to focus and priority schools, other schools in
need of improvement as well as schools that are highest performing and
high progress;
    <bullet> Effective Interventions and Supports: Enable substantial
positive change, including dramatic changes in teaching and learning
and school culture in the lowest performing schools;
    <bullet> Timely, accessible and actionable reporting: Students,
families, educators, principals, policymakers, and the public should be
provided information that can be used to identify and replicate best
practices, recognize and correct deficiencies, and continuously improve
performance;
    <bullet> Addressing Unique Circumstances: Set standards of
accountability that recognize on a case-by-case basis, consistent with
provisions of ESEA, the special circumstances of students, schools, and
districts;
    <bullet> Alignment of Accountability Across Levels: Align aspects
of the accountability system across all levels--from student, to school
staff and principal, to district accountability, including the
superintendent and school board; and
    <bullet> Single Unified System: Support a single unified system
designed to ensure that all students can achieve college- and career-
ready standards.

    I want to focus now on some key components of the Waiver
application.
Alignment in the Accountability System
    At the end of the last school year, New York sunset the prior
accountability continuum of schools and districts in improvement,
corrective action, and restructuring based on failure to make Adequate
Yearly Progress. We welcomed the ability to take this action because
too many schools were identified for intervention under the NCLB
system. We believe that half of all schools in the State would have
been captured in accountability status based on 2011-12 results, and by
the end of next year, nearly all schools in the State would have been
identified. Identification of such a large number of schools would have
made SED's efforts to support school improvement too diffuse to be
meaningful.
    Pursuant to the waiver, we adopted USED's school performance
categories and identified 5 percent of the schools in the State as
Priority schools and 10 percent as Focus schools. Priority schools are
the lowest performing in the State based on combined English language
arts and mathematics performance that are either not showing
improvement or have had graduation rates below 60 percent in previous
years. SED will require these schools to implement whole school reform
and re-design approaches that fully incorporate Federal school
turnaround requirements. Although the ESEA waiver requires that the
percent of schools identified as Priority and Focus be based on the
total number of title I schools in the State, we chose to identify a
larger number of schools by basing our computation on the total number
of title I and non-title I schools in the State.
    One unique element of New York's waiver is our identification of
``Focus Districts,'' which are those districts in the State that either
have the lowest achieving students or the lowest graduation rates for a
particular student group. Districts with one or more Priority schools
are automatically designated Focus districts. Within these districts,
Focus schools are those that are lowest performing or have the lowest
graduation rates for subgroups for which the district was identified.
By grouping and targeting these districts, we can direct supports to
the districts and foster systemic change.
    SED used an RTTT grant program to further support the schools
identified through the Waiver as needing support and interventions. The
Systemic Supports for District and School Turnaround grant provided
opportunities for SIG districts or districts with Priority Schools to
partner with support organizations to build district-level support
structures, build district capacity to implement turnaround plans, and
streamline existing turnaround efforts.
    New York continues to make performance of English language learners
and students with disabilities a cornerstone of its accountability
system. We have made several revisions to how we incorporate the
performance of these groups into our accountability system, including,
for example, aligning our ESEA and Individuals with Disabilities
Education Act (IDEA) accountability systems so that districts that are
Focus Districts for the students with disabilities subgroup are also
identified as Districts in Need of Assistance or Intervention under
IDEA.
Student Growth
    In addition to streamlining the State's accountability system and
eliminating the previous identification categories, the Waiver
application provided us the opportunity to expand our definition of AYP
and AMO to add student growth measures, rather than only absolute
performance, and enabled us to recognize schools in which students are
making good progress toward meeting standards of college- and career-
readiness.
    Prior to the waiver, schools and districts were held to the
standard of having all students proficient on State assessments in
English language arts and mathematics by 2014. The Waiver allowed us to
set new realistic timelines and ambitious trajectories for schools and
districts to demonstrate they are increasing the percentage of students
who are on track to college- and career-readiness while closing
achievement gaps among student groups.
    At the elementary and middle school level New York has replaced the
2013-14 ``proficiency for all'' standard in English language arts and
mathematics. By school year 2016-17, our goal is to reduce by 50
percent the percentage of students in each subgroup who are not
proficient--as measured against a college and career standard--or not
on track to becoming proficient within 3 years or by grade eight,
whichever is earliest. While each subgroup has a different starting
point based on its 2010-11 baseline performance, the lower the starting
point of a group, the greater the percentage of students who must be
moved from not meeting a college- and career-ready standard to meeting
or being on track to meet this more rigorous standard.
    New York has developed growth metrics for elementary and middle
level English language arts and mathematics for students with
disabilities and English language learners that allow the State to
determine how well districts and schools are performing with these
populations compared to statewide averages. We also continue to make
AYP determinations for these groups of students--so if a school fails
to make AYP for three consecutive years for the same disaggregated
group on the same accountability measure the district must develop a
Local Assistance Plan for the school to improve the group's
performance. Our Waiver also raises the bar at the high school level
for the performance students with disabilities must achieve in order
for districts to be credited under the accountability system.
    Before the Waiver, New York identified schools and districts
without regard to whether students were showing sufficient growth. We
are now able to distinguish schools in which student rates of
proficiency are low but student annual growth rates are high. This
allows the State to better and more intensely target the schools that
need interventions the most. In addition, by using the more rigorous
college- and career-readiness standards, we are holding our schools and
districts to higher expectations and we are focusing on those schools
and districts that are not graduating students who are prepared to
succeed in the 21st century global economy.
School and Principal Accountability
    The Waiver gave us the opportunity to incorporate growth into our
judgment about school performance at the elementary and middle school
level. By doing so, we can achieve greater alignment between
accountability decisions we make about schools and our use of growth as
part of our principal evaluation system.
    Absent this change, our institutional accountability would have
been a status model (i.e., whether students are achieving proficiency)
while the State component of the principal evaluation system would have
been based entirely on a growth metric, creating greater possibilities
for divergence in our judgments about principals and the schools they
lead.
Flexibility
    The Waiver provides districts with the flexibility to redirect
resources to implement whole school reform models in the State's
Priority schools and increased flexibility to implement effective
extended learning time programs in collaboration with community
partners.
    In addition, SED eliminated previous rules for set-asides and
replaced them with new set-asides. The new rules require districts to
set-aside between 5 and 15 percent of their Federal allocations for
titles I, IIA and III (if identified for the performance of English
language learners) to provide State approved programs and services, and
an additional 1 percent to support parent involvement and engagement
activities in Priority and Focus schools. While districts may choose to
offer Supplemental Education Services (SES), the waiver allows
districts to redirect these funds to implement a broad array of
programs in Priority and Focus schools, with a particular emphasis on
Extended Learning Time opportunities in Priority schools.
Alignment to Other Key Reform Efforts
    The approved Waiver is closely aligned with the Regents Reform
Agenda and our RTTT grant. Because of this close alignment, the
provisions of the Waiver provided another critical tool to help New
York achieve its goal of graduating students college- and career-ready.
    As I have described, two key areas of alignment are implementation
of the college- and career-readiness standards and teacher and
principal evaluations. SED was able to further leverage these
initiatives through the Waiver. For example, we removed the requirement
that all students must be proficient in English language arts and
mathematics by 2013-14, and we recalibrated high school metrics so that
proficiency could be defined as achieving not merely the standards for
high school graduation, but rather the standards for college- and
career-readiness.
    In addition, SED leveraged the Waiver's teacher and principal
evaluation requirements to complement work already underway. Along with
the requirement enacted in the State budget that tied State school aid
increases to approved negotiated evaluation plans, we have similar
requirements on RTTT and other funding opportunities.
    Another key leverage point was the creation of a new, common, and
robust schools and district review process connected to a single tool,
the Diagnostic Tool for School and District Effectiveness, which
compares a school and district's practices to the optimal conditions of
learning. We appoint Integrated Intervention Teams each year to conduct
onsite diagnostic district and school reviews of selected Priority and
Focus schools.
    The flexibility Waiver application gave New York the opportunity to
clarify and reinforce accountability expectations for the State's
public charter schools. We used the Waiver to make clear that public
charter schools operate under strict performance charter contracts with
their authorizers, and that they will be publicly identified for
performance like all other traditional district schools in the State.
Under the NCLB accountability system, many State education agencies and
authorizers across the country have allowed public charter schools to
evade accountability for low performance by moving low performing
charters through a progressive identification system, allowing for
``school improvement plans,'' and executing multiple, often
conflicting, compliance-based monitoring and oversight events. New York
utilized the Waiver to codify that State authorizers hold their schools
accountable against rigorous outcomes-based academic and operational
performance standards and that failing public charter schools in the
State cannot hide in the State accountability system. The National
Association of Charter School Authorizers cited New York State as a
national leader in public charter school accountability and as a
national resource for other States as they draft their ESEA waiver
applications.
    The integration of our reform efforts with the waiver has provided
us yet another tool to improve teaching and learning opportunities.
This was possible because the Waiver application was developed across
agency offices to better ensure that our Waiver was internally aligned
with all other key priorities. Senior cabinet officers from my offices
of Accountability, School Innovation, Curriculum, Instruction and
Assessment, and Higher Education all worked to ensure that we produced
a coherent, forward leaning, comprehensive accountability plan that
allows New York to concentrate investments in our neediest schools and
communities while also celebrating successes in places where things are
excelling or making meaningful progress.
                               next steps
    While New York was able to leverage the Waiver to support and
accelerate ongoing reform efforts and our RTTT work, the Waiver is not
a substitute for full reauthorization of ESEA. There are larger issues
that have not been addressed, particularly with regard to how funds are
allocated and spent. However, the answer is not to sunset the Waiver;
the Waiver should be used as the starting point for full
reauthorization.
    I also urge you to consider how to integrate early learning into
reauthorization. The evidence is overwhelming: it is much more
effective to give a student a high-quality early education start than
it is to close achievement gaps later on through costly remediation.
The returns on the investment are also significant: a 2004 study found
that every dollar invested in pre-kindergarten programs produces $7 in
taxpayer savings through reduction of remediation, special education,
welfare and criminal justice services.\3\ Early learning needs to be a
key component of our strategy to help close achievement gaps and
turnaround low-performing schools.
---------------------------------------------------------------------------
    \3\ Belfield, Clive R. (2004) Early Education: How Important Are
the Cost Savings to the School System Research Briefing. New York, NY:
Teachers College, Columbia University.
---------------------------------------------------------------------------
                                closing
    Thank you for the opportunity to testify. Before I take your
questions, I want to emphasize again that the greatest impact of the
Waiver we received in May 2012 was to allow SED to accelerate our
reform efforts by closely aligning the Waiver to our existing Regents
Reform Agenda and RTTT efforts.
    We have made a new set of promises to our students through the
Waiver, and we will work hard to live up to those promises so that they
can graduate high school ready to succeed in college and careers.
    Thank you and I am happy to take your questions.

    The Chairman. Excellent testimony. Thank you, Dr. King.
    Mr. Smarick.

  STATEMENT OF ANDREW R. SMARICK, M.P.M., PARTNER, BELLWETHER
             EDUCATION PARTNERS, LAWRENCEVILLE, NJ

    Mr. Smarick. Thank you so much, Mr. Chairman, Senator
Alexander, members of the committee. My name is Andy Smarick,
and I work for a nonprofit called Bellwether Education
Partners. Prior to that, I served at the New Jersey Department
of Education as a deputy commissioner. So I'm here both wearing
a policy analyst hat but also as a recovering State
policymaker.
    My testimony here, but also what I presented to you in
writing, is designed to do one thing, in particular, to answer
what I think is a straightforward but very difficult question,
which is based on what we know of ESEA about NCLB and now the
waivers. How do we do everything possible to get the next
reauthorization right or as close to right as humanly possible?
    Specifically, how do we return power to the States but at
the same time make sure that student achievement continues to
grow and that the achievement gaps continue to shrink? Given my
time that I've spent at the State Department of Education--and,
recently, my view has been informed by that--I've been away
from Washington, DC, for quite some time, and most of my time
has been spent on NCLB implementation. What does this mean for
kids or teachers or school districts and so forth?
    Now that I'm back in the Washington, DC world, doing this
policy analysis, I'm much more acquainted with the sense of
urgency over the timelines of reauthorization and so forth. And
I think this explains, in my testimony, why I've put myself on
this uncomfortable island, to be honest. I'm struck that I am
suggesting in my testimony that we consider tabling
reauthorization for the time being, and I know this puts me at
odds with lots of people I respect, members of this committee,
many advocacy groups, the National Governors Association, and
on and on.
    So let me try to explain how I got to that tentative
recommendation. As a leader in the State Department of
Education, I was constantly told by people in the field that
AMO, AYP, was in need of improvement status, on and on, not
only is just Federal intrusion, but it's stopping us from doing
the work that we need to do. So when the opportunity for
flexibility under NCLB came to us in New Jersey, our Governor
and State chief decided we were going to give this a shot.
    Most States, I think, that I talked to did it for the exact
same reason. Their educators were telling them, ``NCLB is a
burden. You have to get this off our back and help us get some
relief from it.'' At that time, based on where I was sitting, I
gave very little thought, quite frankly, to these bigger
philosophical issues about the expansiveness of the waiver or
the additional things that were put into it. I was just writing
a proposal.
    The actual workings, from my point of view, of the waiver
process were not ideal, and I get into some of that in my
testimony. But the process did lead, without any question, to
more flexibility for my State and many of the States that I've
talked to. And, more importantly, it enabled us anew in New
Jersey to build a brand new accountability system, including
brand new interventions.
    As a State policymaker, I realized that that was an
imperfect solution, that long-term, what we needed to do was a
reauthorization. That's right. That's proper and enduring. We
only had this for 2 years, and that was always on our mind.
    But now that I'm back in the policy world, something has
really struck me as I have looked at all of these different
waivers and their provisions, and that is how different and how
promising they are. For the most part, this diversity is very,
very good, from my point of view. The laboratories of
democracy, like the Senator brought up, are hard at work. They
are making these plans aligned with what is needed in their
communities to meet local conditions.
    And I'm not quite sure that most people realize how much
meaningful innovation is actually in these plans--super
subgroups, the possible takeover of districts or schools that
aren't working. There's some worthwhile material in there. But,
more importantly, I think, from a lot of our points of view, K-
12 is now back in the hands of State leaders like it hasn't
been for the past decade.
    The final piece of my thinking goes back to 12 years ago
when I was a young house aide for the House of Representatives
and NCLB was coming down the pipe. And I remember talking to my
boss and others, and there was a consensus based on two points,
it seemed. One, there was a limited, too limited, Federal
accountability for so much money we were spending; and, second,
that there was this gaping achievement gap that the States at
that point weren't able to solve. And that seemed to galvanize
people, and that's what led to NCLB.
    Getting back to the beginning of my testimony, my concern
is that unless we get ESEA right or as close to it this time, I
worry about being back here in 5, 6, 7 years and having the
exact same pre-NCLB debate, where people say, ``ESEA isn't
right. States haven't done this correctly. We have achievement
gaps and so forth. Let's take more power away from the
States.'' I'm trying to guard against that.
    Those are the factors that led me to where I am right now.
That's why my testimony focuses on these very unglamorous
things and--I'm sorry. I'm talking like a State policy guy
again. Policy implementation, policy evaluation--that's why I
talk about these things, about evaluating what the State plans
actually look like, what they actually deliver. And, most
importantly, do States have the bandwidth, the capacity to do
what they've promised to do?
    Now, I understand fully--and I'm not comfortable that this
position butts up against what a lot of people on this
committee view as your primary responsibility right now, which
is immediate reauthorization of this law, taking back the
authority over this law, as it ought to be. And I cannot
disagree at all that that should be a priority.
    I'm thinking that perhaps some sort of optimal outcome at
this point is a combination of using this committee's authority
to reauthorize this law as quickly as possible, but
simultaneously realizing that there's much to be learned from
these waivers that are doing relatively remarkable things and
making sure that we have the time to do the necessary course
corrections so we can learn from them and move forward.
    So, sincerely, thank you for having me here and listening
to a contrarian view on a very important issue.
    [The prepared statement of Mr. Smarick follows:]
            Prepared Statement of Andrew R. Smarick, M.P.M.
                                summary
    When assessing the waivers in particular and ESEA reauthorization
proposals more generally, Congress should consider the former alongside
the motivations behind the passage of the No Child Left Behind Act.
Both the waivers and the next iteration of ESEA should strike a careful
balance between restoring predominant authority over K-12 schooling to
State leaders and ensuring that academic achievement gains,
particularly among disadvantaged students, continue.
    Congress should delay reauthorization of ESEA until lessons can be
learned from the implementation of State plans articulated in
successful waiver applications. This will require vigorous research by
the U.S. Department of Education and perhaps other Federal entities.
There is enormous variation among these State plans, and if the next
ESEA reauthorization is to have legs, it must be informed by the
successes and failures of the various initiatives undertaken over the
next several years.
    Congress should move the Federal Government's role in K-12
education toward outcomes and away from inputs. This has implications
for the Administration's flexibility initiative, such as its provisions
on educator evaluations, and for the underlying statute (e.g. HQT,
restructuring strategies).
    Because of the likelihood of the Federal Government's reduced role
in K-12 accountability in the years to come and SEAs' preoccupation
with the implementation of a wide array of other essential reforms,
Congress should provide short-term financial support to State
departments of education. This will help ensure that State plans are
fully implemented.
    Finally, Congress should empower the Department to withhold all
Federal funds from persistently failing schools. These funds should
support the creation of new high-quality schools designed to serve
students in the affected communities. This ``new-school/replacement''
strategy should take the place of current ``turnaround'' initiatives
that have been shown repeatedly to fail far more often than succeed.
                                 ______

    Thank you Mr. Chairman and members of the committee for having me
here today.
    By way of brief introduction, my name is Andy Smarick, and I am a
partner with Bellwether Education Partners, a national nonprofit
organization dedicated to accelerating the achievement of low-income
students by cultivating, advising, and placing a robust community of
innovative, effective, and sustainable change agents in public
education reform and improving the policy climate for their work.
    I've worked for the Maryland State legislature, a Member of the
U.S. House of Representatives, the White House Domestic Policy Council,
as a Deputy Assistant Secretary at the U.S. Department of Education,
and most recently as the Deputy Commissioner of the New Jersey
Department of Education.
    Let me begin with a quick summary of my recommendations, and then
explain how I arrived at them and how they might be brought about.
    First, I suggest that Congress delay further ESEA reauthorization
proceedings until at least 2015.
    Second, to inform the next iteration of ESEA, Congress should, for
the next 2 to 3 years, invest significantly in the research arms of the
U.S. Department of Education [and the Congressional Research Service
(CRS) and the Government Accountability Office (GAO) if necessary] and
task them with intensively studying the consequences of the waivers.
    Third, to maximize the likelihood of successful implementation of
State plans, Congress should, for the next 2 to 3 years, invest in
expanding the capacity of State Education Agencies (SEAs) to build,
maintain, and improve high-quality accountability systems.
    Finally, Congress should consider strengthening the
Administration's approach to addressing the needs of students in the
Nation's lowest-performing schools.
                    background: nclb and the waivers
    Analyzing the ESEA waivers and deciding how best to move forward,
in my view, is as challenging as any education policy matter facing
Federal policymakers because it inevitably forces us to make firm
judgments about the proper place for the Federal Government in K-12
schooling.
    And although ESEA is approaching its 50th birthday, I'm not sure
we've reached clear conclusions about where Uncle Sam should be
involved, and, when he is, what his precise role ought to be.
    Accordingly, and because we are still so early in the
implementation phase of the waivers, I'm encouraging, at least for the
short-term, patience, study, and a focus on thoughtful execution of
State proposals rather than sweeping assessments of these plans or
swift action on ESEA reauthorization.
    My approach to analyzing the waivers and determining what should
come next begins by acknowledging two sets of competing truths.
    I believe that decisions about K-12 policy should remain primarily
in the hands of State leaders and those they designate to execute the
day-to-day work of primary and secondary education, i.e. districts,
other LEAs, and schools.
    Moreover, the longer I'm involved in this work, the more I become
convinced that the Federal Government is quite limited in what it is
actually able to accomplish with regard to what matters most--student
learning. Of course, Congress can create programs and appropriate
funds, but neither translates so easily into improved achievement.
    That lesson has been part of my maturation in this work; my default
setting now reads something like: ``When it comes to K-12 schooling, a
modest Federal Government should be constrained and a wise Federal
Government even more so.''
    This is largely why I strongly supported my State's efforts to earn
an ESEA waiver about a year ago.
    But there's significant weight on the other side of the scale--
facts that my conservative ideology can't ignore. The decades of the
20th century when States were ascendant and the Federal Government cast
a rather small shadow over schools--I'll call this ``the pre-NCLB era--
--were not an unmitigated success, especially for our most
disadvantaged boys and girls.
    It's hard to pinpoint a year when we became aware that our primary
and secondary results were not what we hoped. President Lyndon Johnson,
in a 1964 speech explained that helping urban schools would be a pillar
of the Great Society. He said, ``Poverty must not be a bar to learning,
and learning must offer an escape from poverty.''
    Several years later, the famous Coleman Report showed that our
schools weren't able to fully compensate for ``out-of-school'' forces,
like poverty and parental education, meaning that demographics were all
but tantamount to destiny.
    Early in his term, President Nixon sent a similar message to
Congress: ``The outcome of schooling--what children learn--is
profoundly different for different groups of children and different
parts of the country . . . We do not have equal educational opportunity
in America.''
    This thread continues to this day. Our two most recent presidents
have spoken similarly, with the former lamenting the ``soft bigotry of
low expectations'' for underserved students, and the latter, in his
first inaugural, saying that ``our schools fail too many.''
    Implied or explicit in all of the above is our Nation's concern
that for at least half a century now, low-income and minority boys and
girls have not been getting from their assigned public schools
everything they need to succeed throughout life.
    This ``achievement gap'' would be tragic in any country, but it's
doubly so in a nation that rightfully prides itself on freedom,
opportunity, egalitarianism, and social and economic mobility.
    Many of us became increasingly averse to keeping Uncle Sam on the
bench while, decade after decade, disadvantaged kids lagged behind
their more affluent peers.
    This, combined with the fact that during this period the Federal
Government was spending tens of billions of dollars every year without
seeing the return on investment taxpayers deserved and students needed,
led me, more than a decade ago, while a young aide to a Member of the
House of Representatives, to encourage my boss to vote for the No Child
Left Behind Act.
    Though in some corners, it is now verboten to mention the acronym
``NCLB'' unless it's followed by a laundry list of criticisms, I think
President Bush and the Senators and Representatives who supported NCLB
deserve credit. The law did a great deal of good. I hope that fact is
never lost.
    But the law made some important mistakes, for example focusing
solely on attainment instead of student progress and dictating inputs
like the ``Highly Qualified Teacher'' provisions and restructuring
interventions. Others have also argued that NCLB identified entirely
too many schools as underperforming.
    The waivers provide relief on these fronts. And, more generally,
they reflect the large and growing support for my first set of
arguments--the seeming consensus that the Federal Government should,
for philosophical and pragmatic reasons, be light-touch when it comes
to our schools.
    Accordingly, the waivers have significant appeal. I know from my
time in a State department of education that there seemed to be a
collective sigh of relief from the field when our flexibility
application was approved.
    And to be clear, you can count me among the ranks of those who
support the flexibility exercise in concept.
    However, I'm a bit concerned that we've been so focused on
reestablishing an arms-length relationship between Uncle Sam and our
schools, that we may have lost sight, of the second, countervailing set
of facts.
    That is, the pre-NCLB era was an age of yawning achievement gaps
and inadequate accountability for Federal funds. NCLB didn't appear,
out-of-the-blue and uninvited, on the national scene; it was a response
to conditions that many of us felt intolerable. Too many disadvantaged
kids were being left behind.
    Congress, State leaders, and the public may now believe that the
pro-State-authority arguments outweigh the pro-NCLB arguments. But I
want to argue that they don't make the pro-NCLB arguments disappear.
I'd like to encourage you to keep those pro-NCLB arguments in mind as
you assess the waivers and, more importantly, as you restart work on
ESEA reauthorization
    This leavening of the current ``devolve-power'' zeitgeist, I think,
will put the Administration's actions into perspective, help us sort
out the strengths and weaknesses of the waiver process and the waivers
themselves, and suggest a path forward for reauthorization.
    So the rest of my testimony, including the recommendations I
ultimately offer, flow from the conclusions I draw when I consider the
entire NCLB-waiver enterprise alongside the very good reasons Congress
had for passing NCLB in the first place.
                    states reclaiming k-12 authority
    First, Congress inserted the Federal Government into K-12 schooling
the way it did back in 2001 because too many States lacked content
standards, failed to sufficiently assess student performance,
inadequately disseminated performance information to parents and the
public, failed to identify the most underperforming schools, were
unable to successfully close achievement gaps and improve performance
in long-failing schools, and provided too few options to kids
desperately in need of alternatives.
    Given these facts, is Uncle Sam's tactical withdrawal--as mapped
out by this flexibility initiative--appropriate? Or put another way,
can the Congress of 2013 trust the States to deliver results in ways
the Congress of 2001 did not?
    My answer to most of these questions is a cautious ``yes.''
    NCLB required States to adopt content standards, develop and
administer assessments, and disaggregate and publicize results. More so
than a decade--but certainly not unanimously--these practices are
considered important parts of a public education accountability system.
    Moreover, nearly all States have signed on to the Common Core State
Standards and one of the associated testing consortia. Though there is
much difficult work between where we currently stand and full
implementation of these standards and assessments, the States' work to
date suggests fidelity to high standards, tough assessments, public
reporting, and accountability.
    The waiver application required States to continue along this path;
and while many aspects of ESEA reauthorization are still undecided,
Congress's recent actions suggest it intends to continue requirements
related to standards, assessments, and disaggregated reporting.
    So in these areas, I'm encouraged by what States might accomplish
with their renewed authority.
    But with regard to a number of other matters that precipitated
NCLB's passage, I have misgivings about the intersection of some
States' paths and the Administration's road to flexibility.
    To take a quick step back, some might be of the mind that the
Administration's flexibility initiative amounted to a de facto
reauthorization of ESEA. Two-thirds of States have overhauled their
systems of reporting and accountability. Ten States are already
approaching the 1-year anniversary of their approvals. States have re-
set AMOs using new formulas, they've jettisoned the core notion of AYP,
they've stopped putting schools in improvement status, and many have
brought Supplemental Educational Services, NCLB choice, and HQT to an
end.
    So the landscape created by the waivers is certainly different than
the one conceptualized by NCLB. I suspect this is cause for more than a
little consternation.
    But if we're to focus on the future, I think we are well served by
seeing the waivers as having provided an invaluable opportunity to
learn lessons from America's ``laboratories of democracy.''
    I am, therefore, persuaded to think of the waiver strategy as an
information-gathering ``pre-reauthorization'' that will ultimately
result in a sturdy ESEA that returns to States their rightful authority
over K-12 schooling.
    In other words, the lessons of NCLB seem to have convinced some in
Congress that Federal oversight of schools should be on the wane. This
is an outline for reauthorization. But the devil is in the details. The
real question is, ``What exactly should this look like in practice?''
    What we learn from the State-based experiments generated by the
waivers will help provide that answer.
    My primary concerns about what comes next are: first, pre-NCLB,
some States did not use their authority to significantly improve
student achievement; second, some States continued to consistently lag
behind even during the more centralized NCLB era, a problem that might
be exacerbated under the waivers; third, a great number of schools
deserving scrutiny are not captured by the three Federal categories
(Priority, Focus, and Reward); fourth, we cannot be sure that States'
proposed interventions for troubled schools will generate the
improvements we need; and fifth, the Nation's very lowest-performing
schools may continue to fail, and the boys and girls assigned to them
will not have alternatives.
    I am not suggesting that States will purposely be bad actors on any
of these matters. In fact, I believe that we have more reason to be
optimistic than ever before that States are positioned to do quite
well.
    We have a number of exceptional State superintendents who have the
knowledge and backbone to advocate for and implement vital reforms. A
new generation of enthusiastic reformers with a laser focus on
improving student performance and closing the achievement gap populate
our schools and school systems and the many nonprofits that support
them. The demands of our changing economy and international
competitiveness seem to have galvanized business leaders, Governors,
and State legislators.
    But in the past, the best of intentions have not always led to the
results we need. Moreover, some States' track records and some State
proposals on issues like closing achievement gaps should give us pause.
    I'm cognizant that some might argue that States have the right to
control their schools as they see fit. Period. And this means States'
identifying struggling schools as they choose, delivering interventions
as they deem best, and using their own discretion to decide whether to
provide other options to kids. These matters are simply not the Federal
Government's business, some might contend.
    Though this roughly aligns with my political philosophy, I just
can't bring myself to agree with this articulation. My intellectual
purity ends at the water's edge of the best interest of disadvantaged
kids. I couldn't recommend a long-standing waiver policy much less an
ESEA reauthorization that would allow student learning to slide
backward, achievement gaps to grow, and/or the continued assignment of
kids to failing schools.
    I'm not saying that these things will necessarily happen in one or
more States that receive a waiver. But we should be mindful that they
could. Along these lines, I believe the Department made a wise decision
by making the waivers time delimited, so it could pull the plug should
problems emerge.
    But it will be difficult to rescind flexibility once it has been
granted; States will have put significant work into their new systems,
and their LEAs and schools will have become accustomed to the new
rules.
    I hope that future waivers and the next version of ESEA will be
constructed so that such steps backward are minimized. But at this
point, given our lack of knowledge about how the waivers will play out,
we simply don't know how to do that.
    So that's why my first recommendation is to delay reconsideration
of ESEA reauthorization until 2015 at the earliest and use the next 24-
36 months to vigorously study the waivers and their effects.
    The new State plans raise more questions than imaginable. They
differ in countless ways, and after reviewing many of them, I can't
tell you, at this point, which model is best. In fact, given that none
of these plans have been fully implemented, much less brought about
measurable results, we just have no idea which elements of which plans
are going to serve kids well.
    My second recommendation is to turbo-charge for at least the next 2
years, the research arms of the U.S. Department of Education, namely
the Institute for Education Sciences (IES) and the Policy and Program
Studies Service (PPSS). They should be directed--and further funded if
needed--to study the waivers and their effects and help Congress draw
conclusions about what the information gleaned means for an improved
ESEA. If our research needs exceed the Department's capacity, I'd
recommend that Congress engage the Government Accountability Office
and/or the Congressional Research Service, as well.
    Consider just a few of the different tacks States are taking:

    <bullet> States are using a wide array of methods to measure school
performance and assess whether achievement gaps are closing. This is a
more complicated exercise than it might appear. One researcher, for
example, has found that how a State weights growth and attainment
influences which level of school (i.e. elementary, middle) is primarily
identified as the lowest performing.
    <bullet> There appear to be cases where a State has one method for
identifying low-performing schools for the purposes of the waiver and
another method for generating school-level grades.
    <bullet> Some States, like Tennessee, believe the best State
approach is to work through districts; New Jersey, where I worked, on
the other hand decided that school-based reforms were likelier to
influence achievement.
    <bullet> A number of States have created ``A-F'' grading systems,
with Florida's system most well known. Connecticut and Massachusetts
are creating new performance indices.
    <bullet> Some States are giving scoring bonuses in school rating
systems for making gains with the lowest-performing students. Indiana
and Massachusetts are also giving weight to improvements made with
high-performing students.
    <bullet> There are different ways of deciding which schools are
most troubled--how do you combine overall achievement scores with
achievement gaps, subgroup performance, growth scores, graduation
rates, and so on?
    <bullet> Maybe the biggest deviation from NLCB is several States'
decision to create a so-called ``super subgroup,'' which considers all
low-performing kids together instead of categorizing them, for
reporting and accountability purposes, by race or parental income.
    <bullet> There are different ways of addressing persistently
failing districts: some State plans contemplate putting such districts
in State receivership; other States intend to take over individual
schools within these districts.
    <bullet> States vary significantly in how they will work with
schools that don't fit into Priority, Focus, or Reward status--what
some call ``unidentified schools.'' How closely are they monitored?
When will States intervene?
    <bullet> Though I'm opposed to requiring educator evaluation
reforms via ESEA, the lessons from the States' responses to the waivers
will have much to teach us about title II and the Teacher Incentive
Fund.
    <bullet> And then there is the laundry list of questions related to
interventions. What do States plan to do when schools develop huge
achievement gaps, fall into the bottom 5 percent of all schools, or
have too few advanced students? Some like Kentucky promise to develop
regional support offices. Others plan to offer resources through the
central State office. And there are countless other permutations.

    Two or three years from now, we will know much more. I believe
these real-world lessons should inform the next reauthorization.

    <bullet> We may find that every State plan approved by the
Department produced terrific results. But it's likelier that some plans
will yield remarkable improvements, some plans will be good or fair,
and a few will produce outcomes that we regret. It's almost certain
that in every State plan some elements will work better than others.
    <bullet> The super-subgroup approach may lift our most
underperforming kids. Or it may prove to mask the low performance of
some groups.
    <bullet> ``A-F'' systems may produce the kind of information
policymakers and parents need. But it's also possible that they
inevitably produce oversimplified answers to an inherently complex
question: How is this school performing?

    Some might say that decisions on these matters should be left
wholly to State leaders. I do think that Uncle Sam needs to hand back
to the States much of the power he accumulated during the NCLB era.
    But I suggest that our operating philosophy be more along the lines
of President Reagan's adage ``trust but verify'' and less like
``declare victory and go home.'' That is, we should divest Uncle Sam,
but we should do so prudently.
    I think we should be humble enough to admit that as a nation we
were unsatisfied with the student achievement results of the pre-NCLB
era. We have to guard against a reflexive return to the policies and
conditions that produced those results.
    Precipitate action on reauthorization could lead to similarly
distressing results for kids, and then we'd find ourselves back here in
a decade discussing another round of expanded Federal K-12 powers
because--critics will charge--the States couldn't deliver. That's to be
avoided if at all possible.
    If we embrace a ``measure twice, cut once'' mentality over the next
2 to 3 years, we can learn a great deal from the States and build a
smart, robust ESEA that stands the test of time.
                         inputs versus outcomes
    The second set of conclusions I draw when considering the waiver
enterprise in the context of NCLB relates to federally required
``inputs'' versus ``outcomes.'' I think the Federal Government
generally erred the most under NCLB when, rather than telling States
what was expected and allowing them to determine how best to get there,
prescribed precisely what the States ought to do. In this area, I think
of the HQT provisions, the interventions prescribed under
restructuring, and the rules for how to determine if a school is ``in
need of improvement.''
    I think the waiver application process veered in this direction on
occasion. For example, I'm a very strong advocate for State-level
reform of educator evaluation policy. But this is an input--a strategy
we suspect will lead to better student outcomes--not a result. I think
including educator evaluation reform in the waiver application may have
been a bridge too far.
    I think the Administration did an exceptional job on this policy
with Race to the Top. Thanks to its inclusion in that application,
we've seen more changes in educator evaluation policy in the last
several years than I frankly thought possible.
    But that was a voluntary competitive grant program--Congress's way
of encouraging States to pursue a particular suite of reforms in
exchange for potential funding. That strikes me as wise Federal
policymaking. If Congress believes strongly enough in a reform that it
is willing to allocate scarce Federal resources to a voluntary
competitive grant program, that can have the effect of changing State
policy and practice without forcing the hand of State leaders.
    I think the Administration may have also gone too far in the
direction of input-management during its negotiations with States over
their final waiver submissions. To me at least, it doesn't feel exactly
right when State officials need to seek the permission of Federal
officials to construct a Common Core-implementation timeline or a
rollout strategy for the various components of a new educator
evaluation system.
    To be fair, a reasonable response from the Administration on this
score would be that they were simply playing on the field constructed
by NCLB. They were adhering to the law's principles on the achievement
gap and Federal oversight of State activities related to troubled
schools.
    They might say that had they not conducted such negotiations they
would've been left with the binary option of simply voting up or down
applications, which would've infuriated States in the down column. Or
the Department could have simply rubber stamped all applications that
came over the transom and then been susceptible to charges of giving
too much leeway to States whose activities still needed to be monitored
assiduously during the transition from NCLB to the next ESEA era.
    My preference during both this waiver period and the subsequent
new-ESEA era is to have the Federal Government focus almost exclusively
on outcomes--meaning both that States would have significant
flexibility for accomplishing agreed-upon goals and that the Federal
Government would act swiftly and forcefully when results are not
achieved. In the latter case, this would include an increased
willingness by the Federal Government to withhold formula-based Federal
funds from persistently poor-performing States, LEAs, and schools, and
to make these entities ineligible for competitive grant programs.
                              sea capacity
    My third conclusion is that the Federal Government, even absent a
reauthorization in the near-term, should provide financial support to
States during the waiver era to ensure that the States have the
capacity to fill the vacuum caused by the removal of Federal oversight.
There is a stark difference between the NCLB era and the seemingly
imminent State-ascendant era, and a smart transition phase is
necessary.
    It is important to remember that most States are currently
overwhelmed with education reform implementation. I can't emphasize
strongly enough just how much new and difficult work has been heaped on
SEAs over the last 5 years.
    In addition to their historical responsibilities over distributing
State and Federal funds, monitoring Title I and IDEA compliance,
credentialing educators, and more, they've now been placed in charge of
the most important new initiatives of this era: Common Core
implementation, transitioning to the new common assessments,
overhauling educator evaluations, improving educator preparation
programs, expanding and improving choice options, and on and on.
    While they've been tasked with more and more, many SEAs have seen
their budgets shrink because of this lingering period of fiscal
austerity. State chiefs were already struggling to triage, with each
initiative demanding more attention and resources than are available.
    The waivers have only increased the demands on SEAs. As the Federal
Government pulls back from accountability, SEAs will need to fill the
void--but many State leaders will find themselves asking, ``Fill it
with whom?''
    Policy implementation is not the most glamorous subject. But if we
want this era's reforms to succeed, we have to remember that someone
has to carry them out. My concern is that if we don't take this
seriously, we'll look back 10 years from now and marvel at the huge
delta between the aspirations of the laws we passed and the results
they achieved.
    My third recommendation is to establish a short-term ``ESEA
Transition'' fund that will help States staff up to pick up the slack
as Uncle Sam looses his grip on the reins. States will ultimately need
to take full financial responsibility for their new accountability
systems. But over the next 24 months, while they budget for the future,
they will need help building and disseminating their new school report
cards, staffing their new regional offices, delivering interventions,
and much more.
    With so many competing priorities, State chiefs, without additional
support, will find themselves constantly robbing Peter to pay Paul. A
short-term financial investment in SEA human capital could play a
powerful role in ensuring that waiver plans succeed and that States
have the ability to advance student learning and close achievement gaps
while the Federal Government stands down in this area.
                addressing the lowest-performing schools
    My final conclusion related to the intersection of NCLB and the
waivers relates to the Nation's lowest performing schools. NCLB placed
a priority on addressing the needs of students in these schools by
requiring that the schools undergo ``restructuring'' after persistent
low performance and by providing their students with additional
education options.
    Restructuring, however, did not accomplish its goal of bringing
dramatic change to these struggling schools. In hindsight, however,
this should not have come as a surprise.
    A large and growing body of evidence shows that the Nation's lowest
performing schools remain low-performing despite a wide array of
interventions. In just the last few years, Tom Loveless of Brookings
found that over the course of 20 years only 1.4 percent of the schools
he studied from the bottom quartile of performance made it to the top
quartile.
    In a study for the Thomas B. Fordham Institute, David Stuit found
that only 1 percent of schools made it from the bottom quartile to the
top half of performance.
    Just last week, a newly released report from Stanford University
found that even among charters--which should have more degrees of
freedom than other public schools--89 percent of schools in the lowest
quintile of performance after 3 years in existence would remain in the
bottom quintile thereafter.
    Because major improvements of our lowest-performing schools are so
rare, it is virtually impossible to say with any degree of certainty
which strategies are the right ones to employ. In fact several years
ago the U.S. Department of Education released a study on school
turnaround efforts and found that it couldn't firmly recommend one or
more approaches because it could not identify any sufficiently rigorous
studies finding that ``specific turnaround practices produce
significantly better academic outcomes.''
    Add to this the Administration's release, late last year, of a
graph showing depressing initial results from the multi-billion dollar
School Improvement Grant (SIG) program. After a year of using the
Department's preferred turnaround models, nearly 40 percent of schools
receiving SIG funding had lower reading scores. Another 49 percent saw
only ``single-digit'' reading gains.
    I firmly believe that a reasonable inference from this evidence,
and the many similar studies that came before, is that the Federal
Government cannot depend on ``turnarounds'' of our most troubled
schools to provide the number of high-quality seats our disadvantaged
students so desperately need.
    This lesson is especially relevant to the waiver's approach to
``Priority'' schools, the Nation's most persistently underperforming
schools. States are required to intervene in these schools using
strategies aligned with the Federal Government's ``turnaround
principles.''
    Said simply: with enormous evidence that school turnarounds are not
a scalable strategy for meeting the needs of our most at-risk students
and data showing that the Department's four preferred SIG strategies
backed by $5 billion produced discouraging results, I find it hard to
make the case that a waiver application ought to require States to use
another set of federally approved ``turnaround principles'' with their
other low-performing schools.
    A new approach is warranted.
    My fourth recommendation is for Congress to give the Department new
authority in this area. The Department should continue to require
waiver-seeking States to identify their lowest-performing schools; but
it should not tell States what to do with them. States should have full
discretion in crafting and administering such interventions.
    Instead, following the outcomes-not-inputs approach, Congress
should empower the Department to withhold all Federal funding,
including title I, from any such school that remains persistently
underperforming after the application of State-determined
interventions.
    Withheld funds should then be aggregated and made available to
States on a competitive basis to support the creation of new schools--
under new operators and governance conditions--serving the affected
communities.
    This would facilitate the replacement of the Nation's chronically
failing schools via a ``new-schools strategy.'' My preference would be
for these Federal funds to be administered through the Federal Charter
School Program, subject to all of its current rules and priorities.
    If, however, Congress chooses to require no alterations to the
Department's waiver application until a full ESEA reauthorization is
complete, I would encourage exhaustive research on SIG results,
including the timely release of school-level data, and the
effectiveness of State interventions in Priority schools.
                               conclusion
    I believe that the Administration's ESEA waiver initiative has
given Congress the opportunity to vigorously study State accountability
plans and their influence on student learning. This will hopefully lead
to a new ESEA that generates improved student results and finds the
right balance between State authority and Federal oversight.
    By delaying reauthorization and providing a short-term boost to
both Federal research and SEA capacity, Congress has the opportunity to
return K-12 authority to the States while ensuring that the progress
made during the NCLB era is continued.

    The Chairman. I assure you, Mr. Smarick, I, for one,
appreciate provocative thinking. I don't mean provocative--
making people think differently is what I'm talking about. You
understand what I meant, getting people to think differently.
Thank you very much.
    Ms. Haycock.

   STATEMENT OF KATI HAYCOCK, M.A., PRESIDENT, THE EDUCATION
                     TRUST, WASHINGTON, DC

    Ms. Haycock. Chairman Harkin, Senator Alexander, Senator
Bennet, my name is Kati Haycock. I'm president of the Education
Trust. Thank you for the opportunity to be with you this
morning.
    Because so much of the conversation so far has functioned
on the sort of perverse effects of the law in latter years and
getting this back into the hands of the States, I think it's
important to start, actually, by reminding us, as you did,
Chairman Harkin, why in 2002 you made such sweeping changes to
school accountability. It's important to remember that after
decades of hiding the underperformance of some groups of
children under school-wide averages, you required States to
report the performance of all groups of children and to
evaluate their schools by how successful they were in moving
all groups forward.
    And that requirement, the requirement for the first time to
educate all children to the same State standards, is why this
law was considered such a huge landmark by the disabilities
community, by the civil rights community, and by others whose
children had for too long been hobbled by low expectations. And
even though the law's critics believe it brought about a much-
needed focus on disadvantaged kids, we supported Secretary of
Education Duncan's decision to grant waivers for the same
reason that many of you did, that there was an increasing
number of perverse effects of the law and no reauthorization.
    But I want to be clear that our support for the idea of
reauthorization shouldn't be confused with enthusiasm about how
the process worked out. As we look across the approved waiver
plans, here's what we see in four, what I hope are quick
points.
    First, the goals. As you know, many educators and others
decried the goals you set in NCLB, that 100 percent of kids be
proficient by 2014, as unrealistic or not based on real data.
So in its waiver guidelines, the Department actually gave
States two options that were based on real data or said,
``Choose your own equally ambitious set of goals.'' It's
important for you to know that that approach really works, that
States, in fact, adopted good solid stretch goals that were
based on real data, and you can feel good about that approach.
    The second point that's important to understand, though, is
that when it came to building their school rating systems,
though some States made progress against those goals matter,
the vast majority actually didn't. You have examples like
Minnesota and Tennessee, where performance against those goals
actually counts in the school rating. But many States actually
created rating systems where those goals you required them to
sit out on the side. Progress may be reported someplace, but
actually doesn't count in school ratings.
    Third, what about the super subgroups? Some States, as you
know, took what could be a tweener approach, right, by creating
a super subgroup and then sort of baking results of that group
into their school rating system. As you know from previous
testimony, there are some advantages to that super group
approach, that is, more of the kids that you named in NCLB
actually count and more schools are accountable for them.
    But there are also risks, and it's important to understand
that some States actually undercut the impact of the super
subgroups by actually giving extra points for the progress of
kids who were not in the super subgroups. So the details of
these systems actually matter.
    Third, most State plans in improving their lowest
performing schools, now called priority schools, are a huge
step forward from NCLB. The plans are much more serious and
detailed than previous plans, and the criteria for exiting
priority status are better as well. I think you can feel good
about those.
    Finally, transition issues. States were actually asked to
address a variety of transition issues in their plans,
including transition to the new Common Core assessments and
transition of students with disabilities from the modified
assessments and modified standards to the new ones. I think
there are reasons to worry about the lack of detail there.
    In short, I want to be clear. We still support the waiver
process. We think there are some very important innovations,
but there are also some reasons to worry. But, mostly, when we
step back from the overall process and look at what it
produced, we mostly wonder what I suspect many of you probably
wonder as well, and that is how is it that this process moved
the ball forward so much further in our lowest performing
schools, but arguably took a step backward in the message to
the other 85 percent of our schools that you actually had to
succeed, not just for some of your children, but for all of
them.
    That occurred, I think, largely for two reasons. First is
because the Department of Education's waiver guidelines invited
that difference. They actually required States to be aggressive
about their lowest performing schools. They required them to
set stretch goals for all groups of children, but then they
invited them not to actually make those goals meaningful for
the vast majority of their schools. And when it came down to
it, States basically did what they were required to do and
nothing more.
    The second thing, though, that's important to understand is
that there is a process that occurred. There were lots of idea
sharing among States. But, in reality, ideas about how to
weaken the focus of accountability on disadvantaged kids
actually spread rapidly across the States, while some of the
very interesting and important innovations that States came up
with on how to make accountability really matter for
disadvantaged kids actually failed to go viral in anywhere near
that same way.
    Now, obviously, as data come in, you'll know a lot more in
the next year or two about the effectiveness of these systems.
But should you get around to reauthorizing before that, you
ignore those two lessons at our collective peril.
    Thank you so much.
    [The prepared statement of Ms. Haycock follows:]
                Prepared Statement of Kati Haycock, M.A.
    Chairman Harkin, Senator Alexander, and members of the committee,
thank you for providing me with the opportunity to share with you some
initial observations on the State-proposed, Department-approved No
Child Left Behind (NCLB) waiver plans.
    My name is Kati Haycock and I am President of The Education Trust.
The Education Trust is a nonprofit advocacy organization that promotes
high academic achievement for all students at all levels--pre-
kindergarten through college. Our goal is to close the gaps in
opportunity and achievement that consign far too many young people--
especially low-income students and students of color--to lives on the
margins of the American mainstream.
    Whether the NCLB waivers represent progress on--or backsliding
from--a national commitment to closing gaps and raising achievement is
a critical question, and I appreciate this opportunity to provide The
Education Trust's thoughts on that issue. Given time constraints, I
will focus just on the accountability provisions.
                    no child left behind and waivers
    First, a little context.
    In 2002, NCLB ushered in sweeping changes to school accountability.
Though accountability had previously been left largely to the States,
broad dissatisfaction in Congress with the slow pace of educational
improvement--especially for the groups of children for whom Congress
provided States with supplemental funding--led you to step in with a
new framework designed to set schools on a path to get all their
students to ``grade level'' by 2014.
    Moreover, instead of permitting them to measure progress as they
always had--based on school-wide averages--you required States to
report performance for all groups of children and to evaluate schools
by the progress of every group they serve. That requirement--that
schools are expected to teach all their students to the same State
standards--is why NCLB is considered such a landmark law by the
disability community, the civil rights community, and others whose
children have, for so long, been compromised by lower expectations.
    Virtually all observers--including critics of the law--applaud the
new focus it brought on improving the achievement of the groups of
children who had lagged behind, including low-income students and
students of color, English Language learners, and students with
disabilities. NCLB wasn't perfect, though, and over time, even the
law's staunchest supporters acknowledged a growing number of perverse
effects, especially in the years after it was scheduled to be
reauthorized.
    Like many other organizations, we'd hoped that reauthorization
would provide an opportunity to strengthen certain provisions of the
law, while also addressing its weaknesses. Both alone and in concert
with civil rights, education reform, disabilities, and business
organizations, we put forward a set of reauthorization recommendations
to Congress.
    But when, after multiple attempts, it was clear that Congress
couldn't reach agreement on how best to renew the law, we supported
Secretary of Education Duncan's decision to grant States waivers of
some NCLB accountability provisions. The potential consequences to the
equity movement of not granting more flexibility--including permanently
marginalizing Federal accountability requirements--were, in our
estimation, more severe than the dangers inherent in a waiver process.
    Along with many other organizations, we provided feedback on the
waiver requirements and guidelines, including extensive data analyses
that served as the underpinnings of the ``cut the gaps in half''
accountability option. Several Ed Trust staff members, myself included,
also served as peer reviewers.
                    waivers: some questions, worries
    Our support for the Secretary's decision to grant waivers should
not, however, be conflated with enthusiasm about either the final
waiver guidelines or the waiver plans that were actually approved.
There were certainly areas of great strength in both the Department's
guidance and in some States' plans, but there were also decisions that
should trouble all those who understand--as you do--that our future as
a nation depends on developing the minds of all our children.
    In the end, what will matter--of course--is whether we speed
progress in raising achievement and closing the long-standing gaps that
have separated too many young Americans from their more advantaged
peers.
    But it's not too early to draw some lessons from this experience as
you look forward to reauthorization. The essential question: When given
more flexibility, do States preserve the focus of the law, while
mitigating its growing problems?
    As we look across the approved waiver plans, here is what we see.

1. Setting Achievement Goals

    Many educators and others decried the 100 percent-of-kids-
proficient-by-2014 goal as unrealistic and ``not based in real data.''
So, in its waiver guidelines, the Department gave States two options
that were based in real data, but also allowed them to pick something
``equally ambitious.'' This approach seems to have worked, and well.
    Close to half the States that received waivers chose some version
of the cut the gap in half achievement goal, an idea that originated at
Ed Trust after extensive analysis of data from multiple States to
identify rates of improvement and gap-closing that meet the ``ambitious
and achievable'' test.\1\ This goal requires improvements for all
groups of students, but promotes gap-closing by demanding faster
improvement from those groups that start farthest behind.
---------------------------------------------------------------------------
    \1\ For more information on the rationale and data supporting the
cut the gap in half goal framework, see The Education Trust, Getting it
Right: Crafting Federal Accountability for Higher Student Performance
and a Stronger America, September 2011.
---------------------------------------------------------------------------
    Only Arizona chose the 100 percent proficiency by 2020 goal, while
Louisiana is maintaining the NCLB goal of 100 percent by 2014.
    Among States that selected to develop their own, ``equally
ambitious'' goals, some chose to benchmark against achievement in their
top-performing schools. For example, Colorado and Wisconsin have
identified performance in the schools currently in the top 10 percent
of achievement statewide and set a goal that all schools, and all
groups, would get to that level of performance within 6 years. In those
States, getting all schools to the level of the current top performers
would represent improvement overall and meaningful gap-closing. This is
a practice worth consideration by other States, especially when they
make the transition to new assessments.
    In the end, though, I think you can feel good about this approach:
States mostly set goals you can be proud of--in some cases, depending
on the rigor of their assessments, these are even more ambitious than
those in NCLB. And they set goals for every student group that you
asked them to worry about when you passed NCLB.\2\
---------------------------------------------------------------------------
    \2\ For graduation rate goals, however, the picture is murkier. The
Department of Education didn't explicitly ask States to identify their
graduation-rate goals for students overall or groups of students.
Fortunately, some States did articulate goals. For example, Arkansas,
Connecticut, Delaware, Georgia, and Maryland used versions of the cut
the gap in half framework to set graduation-rate goals for students
overall and for student groups. Many States, however, didn't clearly
articulate their graduation-rate goals.
    In response to concerns about the lack of graduation-rate
accountability raised by advocates, particularly advocates for students
with disabilities, the Department recently clarified that, for those
States that were not expressly approved for new grad-rate goals in
their waiver application, the original Adequate Yearly Progress (AYP)
goals imposed under NCLB still hold. This was an important, if overdue,
step.
---------------------------------------------------------------------------

2. Making Goals for All Groups of Students Matter, or Not

    When it came to building their school ratings systems, however,
some States made performance against these goals matter, but most
didn't.
    Minnesota, for example, adopted ambitious goals--overall and for
every group of children--and is taking performance against those goals
seriously. The percentage of students overall and student groups making
their cut the gap in half achievement goals is a meaningful component
of the ``Multiple Measure Rating'' at the center of the State's new
accountability system. Tennessee, too, holds districts accountable for
meeting gap-closing goals.
    But many States created systems in which the goals for raising
achievement and closing gaps exist ``on the side.'' Progress may be
reported--somewhere--but it doesn't count as a core part of the
accountability system. This means that, in a State like New Mexico, a
school can get an ``A'' grade even if it consistently misses goals for,
say, its students with disabilities, its Native-American students, or
its English-language learners.
    This latter set-up sends a terrible message for teachers and
parents about what, or who, matters and makes gap-closing goals next to
meaningless. This is very definitely a step backward from the civil
rights commitment embedded in NCLB.

3. Replacing Sub-groups With Super Sub-groups

    Some States took what could be a ``tweener'' approach, by creating
a ``super sub-group,'' then ``baking'' the performance of the super
sub-group into their school ratings systems. There are some advantages
to this approach, but there are also risks. And, once again, some
States undercut the potential advantages of using super sub-groups by
either how they constructed those groups or by how they weighed their
results in the system.
    There are two criticisms of NCLB accountability to which super sub-
groups might be an answer. First is that schools with small numbers of
students in any group often escaped responsibility for that group of
students. Second is a perception among some educators that the law
brought about a ``check-box'' approach to accountability, where a red
mark in only one of 40-odd boxes could result in a ``failing'' label.
By creating a larger super sub-group, generally composed of either the
lowest performing students in the school or a combination of some or
all NCLB-subgroups, States could address both concerns.
    Certainly, there are risks inherent in the use of super sub-groups.
When the super sub-group is composed of low-performers, educators could
lose sight of the fact--as they often did, frankly, with NCLB--that we
will never close achievement gaps if we focus only on moving the bottom
performers up. When the super sub-group is composed of some or all of
the NCLB-named groups, the risk is that improvement of the whole will
mask flat or declining results for one or more constituent groups.\3\
---------------------------------------------------------------------------
    \3\ Interestingly, Nevada and Wisconsin have a promising approach
to balancing the benefits and risks of super sub-groups. These States
employ a super sub-group comprised of low-income students, students
with disabilities, and English learners only as a ``backup'' when there
are fewer than 10 students in one of these groups in a school.
---------------------------------------------------------------------------
    But there are also advantages in going the super sub-group route,
including simplicity. And in most States, the number of schools now
subject to accountability for special populations has increased, as has
the number of students ``counted'' in these systems.
    I want to emphasize here, however, that the details of these
approaches matter, because States can appear to be emphasizing
performance of a super sub-group, while actually undercutting it.
    Florida and Indiana, for example, each has a super sub-group based
on the lowest performing 25 percent of students in a school. In
Florida, super sub-group learning gains count for a quarter of an
elementary school's letter grade. And, as an additional safeguard,
schools that would otherwise get an A, B, or C can lose a full letter
grade if not enough students in the super sub-group make learning
gains.
    In Indiana, on the other hand, super sub-group performance can get
washed out. Super sub-group growth counts for ``bonus points'' toward a
school's A-F grade, and schools can also earn an equal number of
``bonus points'' for growth among the top-performing 75 percent of
students, even if their low performers don't grow. This means that
schools can accomplish what they need to under the State's
accountability system--raise their grades by two letters by 2019-20--
even if the students in the lower performing super sub-group don't make
their growth target and gaps between low and high performers widen.
    So will super sub-groups advance or harm the effort to close
longstanding gaps between groups? In truth, only time--and data--will
tell. Certainly, it can be argued that more students from the NCLB-
named groups are now included, and more schools are subject to special
accountability for the students in those groups. That said, the
eagerness of States to embrace this innovation--though almost unheard
of outside of Florida pre-waivers, the practice has spread like
wildfire since--has clearly not been accompanied by parallel enthusiasm
to adopt any of the innovative ways a few States put protections in
place on their super sub-group system to assure that all groups
benefit. Nor, frankly, was there much enthusiasm for weighting results
from the super sub-group anywhere near as strongly as groups were
weighted in NCLB. Both of these trends say a lot.

4. Getting Serious About Low-Performing and Big-Gap Schools

    Most State plans for improving their lowest performing schools--now
called ``'Priority Schools''--are steps forward. They are serious and
detailed, and the criteria for exiting priority status are serious,
too. Some States also put forth thoughtful plans for improving ``Focus
Schools,'' or schools with especially large gaps or especially low
performance by subgroups.
    The plans for improving Priority Schools stand in stark contrast to
those required under NCLB, which labeled schools that missed one goal
for one group the same as schools that failed to serve all their groups
every year, sending all of them down the same, formulaic ``improvement
path.''
    Saying the plans are better, though, doesn't mean they are as good
as they should be. There are at least three aspects of the work on
Priority Schools that warrant attention.
    First, while the Department's required turnaround principles
rightly include ensuring that Priority Schools have effective teachers
and leaders--who, after all, can imagine successful improvement efforts
without them--few approved State plans actually tackle this issue head
on. Florida is one exception, with very explicit criteria that could be
a model for other States. For example, districts in Florida can only
employ teachers in Priority Schools if they meet several criteria,
including at least a satisfactory evaluation rating. To work at a
Priority School in Florida, principals must have a record of increasing
student achievement in similar schools. But again, some State plans
were approved without serious attention to this issue.
    Second, despite our long track record as a country of investing
money and energy into low-performing schools but not acting when
results don't change for students,\4\ many State plans don't spell out
a clear course of action for Priority Schools that, even after
receiving resources and support, prove unwilling or unable to improve.
In Maryland and Georgia, for example, not meeting priority exit
criteria only brings more improvement planning. Fortunately, a few
States stepped up and took this on. Michigan and Tennessee, for
example, are following Louisiana's lead and developing State-run
turnaround zones for Priority Schools that, after receiving support and
intervention, still don't improve. Others, like Colorado, have set
explicit timeframes for Priority Schools to undergo significant
governance changes or, in some cases, to close altogether.
---------------------------------------------------------------------------
    \4\ The Education Trust-West, Learning Denied: The Case for
Equitable Access to Effective Teaching in California's Largest School
District, January 2012.
---------------------------------------------------------------------------
    Third, while NCLB provided students attending schools that failed
to meet their performance targets for two consecutive years with a
right to transfer to another school, the Department of Education's
waiver guidelines did not require States to guarantee that right even
for students in the lowest performing schools. Consequently, most
didn't. Regardless of where you sit on the importance of school choice
for students in general, it is hard to conclude that this decision
shouldn't be revisited.
    Thus, while approved plans for our lowest performing schools
represent marked improvements from what occurred in most States under
NCLB, we are still not where we need to be.
    One final point about accountability.

5. Including Non-Test Measures in Accountability Systems

    Though States were invited to include in their waiver systems
measures beyond tests and graduation rates, very few did so.
    This is surprising, because there is near universal agreement on
the need to look at multiple measures of college- and career-readiness,
especially at the high school level. Moreover, this was also an
opportunity--though, admittedly, one fraught with danger--for States to
begin to broaden beyond the State-administered tests that have inspired
so much opposition.
    The good news here is that the States that took advantage of this
opportunity did so in ways that should mollify those who worried that
they would water down the purposes of the law with non-academic
indicators.
    In Idaho, for example, schools are held accountable for student
participation and success in advanced coursework such as AP, IB, or
dual enrollment, as well as their performance on the ACT, SAT, COMPASS,
or ACCUPLACER college-placement tests. Kentucky is holding schools
accountable for the percent of students who are college- or career-
ready, as measured by EXPLORE in middle school and ACT, Work Keys,
ASVAB, several Kentucky assessments, and industry certification in high
school. Nevada is looking at a number of college- and career-ready
indicators, including remediation rates in State colleges.
    These are all good measures, and worthy of consideration by other
States.
    But even when these important college- and career-ready indicators
have been included, too often State systems look only at overall
performance, ignoring wide gaps between groups.

6. Taking Care of Transition Issues

    Though States were asked to address certain key transitions in
their waiver plans, they generally did not do so in detail.
    The Department of Education's waiver guidance asked States to
explain how they were transitioning to college- and career-ready
standards and assessments. Although many States have lengthy plans, two
elements were often missing: how States will ensure all teachers have
access to aligned instructional support materials, and how States will
communicate with the public about the new standards.
    Further, although they were invited to do so, few States proposed
plans for transitioning their accountability systems once the new
college- and career-ready assessments come online. Nor did most provide
any details on their plans--required by the waiver guidelines--to
transition students with disabilities being assessed on modified
achievement standards using the alternate assessment to the general
assessment.
                    waivers and esea reauthorization
    As is evident in this testimony, we have questions about some of
the Department's decisions--both in issuing its waiver guidance and in
approving waivers. We also have questions about why States made some of
the decisions they made; about why, when given the chance, they so
often built accountability systems that didn't make progress against
goals really matter for all schools.
    However, when you step back from the details and look at the big
messages from these new systems, you may wonder: How did we move the
ball forward around our lowest performing schools, but arguably step
backward in our messages to the other 85 percent of our schools that
they had to serve all groups of children well? Largely for two reasons:

    <bullet> First, because the Department of Education's waiver
guidelines demanded the former and invited the latter, and States did
basically what they were asked to, and no more; and,
    <bullet> Second, because ideas about how to weaken the focus of
accountability systems on underserved students spread rapidly across
States during the waiver application process, while the very
interesting proposals some States made to strengthen such a focus
failed to go viral in nearly the same way.

    As data develop in future years, we'll know a lot more about the
impact of these new systems. But should you reauthorize before that
happens, we ignore these two lessons at our collective peril.
    Before I conclude, I want to reiterate: The questions we have
raised today should not be taken to mean we think the Secretary was
wrong--given the congressional deadlock and mounting potential
marginalization of NCLB's accountability system he faced--to undertake
the waiver process. Nor do we think that the bills reported out of this
committee and the House Education and Workforce Committee, lacking as
they did accountability systems with goals, progress targets,
consequences, and serious turnaround requirements, would have been
better.
    We do think that the innovations launched through the waivers will
teach us a lot about what is important in accountability systems. But
we hope that as soon as data suggest glaring problems in any State for
any of the groups named in NCLB, State leaders will step up and make
necessary changes. And if they don't, we hope that the Secretary of
Education will live up to his promise to step in and demand changes.
    Thank you.

    The Chairman. Thank you all very much.
    Ms. Haycock, are you agreeing with Mr. Smarick that we
should put this off, or with Dr. King and Dr. Holliday,
basically saying we should reauthorize ESEA soon so that they
have stability and know what we're going to do out into the
future? I kind of got that at the end there.
    Ms. Haycock. You'll decide when is best to reauthorize. I'm
not going to presume to do that. What I do want to say is what
we don't want to do is jerk either States or, frankly, schools
around. So if you do reauthorize as quickly as you hope to, it
gets really important to be conscious of the transition that
most schools and most States are about to go through with the
movement to new standards and to build in enough flexibility in
the construct that it doesn't jerk people around.
    The Chairman. Thank you.
    Mr. Smarick, you said in your testimony about NCLB that
``The law did a great deal of good. I hope that fact is never
lost.'' And then you went on to say that before NCLB, ``Too
many disadvantaged kids were being left behind.'' Ms. Haycock,
in her testimony, said that that's why NCLB is considered such
a landmark law by the disability community, the civil rights
community, and others whose children have for so long been
compromised by lower expectations, and that NCLB brought them
in and said that schools are expected to teach all their
students to the same State standards.
    Is that what you were referring to when you said that it
did a great deal of good?
    Mr. Smarick. I think it did several things good, but that
is among the highest of them, yes.
    The Chairman. About the disaggregation, so we know what----
    Mr. Smarick. Exactly.
    The Chairman. I just wanted to make that clear.
    I wanted to ask both Dr. King and Dr. Holliday--one of the
issues that has come up is the issue of graduation rates. I
don't think either one of you mentioned that. But, anyway, how
are graduation rates included in both your States'
accountability system? And are they an effective measure of
success? In other words, I'm not saying they should be the sole
determinant. But is it part of the accountability system?
    The reason I ask that is we heard Secretary Duncan say that
25 percent of our kids are dropping out. So if you don't
measure graduation rates, then you're not measuring the
school's effectiveness of reaching those kids and keeping them
in school. So what's happening in your two States?
    Dr. King.
    Mr. King. We've maintained the role of graduation rates in
our overall accountability system and in identifying the
priority schools where we're focusing the most attention. We
focus on those schools that have chronically low graduation
rates, below 60 percent, and compelling those schools to think
in very different ways about how to organize school, partly
with the knowledge that in those schools where students are
dropping out, it's often because they are disengaged with
school.
    The Chairman. What's your intervention? What intervention
do you have?
    Mr. King. We are leveraging the School Improvement Grants
to insist that schools either redesign the school with a new
focus, like the technology school that I described, or
requiring them, at a minimum, to rethink how they evaluate the
performance of the adults who work in the school, so to
implement the evaluation system and ensure that their
principals and teachers are getting good feedback on whether or
not they're helping students grow.
    We have a long history in New York of having fairly strong
State authority to intervene. And we've been very clear with
our districts that if they are not able to make significant
progress in these schools, they risk that we will revoke the
registration of the school and close them.
    The Chairman. Dr. Holliday.
    Mr. Holliday. Same process. It's in our school report card,
our district report card. We're holding districts responsible
for graduation rates which moves beyond what we've done before.
Also, with the low performing priority schools that are below
60 percent, we do a very in-depth needs assessment at the State
level to determine curriculum, instruction, interventions, and
go all the way down the list. And then we provide a full-time
math coach, literacy coach, and principal coach in those
buildings, and I think you've seen some of our SIG schools
recognized for the tremendous progress that they're making.
    Now, not all are making that, because we still come up
against resistance with certain districts who won't allow the
innovation that we need. And I do have the same takeover
capability in Kentucky.
    The Chairman. I have some followup questions. My time is
out.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman. This has been very
helpful to me.
    Thanks to the four of you for coming and for your
thoughtful comments, and the Secretary was helpful, too. It's
interesting that we really skipped a generation in terms of
reauthorizing the Elementary and Secondary Education Act. This
last 5 years should have been the reauthorization period, and
we should be looking at whatever the new generation should be.
    As I think about it, I look back over the 10 years and
think, well, at least most all of us agree that the great
contribution of No Child Left Behind was the new reporting
system for children so we have a better understanding of a
great many children, their lack of progress or progress, that
we didn't before, and we all want to keep that and use that and
make sure we improve on it and understand that.
    I think the thing that's happened over the last 5 years
that's, to me, most interesting is what the States have done. I
mean, this is a culmination of 25 or 30 years of effort that's
included Common Core standards, and then curriculum, and then
working together to develop tests, and then working most
recently with accountability systems and performance standards,
and then the hardest part, which is teacher evaluation, and
trying to relate that pay to outstanding performance by
teachers, which is the hardest part of it all to me.
    The combination of events have caused States to make
enormous progress. When the waiver became available, it fit
into that opportunity, it seems to me, and that made a good
difference. I advised our Governor when he asked, ``Grab the
waiver and take it for all you can get.'' And what he was able
to do was pass a number of important changes with the State law
and get some broad flexibility from the Federal Government,
because what Secretary Duncan wanted to do was approximately
what we wanted to do, anyway, and off they've gone.
    They've got 6 or 7 years now, and going back to what Ms.
Haycock has said, the last thing we'd want to do is interrupt
the progress of those States that are making progress, because
they're on a course. All this takes a lot of time. It's like
getting a train moving, and we want to take full advantage of
it.
    I want to direct my question, really, to any of you, but
start with Dr. Holliday or Dr. King. Assuming we can
reauthorize ESEA--and we really should do that. I mean, it'll
take 2 years to get it into effect, even if we do a good job.
But how much instruction do you want from Washington now that
you've gone through your own work on standards, curriculum,
tests, and accountability systems? How specific do you want the
Federal Government to talk to you about what performance
standards should be, how to erase achievement gaps?
    Do you really want district superintendents coming up here
asking permission to create this growth system or that growth
system? Do you want specific criteria for teacher evaluation
that are as specific as are in the waivers? I have a bias about
that myself. But let me ask you about that. Let me start with
the Chief State School Officers because of the enormous amount
of work you've done in these areas.
    Mr. Holliday. Yes, sir. I believe the Chiefs Accountability
Task Force, nine principals, would be a great starting place
for reauthorization. Forty-four States signed onto that, and
the other six, I think, are in various stages with that.
    Senator Alexander. Without interrupting too much, you used
the words, concrete parameters in flexibility. I mean, the real
guts of our discussion here when we get down to it will be
between those who say we've got to have parameters set in
Washington about exactly what a teacher evaluation system is,
about what performance standards must be, about defining the
achievement gap, because we can't trust the States to do that.
My bias is to go the other way, using as evidence most of
what's happened in the last few years, especially the last 2 or
3 years.
    Mr. Holliday. I think I'm a balance between both positions.
I want to protect the children that need our protection. I want
to protect disadvantaged children. I want to ensure we have a
balanced system so that health, physical education, art, music,
and career and technical education are not put aside to focus
solely on bubble kids with math and reading. I think we've got
enough lessons learned about the unintended consequences, and
then the guiding principles that the chiefs supported, and then
the advocacy groups like Kati's who say, ``Look, we've got to
make sure we protect this.''
    But with teacher evaluation, I've got two great teachers
right behind me who serve on a State committee for developing
teacher evaluation systems. I think you've got to give a little
flexibility to States to do it with teachers rather than to
teachers.
    At the end of the day, I think moving toward a higher
standard of college- and career-readiness with comparability
and research required to show that your States' outcomes are
comparable to other States, rather than what went wrong before,
that we had no comparability with State results. But with NAPE,
you've had the gold standard that showed you that some States
had rigorous standards that were college- and career-ready, and
some States did not.
    I think those components of rigor and research and
comparability we would all want. And that's what it means by
saying, ``Here's the outcomes we want. You've got this
flexibility at the State level.''
    Senator Alexander. Mr. Chairman, my time is up. The only
thing I would say back to that is unless you're careful, you're
going to get your performance standards, your teacher
evaluation systems, your achievement gap requirements, exactly
what a growth model ought to be, all written here by somebody
instead of in the State office in Kentucky. I don't think you
want that. I don't want that in Tennessee, and that's what I'm
getting at.
    The Chairman. Thank you, Senator Alexander.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    And thank you to the panel. That was great testimony. I'm
struck, Ms. Haycock, by your comment, because there's a
venerable condition in school reform in this country where you
hire a superintendent, the superintendent is there for 2\1/2\
years, the scores go up a little bit, and somebody else hires
that superintendent to go to another district. Or you hire a
superintendent, and 2\1/2\ years later the scores are not going
up, and that superintendent moves on to a smaller district
someplace.
    Then the new person comes in in either case, and the
easiest thing for them to do is rip out all the curriculum that
the previous superintendent developed because it's a way of
announcing that they've done something. And the problem with
this is you never get or rarely get into a path of continuous
improvement, and that is very wearing on our teachers. It's
very wearing on our kids and our principals.
    I applaud the work that you have done in your States, and
I'm aware of what you're doing. I think that we are beginning
to see there and in Colorado the chance for continuous
improvement.
    I think the caution is a very important one, Mr. Chairman,
because the last thing we want to do is interrupt that. But if
there's an opportunity to build on it, then we ought to be able
to do that.
    I also can't tell you how much I look forward to working
with the Ranking Member on this reauthorization, because I
think that in the ideal world, at least from my perspective,
where we would be is we'd be saying we have a set of outcomes
that we would expect people to be able to manage toward, and
that's really what we're going to say about this. I don't think
we're all the way there yet, and I think that we've learned
that there are some elements of things that make it more likely
than not that we'll succeed.
    And having the knowledge that those things are being done,
not necessarily drafted in this town, but that those things are
being done may be an important proxy for a world where
everybody knows what is actually going to lead to student
outcomes that we want and to a world where we are actually
seeing those outcomes rather than the devastating outcomes
we're seeing for too many of our kids in this country. I look
forward to our having that conversation to see where we can
strike that balance.
    I had a question for Dr. Holliday and Dr. King. In the work
that you're doing, to think about the continuum from early
childhood through K-12, through higher ed--and we are, as well,
thinking about that--and in a world where we really are--and
the Secretary mentioned trying to drive our young people to
have, as he said, in their back pocket college credit before
they leave, which is a huge step forward for, among other
things, college completion, which needs to be a goal.
    I just wonder whether if you were writing this legislation,
thinking about the reauthorization of the Higher Education Act,
the K-12 Act, what we're doing in Head Start and ECE, are there
things, if you could wave a magic wand, that we ought to think
differently about here? Because for you, it's a continuum. For
us, it's different bureaucracies and different silos that may
or may not be leading where we want to go.
    Mr. King. Two suggestions. One is I think a lot of the
breakdown that we see in our States is between the K-12 system
and the higher education system, where the K-12 system is
pointing toward one set of assessments and outcomes, and then
higher education has a whole different set of assessments that
they use to decide whether or not students can engage in
credit-bearing course work. If there are ways to incentivize or
even compel K-12 systems and higher education to agree on what
college- and career-readiness looks like so that students can
learn that in 10th or 11th grade and get their remediation in
high school before they get to college, I think that would be a
huge value to the country and to those students.
    In New York, in our 2-year institutions, more than 50
percent of entering students are in at least one remedial
course, paying college prices for high school courses. That is
a huge problem.
    Similarly, I think that early childhood is another place
where transitions matter a lot. Building systems where every
child has access to high quality early childhood service, and
that service is evaluated against student readiness for school,
I think, is critical. We have too many early childhood
providers who are essentially doing babysitting rather than
preparing students for school.
    And too often, the schools and the early childhood
providers aren't talking to each other. So if there are ways to
both ensure States provide that high-quality early childhood
preparation but then connect it to K-12, that would be
immensely valuable as well.
    Mr. Holliday. I would agree with both of those things. And
I think our State legislation, Senate bill 1, would give you an
example of how to make higher ed and K-12 work together. The
only two pieces I would add would be related to title II
teacher preparation programs and teacher support and training
programs. If we could have good clear parameters at the
national level for teacher preparation, that might help us out.
    The Chairman. Dr. Holliday, another round here. Dr. King
mentioned in his testimony about early childhood education. I
think you may have heard me say something to Secretary Duncan
about that, also. Has the Council of Chief State School
Officers weighed in on this at all? Have you talked about early
childhood education?
    Mr. Holliday. Absolutely. We think it's a foundation of our
success, and we're worried that--like in Kentucky, we just had
to move back from 150 percent poverty level serving assistance
for childcare. We had to move back to 100 percent due to budget
cuts and Federal funding cuts and the potential of
sequestration.
    The Chairman. Have you all looked at what sequestration
might do to your schools and your States?
    Mr. Holliday. I send it out once a week.
    The Chairman. Do we have it?
    Mr. Holliday. I'm sure Senator Paul gets it quite
regularly.
    The Chairman. Do we have it? I was just asking my staff if
we have it. But I'd like to know what you're looking at and
what the effect of sequestration would be on your schools.
    Mr. Holliday. About 9 percent, and the title I schools that
have the highest poverty levels would be impacted even more.
We're looking at like over 100,000 kids losing services. We're
looking at over 3,000 educators losing their jobs.
    The Chairman. Are you talking about nationally?
    Mr. Holliday. No, sir. I'm talking about just in Kentucky.
    The Chairman. I assume the Council of Chief State School
Officers has some data for the Nation as a whole.
    Mr. Holliday. Yes.
    The Chairman. I just wanted to make sure.
    Dr. King, what would the impact be in your State of
sequestration?
    Mr. King. It's similar. And I believe CCSSO has a State-by-
State analysis of what the impact would be.
    The Chairman. I'll have to look at that.
    Ms. Haycock, I had one last thing that I wanted to ask you.
I had asked Dr. King and Dr. Holliday about the graduation
rates. I wanted to ask you about that, also. Is this a problem?
Have you looked at what we do in terms of--what certainly could
mask low graduation rates for subgroups of students?
    Ms. Haycock. Yes. As you know, Senator, there was a glitch
in the waiver process, and some States submitted graduation
rate goals and some didn't. That's now been fixed. But the
problem of some States not looking at goals by group remains.
That's something to attend to in the future.
    The Chairman. Thank you.
    Let me ask, I guess, both Dr. Holliday and Dr. King,
maybe--I understand, I get how you look at college-ready, and
then you factor it back through high school and elementary
school. I can get that. How did you do career-ready and factor
that back? Now, you mentioned one school in particular. But how
did you address that in Kentucky, because you were one of the
leaders in that?
    Mr. Holliday. Yes. Career-ready has two sides to it,
actually three, but we can only measure two right now. One is
the academic skills that they need, and the academic skills
they might need in some careers is the same as college. But in
some careers, they're very different. They're more technical
reading, technical math, technical writing.
    So we have academic measures that we added for career-
ready. We added WorkKeys, we added armed services vocational
aptitude battery at the 50th percentile, working with the
Pentagon to set that. But then we also require the technical
skills, industry certifications that are nationally recognized.
I know New York, Georgia, and a lot of States are doing this
similar work for career-ready.
    Serving on the National Assessment Governing Board, I can
tell you that 12th grade NAPE can probably correlate very
strongly the proficiency cut score with college-ready. But we
can't make that same statement about career-ready, because it's
much deeper, much more nuance, and requires kids to be course
completers in these courses, like a STEM course area or
aviation or aeronautics.
    The Chairman. When you developed your State plan, you must
have sat down with a lot of different stakeholders. And I
assume for career-ready, you sat down with what, the business
community? I mean, who--community colleges? How did you do
that?
    Mr. Holliday. All of those. The Association of
Manufacturing was a big push for this, and the State Chamber
were great partners in developing this.
    The Chairman. How about you, Dr. King? What did you do in
New York?
    Mr. King. Very similar. One of the things that we tried to
build into our waiver was in the schools that we call our
reward schools, the schools whose success or progress we're
recognizing, building in recognition for successful enrollment
of students in career and technical education where they leave
with an industry certification as well as their high school
diploma. And when we build our State-approved career and
technical education programs, we require a partnership with the
business community and we also require a partnership with a
higher education institution so that students have the
opportunity to articulate into those programs.
    The Chairman. When you say higher education, are you
including community colleges in that?
    Mr. King. Exactly right.
    The Chairman. Because my own view on this is that not every
kid that goes through high school needs to or perhaps is best
suited to go to some 4-year liberal arts school. But they can
do other things, and community colleges, to a good extent, are
there for them for that type of technical degree. But,
obviously, they need to be brought up to that standard before
they graduate from high school.
    Mr. King. That's right. And part of what we try to convey
is that for our students who are in career and technical
education programs, what they need is to begin to be exposed to
those community college level courses. In our State, most
students who are completing that career and technical education
credential are also leaving with multiple college credits,
which they might apply to a 2-year degree or they might just
apply to demonstrate to an employer that they've gotten the
right training.
    One thing we see is that our high-poverty, high-need
students tend to perform at higher levels when they're enrolled
in those career and technical education programs than
demographically similar students who don't have access to those
programs.
    The Chairman. In closing, I'd just be interested in any
recommendations, again, that you would have to this committee,
even if we should address it or if we should address it in
ESEA, on how we would address--I get the college-ready and
career-ready. How should we address that, if we should address
it?
    Mr. King. Absolutely. That school that I mentioned, P-
Tech--one thing that they did with IBM was actually work with
IBM engineers to map the skills that students need to succeed
when they become engineers at IBM. And they're actually using
that to inform their high school curriculum. I think we need to
do a lot more of that, trying to map backward--what does a high
school student need to know in order to go on to success in a
career?
    The Chairman. I don't mean to beat this around any longer.
But, yes, we think about careers in the computer field, the
computer-aided designs, all the new things that we have to
learn. But have you tried to get a plumber lately on a
weekend--and how much it costs? I mean, I can't believe--there
are jobs out there that require some technical ability,
obviously, sure. But they don't require that high level of
expertise that you might expect going to work for an IBM, for
example.
    Mr. Smarick. Senator, could I add one thing to that?
    The Chairman. Go ahead.
    Mr. Smarick. In New Jersey, we had a career-ready task
force to look into some of these very issues. And two of the
things that came out of that that were most surprising for me
are the enormous rates of remediation at the community college
level, even among some of the districts that are the highest
performing, that we didn't expect to see.
    And the second is their views on what end-of-course and
end-of-year assessments ought to look like in high school,
different than what might be intuitive to some people working
in high schools or the K-8 atmosphere. It was an initiative
that was even more important after we did it than we thought
leading into it.
    The Chairman. The remediation rates are unconscionably
high. Thank you very much.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman, for the
college- and career-ready. It sounds like we're getting some
distinction between career-ready and college-ready. In some of
the testimony 2 or 3 years ago, I was trying to press
witnesses--are they the same, everybody going to college?
That's obviously not true. Everyone is not going to college, at
least immediately, and there's some difference between a career
path and a college path.
    So it will be helpful to us to have your experience with
that so that we don't write anything into a reauthorized law
that interferes with the ability of States to experiment with
that and take it where it needs to go. I know in Tennessee, the
Governor is moving his attention from K through 12, where he
spent a lot of time in the last 2 years, to higher education,
and he's finding that one of the biggest needs is to create
opportunities to train workers for very good automotive jobs
that have come to our State. They have plenty of those jobs
available and not enough workers available who are trained.
    That's obviously a career path that we need to focus on.
It's not the same as a college path. It may be that both
require a very good comprehensive result in high school. It
probably does mean that. So that will be very helpful.
    Dr. King, let me ask you a little bit about teacher
evaluation. One of the things we've got to decide in the
reauthorization is how intrusive to be in the Federal law or
Federal regulations about teacher evaluation. I've got my own
strong biases based on about 30 years of being battered by it.
    Tennessee started in 1984 with the first program to pay
teachers more for teaching well. And it was sort of the Model
T, but from all the work that was done there, including
starting to relate student achievement to teacher performance
and then that to pay scales, has come the work that's been done
and the ability of the State to receive Race to the Top money
and to move ahead, as Secretary Duncan said, in making some
real progress with teacher evaluation.
    But it's really hard to do, I mean, even with 30 years of
experience. Everybody says, ``Well, it's easy to tell good
teachers from bad teachers.'' Well, you know, everybody knows a
good teacher when you see one. But if you want to set up a
system that's fair to teachers, it's really hard to do.
    My strong bias is that it's so hard to do and takes so much
buy-in from local communities, teachers, and that there's so
many different ways to do it that we need to be very careful
here about defining concrete parameters, to pick up a word,
about exactly what we mean by teacher and principal evaluation.
We want to create an environment to encourage it and we want to
make progress toward that. I believe it's the holy grail of
education.
    So I go from being a Governor who was probably the leading
advocate at the time for relating teacher pay to teacher
performance to being a very big skeptic here about how much we
can actually do here in the law or in the department where
people are tempted to put their fingers on everything and say,
you know, ``We think you ought to do it this way or that way.''
    Now, you're in the middle of trying to deal with a new
teacher evaluation system in New York, and you've had some
problems with it. The mayor of New York City, as I understand
it, doesn't think too much of it. You're going through what
people always go through.
    What would your advice be to us about how we can do the
best job of creating an environment in which you're more likely
to succeed in helping New York develop a system of teacher and
principal evaluation that relates performance to student
achievement?
    Mr. King. Well, I think you're right. It is a challenging
thing to implement. It requires significant culture change in
schools and districts to do evaluation well. I think it would
be helpful in a potential reauthorization to set a few clear
bright-line parameters and then to give States flexibility to
adapt those parameters to their context.
    In terms of what those bright-line parameters should be, I
think one has to be the inclusion of student performance. I
think the general public assumes that all evaluation systems
would take into consideration whether or not students are
learning. But we know that that has often not been the case. So
inclusion of student performance, I think, should be an
absolute minimum.
    The evaluation system playing a role in decisionmaking
about employment, whether it's about tenure decisions or
promotion decisions or salary decisions, in some form, I think,
is critical so that the evaluation system is not just a
compliance exercise but has meaningful consequences.
    I think another bright-line parameter is real transparency
about the data. One thing that we're seeing even in our initial
implementation is that teacher talent is inequitably
distributed. And there are schools that consistently have the
weakest teachers, and the result is that it has an impact on
the student performance, not surprisingly. So just as data
transparency was critical to, I think, the contribution of No
Child Left Behind for student accountability and accountability
for schools for delivering for students, we need transparency
around the data on teacher and principal evaluation.
    The final point is to make sure that States align their
professional development work with those evaluations. For the
evaluation system to be meaningful, it has to translate into
feedback that helps people get better. So whether it's title
II-A spending or the investments we're making in teacher and
principal preparation, those should be aligned to the
evaluation systems that States are implementing.
    Senator Alexander. Well, just to be the devil's advocate,
you're a great big State. Why can't you do that yourself? Why
do you need Senator Harkin and me to tell you to do it? We only
give you 10 percent of your money.
    Mr. King. Two reasons. One is I think that the teacher and
principal standards need the benefit of a national priority on
linking evaluation to student performance. It should be clear
to everyone that if you enter the profession of teaching----
    Senator Alexander. Well, isn't it clear to you? I mean, why
do I have to come from the mountains of Tennessee to tell New
York that that's good for you? Why can't you decide that for
yourself?
    Mr. King. I think it's more that Congress is saying that's
good for the country for all teachers and principals.
    Senator Alexander. Well, why is Congress smarter than you
are? You're the education commissioner for the State of New
York. You're supposed to know what's going on.
    Mr. King. I think we're doing a good job in New York.
    Senator Alexander. Well, then, why don't you do it?
    Mr. King. And we are.
    Senator Alexander. Why do you need us to tell you?
    Mr. King. Again, I think it's about saying as a country
that we believe that teacher and principal performance matters.
    Senator Alexander. But as a country, you've just gone
through a whole series of exercises where States have together
created common standards, common curriculum. They've created
accountability systems. They've created tests. They've done a
pretty good job of that. And it's just mystifying to me why
anybody thinks that--national, to me, doesn't mean Federal.
National, to me, means States working together. That's just my
own view.
    And I think we're more likely to get where we want to go if
we have this explosion of creativity from communities and
States, a lot of which I've seen in the last 10 years. And I
fear that we'll get in your way, because we'll define it a
little bit, and then they'll send it over to the department,
and an enthusiastic person will define it a little bit more,
and then you'll come back and complain to us about that, and
I'll say, ``Well, you asked for it.''
    Mr. King. I share your concern. I think, probably, where we
disagree is maybe what's the right floor, and I think the role
of the reauthorization is to set the right floor. Just as it's
important to set the right floor around accountability for the
performance of subgroups, students with disabilities, English
language learners, ET cetera, I think it's important to set the
right floor around teacher and principal evaluation and ensure
that States really do hold the adults accountable in schools
for student outcomes.
    Mr. Smarick. We actually went through an example in New
Jersey that exactly agrees with the point that you're making.
We were dealing with a pilot of a teacher evaluation that was
completely driven by our State, and at the same time, the State
legislature was trying to create a new tenure law that would
deal with teacher evaluation.
    We had a lot of balls up in the air at the exact same time,
trying to get our teachers on board, trying to have an
evaluation done on our pilot program, at the same time we're
negotiating with the State legislature on the law. And then the
waiver provisions came in and set a new set of timelines. It
was a new set of complications.
    And we, internally, in the department, were trying to
navigate all of this, saying people in Washington, DC, don't
fully appreciate all of the things that we're trying to deal
with here in our State. We're trying to get this done. We're
aligned on the mission. But people in Washington, DC, just
can't have an appreciation for all the conditions that we're
dealing with here.
    I mean, someone might have the best of intentions at the
Department of Education about a timeline being 2013, 2014,
implementation of X or Y. But that might not necessarily hue
with what's best in the State.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Any last things from anyone here on observations or
anything like that?
    Well, thank you all very much. This has been a great panel,
and you've given us a lot to think about. And I've asked you to
give us some other information in terms of that career-ready
and how we deal with that.
    The Chairman. I'll just say in closing that we have gained
valuable information from all of you. I think the Federal role,
from my viewpoint, in education is to ensure that our Nation's
most vulnerable children are not forgotten. Nearly half a
century after the original passage of the Elementary and
Secondary Education Act, these children remain our charge.
    I look forward to working together to ensure our Federal
efforts and investments are met with willing partners in the
States and local districts to meet our common goal of high
quality education for all students from all sectors of society,
including rural. Again, I thank our witnesses, I thank Ranking
Member Alexander, and I request that the record remain open for
10 days for members to submit statements and additional
questions to the record.
    The committee will stand adjourned. Thank you very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Baldwin

    Thank you, Chairman Harkin and Ranking Member Alexander. I
want to add my own thanks to you, Secretary Duncan, for being
here with us today. As a new member of this committee, I want
you all to know how eager I am to work on education issues and
bring the voices of Wisconsin educators, students, parents, and
administrators to our important work here in Washington, DC.
    I believe that every child deserves a high quality, free, K
through 12 education. Similar to my views on health care, I
believe a quality education is the basic right of every
American. Luckily, I represent a State where providing our
children a strong foundation to succeed is a value we all
share.
    I realize that actually doing this important work is a
little more complicated. No matter how dedicated our teachers
are, a high quality education demands we address issues like
poverty, racial isolation, access to early childhood education,
health care, the availability and stability of high quality
teachers, before and after school programs, wrap-around
services--the list goes on. Educating our children is
challenging work, but one of the most important efforts we are
undertaking to compete and win in the global economy.
    Because it's such a high priority, I do believe very
strongly that waivers are not an adequate long-term strategy
and comprehensive reform of No Child Left Behind is necessary.
Chairman Harkin and Ranking Member Alexander--I look forward to
working with you both in the coming months on this undertaking.
    I am heartened to hear about your progress with the waiver
program, Secretary Duncan, and look forward to learning more
about the flexibility effort and how it has progressed in
Wisconsin.
    As you know, we were granted a waiver in July 2012 and just
finished our Stage One review. From what I've heard from
education stakeholders in my State, the implementation of the
waivers is going as well as could be expected--but people are
nervous.
    My sense is that there's a deep desire for honest-to-
goodness reforms and an openness at all levels to try to
understand the new requirements and move quickly.
    I do think Wisconsin educators are worried that the changes
they are making now may not be sustained in the long term--and
long term, sustainable change is what will really make a
difference in the lives of our students.
    Mr. Chairman, I'd like to submit this letter sent to me by
Wisconsin ASCD's for the record. Secretary Duncan, I'd like to
ask my staff to provide yours with a copy, as well, so you can
hear at least some of the feedback we've received from
Wisconsin education stakeholders on the waiver process so far.
It's my hope that we can continue this conversation moving
forward.
    Thank you.

                                    Wisconsin ASCD,
                                     Thiensville, WI 53092,
                                                  February 6, 2013.
Hon. Tammy Baldwin,
U.S. Senate,
Washington, DC 20510.

Re: Committee on Health, Education, Labor, and Pensions Hearing on
        Thursday, February 7 to examine the Early Lessons of State
        Flexibility Waivers

    Dear Senator Baldwin: As we discussed last week when we met with
you, the waiver plans are not adequate substitutes for ESEA
reauthorization, which is 5 years overdue. Although they provide some
relief from NCLB's onerous accountability requirements, the waivers
have created a patchwork system of temporary fixes and do not provide
the stability and continuity that our education system needs. This
process is not the preferred way to set Federal education policy.
    As the cornerstone of Federal K-12 education policy, ESEA needs to
be reauthorized by Congress this year to provide the stability and
long-term vision our education system needs. The offer of waivers from
the challenging NCLB requirements was a welcome relief, but this new
set of Federal requirements presents its own implementation challenges,
including strain on staff capacity and resources. The requirements to
develop educator evaluation and school improvement systems fail to
recognize the unique circumstances or existing and needed support
structures of each school and district.
    From Laurie Asher, Superintendent, School District of Laona: While
the waiver for Wisconsin is a work in progress and has some good things
like multiple measures, it also is very weak in the data for high
school and cannot be used either for school improvement or
understanding how well a school is doing. For my school district, which
is very small, we only got one score out of the four--attendance. We
did not have enough students to rate in the ACT or gap areas. This may
have made our score lower and shed a negative light on our district.
The other concern about the waiver is that we will put our financial
and personnel resources both at the State and district level into using
this data and meeting these goals. When NCLB is reauthorized, if it has
other guidelines, we will have to change our practices yet again,
creating more confusion and negative feelings due to the lack of
consistent legislation.
    Waiver requirements are another set of considerations educators
must deal with as they work to implement any number of Federal and
State initiatives, some of which are duplicative, overlap, compete with
each other, or are out-of-sequence. These initiatives include Race to
the Top, Common Core State Standards implementation, and the work of
two different assessment consortia. From Fran Finco, Superintendent,
School District of Onalaska: The number of waivers and the timeframe in
which we are expected to have those in place is near impossible.
    Many of these reforms have required State and local policy changes,
but great uncertainty remains regarding the temporary nature of the
waivers (lasting only 2 years) and the effect of ESEA reauthorization
occurring over this same period.
    From Holly Rottier, Assistant Superintendent, Kimberly Area School
District: One of the areas of concern in the Wisconsin waiver is in
regard to Teacher Effectiveness. The waiver requires that States
implement a system that raises accountability for teachers. Wisconsin
created a system that requires a consistent evaluation of teacher
practice (50 percent) and use of test scores (50 percent). In creating
this system, two broad concerns have arisen:

    1. Erosion of high quality teacher evaluation: The nature of the
systems developed to ascertain teacher effectiveness have caused more
time to be used in cataloguing data instead of having the crucial post-
observation coaching that we know makes a significant difference in a
teacher's practice.
    2. Inadequate availability of assessment data: In the haste of
creating a system to hold teachers accountable, current assessment
practices were not adequately considered. The high-quality assessment
data we have for teachers to write Student Learning Objectives is most
often focused around individual classroom units and benchmarks. This
will provide microscopic data for accountability, but will do little to
raise the level of classroom achievement.

    Overall, the concern is that the system will take valuable time
away from excellent teaching and evaluation practices. In my opinion,
the solution would be to provide a framework of accountability so that
districts can submit their own systems for approval (if they meet the
criteria of the framework). This way they can remain accountable at a
State level, yet focus on local needs and priorities in teacher
evaluation and student learning. For those districts that are doing
well, the current system stands to damage good practices instead of
enhance them.
    We urge you to continue to work with your colleagues in a
bipartisan manner to complete ESEA reauthorization in 2013 so that
schools, districts, and States can move ahead with planning for the
coming school years without the uncertainty of a patchwork system of
ESEA fixes and temporary waivers.
    Thank you for your attention to this important education issue.
Wisconsin ASCD is a non-partisan, non-union professional membership
organization focused on teaching and learning. Our 700 members from
around the State represent all levels and job roles in education.
                                            Denise Pheifer,
                                Executive Director, Wisconsin ASCD.
                                 ______

  Response to Questions of Senator Murray, Senator Hatch, and Senator
                        Murkowski by Arne Duncan
            U.S. Department of Education, Office of
             Legislation and Congressional Affairs,
                                 Washington, DC 20202-3100,
                                                      June 7, 2013.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.
    Dear Chairman Harkin: Thank you for your committee's followup
questions from the February 7, 2013, hearing entitled ``No Child Left
Behind: Early Lessons from State Flexibility Waivers.'' Please see the
enclosed document for responses to questions that members of the
committee submitted.
    If you have any issues or questions about our responses, please
contact me at (202) 401-0020.
            Sincerely,
                      Gabriella Gomez, Assistant Secretary,
                   Office of Legislation and Congressional Affairs.
                                 ______

                             senator murray
    Question 1. All students need to graduate from high school college-
and career-ready in order to be competitive in today's workforce.
Therefore, accountability for graduation rates must be a substantial
factor within State accountability systems. I am concerned that many
States that have received waivers are not placing enough weight within
their accountability systems on high school graduation.
    Under the waivers, 12 of the approved States have created an
accountability index in which the adjusted cohort graduation rate
accounts for less than one quarter of the overall index. The end result
is that a school's low graduation rate could either persist or make
minimal progress and the school could still demonstrate improvement
under the accountability framework.
    In addition to a lack of meaningful emphasis on the overall
graduation rate, this same, alarming trend also applies to low subgroup
graduation rates. Eleven of the approved States have weak or no
subgroup graduation rate accountability. Furthermore, two of these
States limit the number of subgroups for which schools are held
accountable. In these 11 states, a low subgroup graduation rate would
fail to trigger intervention on its own.
    In light of these concerns, what does the Department plan to do to
ensure that schools are held accountable for increasing the graduation
rates for all students?
    Answer 1. I share your determination to help all students graduate
from high school college- and career-ready. Preparing students to
graduate from high school ready for college is the key to reaching the
President's goal of the United States once again leading the world in
college completion by 2020. Under ESEA flexibility, not only are States
required to continue to comply with the 2008 graduation rate
regulation, they are implementing greater accountability for graduation
rates, and sooner, than under NCLB.
    For example, under ESEA flexibility, States must identify all title
I high schools with graduation rates below 60 percent over a number of
years as priority or focus schools--these are the so-called ``dropout
factories'' that account for about half of all dropouts in the country.
And they must implement rigorous, targeted interventions in all of
those schools to address and correct the factors contributing to low
graduation rates. For example, in Oregon, specific interventions
include early warning systems to identify students at risk of dropping
out and greater personalization of learning for students through
smaller learning communities or Ninth Grade Academies.
    Under NCLB, schools that did not make AYP as a result of low
graduation rates could go for 5 years without being required to
implement rigorous interventions, and even then, there was no
requirement that the interventions be targeted to address the root
causes of the low graduation rates. States that have received ESEA
flexibility, on the other hand, will use graduation rate targets,
including for subgroups, to drive incentives and supports in all title
I schools that are not priority or focus schools. And unlike the one-
size-fits-all interventions of NCLB, these supports will specifically
address the root causes of low graduation rates.
    We already are seeing a new emphasis on high school graduation in
States and districts across the country. In fact, a number of States
increased their graduation rate goal under ESEA flexibility, and none
decreased it. I look forward to working with you to continue to reduce
the dropout rate and increase graduation rates for schools and
districts across the Nation.

    Question 2. Will the Department be requiring amendments regarding
State approaches to graduation rate accountability either now or upon
renewal of the waivers?
    Answer 2. Last November, the Department issued a letter to States
on the uniform reporting of graduation rates, including State-by-State
4-year adjusted cohort graduation rates. That letter is available at
http://www2.ed.gov/policy/elsec/guid/secletter/121126.html. We also
made available to States and posted on our Web site at http://
www2.ed.gov/policy/elsec/guid/esea-flexibility/gradrate/index.html a
document highlighting some of the various ways States have emphasized
graduation rate and related college- and career-ready indicators in
their approved ESEA flexibility requests.
    This is an example of our effort to establish an unprecedented,
Department-wide system of monitoring, support, and technical assistance
for States to help them increase their capacity to support districts
and schools in implementing key reforms that will lead to improved
student outcomes, including how graduation rate data can be effectively
used to improve interventions. We will provide States with support that
is directly relevant to their plan and needs. To support States in
increasing their capacity to improve student outcomes, the Department
will shift its monitoring process from a focus on compliance to one
focused on outcomes and results.
    Monitoring of States that have received ESEA flexibility is taking
place throughout the school year and will include an assessment of the
effectiveness of State implementation and the State-level systems that
support implementation. This will assure that States are maximizing the
impact of their plans for reform to improve educational outcomes for
all students, including a focus on improving graduation rates. The
information from monitoring, as well as requests from States, will be
used to inform delivery of technical assistance.
    The Department encourages each State approved for ESEA flexibility
to continuously evaluate the effectiveness of its plan to improve
outcomes for students. As a result, a State may want or need to amend
its approved request, to ensure that it is meeting the goals of
flexibility. We have developed a process for States that want to submit
amendments, and have posted guidance on our Web site, which you can
find at http://www2.ed.gov/policy/elsec/guid/esea-flexibility/
index.html. During that process, we will maintain the same high bar we
set during the approval process. So, amendments must meet the same
principles as the original, approved request. And, we are posting all
approved amendments on our Web site.
    Finally, while State plans are for 3 years, the initial waiver
period is only 2 years. In addition to ongoing monitoring and technical
assistance, the Department plans, by early 2014, to assess State
progress. Where flexibility is supporting improved instruction and
student achievement, we will approve States for an extension.

    Question 3. The Department's flexibility policy includes a very
important provision to support improvement among the Nation's lowest
performing high schools. Specifically, I applaud the Department's
policy of requiring that high schools with a graduation rate below 60
percent be classified as priority or focus schools. I am concerned,
however, that this requirement only applies to high schools that
receive title I funding, and at the discretion of States, the policy
may be applied to high schools that are eligible for, but do not
receive, title I.
    A number of approved waivers include promising plans for school
improvement. Unfortunately, a significant number of low-performing high
schools may never benefit from these reform efforts because the
requirement for reform is tied to a high school's title I status. High
schools serve approximately 25 percent of students yet receive only 10
percent of title I funding. In addition, nearly 1,300 high schools with
poverty rates at or above 50 percent are not classified as eligible for
title I. The current mechanisms for measuring poverty are particularly
inaccurate at the high school level. At least two States that have
received waivers have attempted to address this issue. In New York, any
high school, regardless of title I status, may be identified for
intervention due to a low graduation rate. In Kentucky, the definition
of ``persistently low achieving school'' includes low performing high
schools with a poverty rate of at least 35 percent instead of linking
``persistently low achieving'' status solely to title I status.
    By tying improvement requirements and support to title I status,
many high schools may be overlooked twice by Federal education policy.
First, high schools are less likely to receive title I funding than
middle or elementary schools. Second, they are less likely to receive
support for improvement because they do not receive title I.
    What can the Department do to ensure that title I status does not
serve as a barrier to low-performing high schools receiving much-needed
intervention and support?
    Answer 3. Under ESEA flexibility, many States developed systems of
recognition, accountability and support that apply to all schools. Part
of ESEA flexibility includes identifying all title 1-participating high
schools with graduation rates below 60 percent over a number of years
as priority or focus schools, and States can also identify such high
schools that are title I-eligible as priority schools. Ten States
expanded the definition of priority and focus schools to include all
schools meeting the criteria for priority and focus school designation,
regardless of title I status. Nineteen States also identified more than
the required 5 and 10 percent of schools, respectively, as priority and
focus schools.

    Question 4. In your testimony you credit the No Child Left Behind
Act for holding schools and States accountable for 100 percent of
students. Given the ability for States to receive relief from several
provisions of the No Child Left Behind Act including the accountability
system and the waivers allow for States to aggregate sub-groups into
what is commonly referred to as ``super sub-groups.'' Does the
Department have a plan to ensure States do not water-down
accountability by developing or reporting on ``super sub-groups?''
Please describe the plan.
    Answer 4. The way in which we allowed States to use combined
subgroups actually brightens the spotlight on subgroup achievement.
States must continue to publicly report the achievement and graduation
rates of each ESEA subgroup, separately. But, by combining subgroups,
thousands more schools now are specifically accountable for the
students in those subgroups than would have been before due to small
sizes of subgroups at some schools. For example, a school with a small
English Learner subgroup and a small students with disabilities
subgroup was not held accountable for the performance of either of
those subgroups under NCLB. By combining those subgroups, the State can
ensure that more schools are held accountable for the success of all
students. But we also didn't 't allow any State to use a combined
subgroup without demonstrating how the State had protections in place
to ensure that the use of a combined subgroup would not mask any
particular subgroup's failure to meet performance targets.

    Question 5. From looking at several of the waiver applications, it
looks like States will have the flexibility to implement their own
accountability system. This is a significant departure from the
national accountability system under the No Child Left Behind Act. To
meet accountability requirements under No Child Left Behind, several
States lowered their standards or cut scores to allow enough students
to pass the tests.
    What actions has your Department taken to ensure high standards?
    Answer 5. We have the same expectations for all students,
regardless of background--that they graduate ready for college and a
career. ESEA flexibility isn't about lower standards and expectations--
it's about higher standards and expectations for all students and it's
about making sure that those groups of students farther behind make
more progress. In fact, NCLB's standards and expectations weren't high
enough--the standard was ``proficiency, `` not college- and career-
readiness. And as you note, some States chose to lower their standards
and lowered the bar for accountability.
    ESEA flexibility raised the bar to ensure that all States expect
students to meet high academic Standards that will prepare them for
success in college and career. We heard from States that wanted to
raise standards but felt constrained by the rigidity of No Child Left
Behind's 2014 timeline for 100 percent proficiency. Through ESEA
flexibility, we offered States waivers of certain provisions of law in
exchange for the adoption of more rigorous standards. Every State that
received a waiver has adopted college- and career-ready standards and
provided the Department with a detailed plan for implementation of
those standards.
    In addition, States and districts wanted to create more nuanced and
targeted accountability systems, but were constrained by NCLB 's
inflexible school identification and intervention requirements. Under
ESEA flexibility, States received waivers of some of NCLB's
accountability requirements, on the condition that States develop
systems that would target resources to the lowest achieving schools and
those with the greatest achievement gaps, but also ensure that, in all
other title I schools, achievement and graduation rate data, including
for subgroups, be used to drive the supports and interventions
necessary to improve outcomes for those students.
                             senator hatch
    Question 1. How does the Department of Education plan to transition
State flexibility agreements if Congress reauthorizes ESEA with
significantly different requirements?
    Answer 1. The hard work of States is informing our reform efforts
at the Department. I hope that work also will inform your efforts as
the committee works on reauthorization. We remain committed to working
with the committee on a strong, bipartisan reauthorization, including
on how best to transition from ESEA flexibility when such
reauthorization occurs.

    Question 2. How will the Department of Education work with ESEA
Flexibility Waiver-approved States to renew or extend flexibility
authority if Congress does not reauthorize ESEA in the coming months?
    Answer 2. The initial period for ESEA flexibility for most States
with approved requests is through the end of the 2013-14 school year.
We hope that Congress is able to pass a strong, bipartisan
reauthorization bill, but if that does not happen by the end of the
initial period of ESEA flexibility, the Department may extend that
flexibility. Requests for an extension of ESEA flexibility would
present an opportunity to assess what is working best and what needs
improvement in States' flexibility plans. We would measure a State's
progress against its plan and review what we've learned through
monitoring as part of that decision.

    Question 3. On which principles of the ESEA Flexibility Waiver do
you think there would be consensus between both the Department of
Education and the States as the most valuable in the reauthorization of
ESEA?
    Answer 3. Through ESEA flexibility, we have worked closely with
States to create a new Federal-State partnership to empower States and
school districts to design State and local reforms to improve academic
achievement and increase the quality of instruction for all students.
As a result, States are able to tailor their approach to meeting a high
bar of excellence and better target their efforts to meet the
individual needs of each school, teacher, and student to increase
educational outcomes for all students.

    Question 4. How does the Department of Education plan to change its
monitoring procedures to focus more on student achievement and less on
traditional compliance processes?
    Answer 4. At the Department, we are establishing a Department-wide
system of monitoring, support, and technical assistance for States to
help them increase their capacity to support districts and schools in
implementing key reforms that will lead to improved student outcomes.
We will provide each State with support that is directly relevant to
its plan and needs.
    This process builds on the working relationships that we have
developed with States during the flexibility approval process. To
support States in increasing their capacity to improve student
outcomes, the Department will shift its monitoring process from a focus
on compliance to one focused on outcomes and results. Monitoring of
States that have received ESEA flexibility is taking place throughout
the school year and will include an assessment of the effectiveness of
State implementation and the State-level systems that support
implementation. This will assure that States are maximizing the impact
of their plans for reform to improve educational outcomes for all
students, including a focus on improving graduation rates. The
information from monitoring, as well as requests from States, will be
used to inform delivery of technical assistance.

    Question 5. If Congress reduces Federal funding to States, how does
the Department plan to provide additional flexibility to minimize the
disruption of services that enhance student achievement?
    Answer 5. Reducing funding for key ESEA programs, whether through a
sequester or as part of the regular annual appropriations process, will
only make this important work harder.
    In particular, sequestration would cut title I and would hinder
State and local efforts to transition to college- and career-ready
standards and implement efforts to get effective and highly effective
teachers and principals to the students that need them most. At the
same time, I am confident that all of the approved States will continue
to be able to fully implement their flexibility plans now that
sequestration is underway.
    In general, States approved for ESEA flexibility are better
positioned than other States to effectively manage available resources
when budgets are tight, impart because they already are moving away
from the inefficient dual Federal/State accountability systems that
arose under current law.
                           senator murkowski
    Question 1. Mr. Secretary, I am aware that Alaska applied for a
waiver in September 2012 and is hoping for some final decision from
your department soon. In fact, they were scheduled to have a conference
call yesterday. Can you tell me if Alaska's application has been
approved, and if not, what the timeline might be for a final decision?
    Answer 1. Alaska's request was approved on May 20, 2013.

    Question 2. The Alaska Department of Education has told me that in
their many discussions with your staff, and I quote,

          ``The waiver process has involved exchanges of ideas from the
        SEA and the U.S. Department of Education, however in many cases
        it appears very clear what the Department will approve and the
        negotiation process is mostly about bringing a State to apply
        for what is allowed. While there are parts of the Alaska
        application that are unique to Alaska, the waiver process
        itself is designed to implement those elements that have been
        advocated by the current administration of USED.''

    Can you tell me, based on this input, how the waiver process is not
merely replacing one set of one-size-fits-all Federal requirements with
another?
    Answer 2. The law requires that waivers improve the quality of
instruction and increase student achievement. From my experience in
Chicago and my conversations with State and local leaders, principals
and teachers, and parents and students around the country, I firmly
believe that to meet that standard, a State needs to commit to ensuring
that all students graduate from high school prepared for college and
career, that schools are held accountable for the performance of all
students and all subgroups, and that there is an effective teacher in
every classroom and an effective principal in every school.
    So far, 37 States and the District of Columbia have put forward
innovative, forward-thinking reforms that meet that high bar. But, as
evidenced by the approved requests, those States have met the bar in
very different ways. Each State that has received flexibility under the
law has done so by tailoring its proposal to its unique needs and those
of its districts, schools, teachers, and students.

    Question 3. You and I have spoken during previous hearings about
the four turnaround models that the Administration has proposed--and
through which this waiver process is mandating--for school improvement.
You have noted that you spent a short time in Hooper Bay, a community
with challenges that is many air miles from any other community. I have
noted the challenges of finding effective principals and teachers to
live and work in challenging, isolated communities and the lack of
other alternatives like charter management companies or closing the
only school within hundreds of air miles. What, in your view, is the
solution when none of the four turnaround models will work in such a
community?
    Answer 3. Before 2009, efforts under NCLB focused predominantly
around tinkering around the edges, and chronically low-performing
schools could avoid rigorous interventions to dramatically change how
students in poor performing schools are being served. We believe that
this Administration's efforts under the School Improvement Grants (SIG)
program give districts and communities the support they need to put the
conditions in place for their struggling schools to succeed, and to
tailor the models to their needs. We created an online School
Turnaround Learning Community Rural Schools Group that helps support
this work and allows rural schools to share ideas, successes, and
challenges with their peers. According to data recently released by the
Department, SIG schools in small towns and rural areas showed
achievement gains in the first year of the program similar to those of
urban and suburban schools. But, we don't claim that the program is
perfect, and as we continue to implement SIG, we want to hear from
policymakers and educators at all levels about how we can improve the
program.
    Additionally, under ESEA flexibility, States are required to
identify 5 percent of the lowest performing schools as priority schools
for turnaround. These schools can implement one of the four SIG models
to meet this requirement or the schools can implement interventions
aligned with ESEA flexibility's ``turnaround principles'' which provide
schools with more flexibility in designing rigorous interventions that
meet the needs of the school and community.

    Question 4. Mr. Secretary, some have criticized No Child Left
Behind because it allowed States to adopt their own standards, saying
that has resulted in a patchwork of standards across the Nation--some
States with high standards and some with low ones. With the 27 waivers
now approved, and possibly more to come, has that resulted in a
patchwork of accountability standards across the Nation? If so, how is
that helpful to parents, such as military parents, who may move from
State-to-State and need to determine whether the schools will serve
their students well?
    Answer 4. ESEA flexibility is providing parents with more
meaningful information about their children's schools. NCLB 's ``yes/
no, one-size-fits-all'' system may have seemed easy to understand, but
it wasn't giving parents accurate information and it wasn't helping
principals and teachers to improve their schools. Under ESEA
flexibility, States and districts must still include all the same
performance data on easily understandable report cards and States must
publicly identify their lowest performing schools and schools with
large achievement gaps or low subgroup performance. The difference is
that parents now have a more accurate picture of their school's
performance that is based on more than just test scores and the
knowledge that interventions taking place in the school are targeted to
the needs of their students.
    Transparency has been, and continues to be, a focus of flexibility.
We required States to consult with stakeholders, including parents, in
the development of their flexibility requests, and they are continuing
to do that, to make sure parents and community members understand the
new systems. We want to make sure not only that parents can understand
the information that States and districts are providing, but we also
want to make sure--and this is the difference under ESEA flexibility--
that information is actually giving parents an accurate picture of
their school's performance.
    The adoption by States across the country of college- and career-
ready standards and the transition to those standards is especially
valuable to military families as they move from State to State. These
families can now expect their children to benefit from consistently
high standards no matter where their school is located.

    Question 5. These waivers have required States to identify the very
high achieving schools, the 10 percent of schools with big achievement
gaps or low graduation rates, and the 5 percent of schools that are
really struggling. What about the middle of the pack school that may be
struggling to educate one subgroup in a State that has lumped all the
subgroups together into one super group? Or the school that is just
doing a middle of the road job of preparing students for their future?
Do you worry about the children who attend those schools that will
never receive district or State intervention to improve?
    Answer 5. We have maintained a very strong focus on subgroups of
disadvantaged students. For everything we do at the Department,
including ESEA flexibility, our touchstone is better outcomes and
college- and career-readiness for all students. Every State developed
an accountability system that sets ambitious but achievable performance
targets for all students and all subgroups and reports progress against
those targets in all schools.
    States identified their lowest performing schools and their schools
with the largest achievement gaps as priority and focus schools for
rigorous, targeted interventions. By asking States to focus the most
attention on these schools, we are encouraging States and districts to
provide more time, resources, and attention to the schools that need it
the most. These schools disproportionately serve the subgroups we are
all concerned about: students with disabilities, low-income students,
minority students, and English learners.
    But we also required every State to look at how subgroups are
performing in all of their title I schools and to consider student
academic performance, graduation rates, and other data to drive
incentives and supports based on the needs of students. Many States
went further, requiring identification for more rigorous interventions
if an individual subgroup does not meet performance targets over time.
This allows States to be strategic and thoughtful in identifying and
implementing interventions, to ensure that every low-performing
subgroup and school is receiving the level and type of intervention
needed to improve.

    Question 6. Alaska, as you may know, developed its own standards
that are very closely aligned with the Common Core. Those standards
were developed with input by both the University of Alaska and State
industry. The University has certified that a high school graduate
proficient in those standards will be prepared for success as a
freshman. In addition, the Council of Chief State School Officers has
certified to the Department that the Alaska standards are aligned to
the Common Core. Yet, Alaska has waited for 5 months to gain the
Department's permission to join the Smarter Balanced Assessment
Consortium (SBAC). The longer that permission is delayed, the longer it
will take to implement assessments that are built on Alaska's new
standards. When can Alaska expect to receive permission to join the
SBAC?
    Answer 6. Alaska submitted information to the SMARTER Balanced
consortium that its content standards are substantially identical to
those in the SMARTER Balanced States, and based on this information,
the SMARTER Balanced governing board agreed to allow Alaska to join
the. consortium.

    Question 7. If 21st Century Community Learning Center funding is
used in certain waiver States to extend the regular school day, what is
your plan to ensure that students in those States retain access to high
quality afterschool activities that supports their academics, provides
enrichment, and ensures that the children are safe until their parents
are home from work?
    Answer 7. We believe that high-quality, enriching afterschool
activities are an essential resource for schools, students, and
families. The Department is currently working to address your question
through public guidance on the extended learning time requirements
under the 21st Century Community Learning Center program. That guidance
will soon be made available on our Web site.
     Response to Questions of Senator Murray and Senator Murkowski
                      by Terry K. Holliday, Ph.D.
                             senator murray
    Question 1. You stated that in Kentucky's waiver request ambitious
targets were set for all subgroups and these targets will be used to
drive interventions. What intervention methods will be executed for
schools that are unable to meet these targets for subgroups?
    Answer 1. To see the specific details of interventions in Priority
Schools (lowest achieving) and Focus Schools (achievement gap issues)
that are contained in Kentucky's ESEA waiver, go to the following link:
http://education.ky.gov/comm/UL/Documents/
Revised%20Approved%20KY%20ESEA%20flexibility%20waiver%20Sept
%2028%202012%20final%20version%20mam.pdf (Priority Schools found on
pages 68-75 and Focus Schools found on pages 75-80).
    Highlights of how the Kentucky Department of Education is
approaching interventions in these schools are described below:

    <bullet> As part of Unbridled Learning: College- and Career-
Readiness for All system, we have included a comprehensive school and
district planning process that is complimentary to the accountability
process. Every school is required to compose and submit to the State
through an online system a Comprehensive School Improvement Plan and
every district must submit a Comprehensive District Improvement Plan.
All plans must address the areas of weakness identified by the
assessment data, including meeting the subgroup targets. Kentucky
Department of Education staff provides technical assistance with these
ever-evolving plans. More on the school and district planning process
can be found at: http://education.ky.gov/school/csip/Pages/
default.aspx.
    <bullet> Additionally, KRS 158.649 already requires that Kentucky
school districts intervene when schools do not meet their targets for
subgroups through collaboration around the planning process that must
include aligned, research-based activities focused on improvement.
    <bullet> The Kentucky Department of Education is using the Federal
School Improvement Grant (SIG) process for all three tiers of schools
to capture best practices in order to make successful strategies
available to all schools and districts.
    <bullet> Kentucky's educational recovery program that places
educational recovery teams in the lowest performing schools is focused
on building sustainable, repeatable systems in schools and classrooms.
The Kentucky Department of Education is in the process of identifying
schools to serve as hubs as part of the SIG process that will act as
regional labs for best practices, partnering with universities and
regional cooperatives to assist schools to help their students based on
what their data shows.
    <bullet> Kentucky is publicly reporting all data including subgroup
performance data to ensure there is no ``masking'' of the performance
of any group. Transparency of data through the school and district
report cards is a mechanism that shines the light on subgroup
performance for the public and offers a valuable tool to schools and
districts to use in analyzing their data and informing the contents of
school and district improvement plans. Examples (screenshots) of what
can be seen relative to subgroup performance from a district report
card in the area of achievement, gap and college- and career-readiness
are attached. The full school and district report cards can be
accessed: http://applications.education.ky.gov/SRC/.
    <bullet> Currently PD 360, Common Core 360 and LiveBook 360
professional development resources and videos are available free to all
public school educators in Kentucky through the Continuous
Instructional Improvement Technology System (CIITS). This allows for
professional development to be tailored to meet the needs of teachers
and their students.

    Question 2. In your testimony you stated that under the No Child
Left Behind Act some schools in Kentucky were not being properly held
accountable for closing achievement gaps due to the low number of
students in a subgroup at a particular school. In response the Kentucky
Department of Education established a new accountability system to
ensure all schools are held responsible for closing achievement gaps
through the use of an aggregate gap group. How will these aggregated
gap groups be formed?
    Answer 2. Kentucky created a Non-Duplicated Gap Group as one of two
measures to hold schools accountable for closing achievement gaps. To
calculate the combined student Gap Group, non-duplicated counts of
students who score proficient or higher and are in the student groups
are summed. This yields a single gap number of proficient or higher
students in the Student Gap Group, with no student counting more than
one time, and all students in the included groups being counted once.
The percent of students performing at proficient and distinguished in
the Non-Duplicated Gap Group is reported annually. The ``N'' count
(number of students reported) is based on total school population, not
grade-by-grade enrollment, thus causing almost every school in Kentucky
to have a focus on gap groups. While all individual groups are
disaggregated and publically reported, the Gap category of the
accountability model includes only the percent of students in the
combined Non-Duplicated Gap Group scoring at the proficient and
distinguished levels.
    However, Individual Gap Groups are not lost in the new Kentucky
model. The Kentucky Department of Education recognizes the issue of
potential masking of individual gap group scores even though all gap
groups are reported. To address this issue, a section has been added to
another State regulation (703 KAR 5:225, School and District
Accountability, Recognition, Support and Consequences) that requires
the Kentucky Department of Education to identify all individual gap
groups that perform significantly below the average of all students.
All schools with gap groups underperforming in the third standard
deviation (commonly called 3 Sigma) face State consequences. Schools in
the Distinguished, Proficient and Needs Improvement categories can be
flagged for the State consequences for underperforming individual gap
groups. The Kentucky Department of Education uses the 3 Sigma model to
eliminate the masking of low-scoring groups and will conduct ongoing
data analysis to determine if the model needs adjusting.
    The school and district report cards are the vehicle for publically
reporting all data, including subgroup data. These can be accessed at:
http://applications .education.ky.gov/SRC/. Additionally, examples
(screenshots) of what can be seen relative to subgroup performance from
a district report card in the area of achievement, gap and college- and
career-readiness are attached.
                           senator murkowski
    Question 1. If you had been given complete autonomy to rate your
schools and provide assistance for school improvement, how would your
plan differ from what was approved by the Department?
    Answer 1. In general, Kentucky was able to create a balanced
accountability system that measures not only reading and mathematics
but also arts/humanities, practical living (health, physical education
and career and technical education), writing, science, social studies
and world language. The ESEA flexibility waiver from No Child Left
Behind requirements also allowed significant funding flexibility.
    The only topic I would want more autonomy on as a State is
standardized testing. Standardized testing, while important for
accountability, is not the measure that will most improve teaching and
learning. Formative assessment has much greater potential to measure
student learning and improve instruction. As commissioner, I would like
the flexibility to monitor growth of students not only through limited
standardized summative testing but also through formative assessments
that measure deeper learning and the skills that will be required for
the global workforce. Providing States with this flexibility yet
holding them accountable for graduation rates and college- and career-
ready rates would open up significant innovation in P-12 education and
greatly improve workforce readiness.

    Question 2. Your waiver plan includes a ``Super Subgroup'' that you
call a Student Gap Group. As I understand it, schools will no longer be
held accountable for the individual proficiency rates of the following
groups of students: African-American, Hispanic, Native American,
Special Education, Economically Disadvantaged, and Limited English
Proficient students. Do I understand your plan correctly, and if so,
how will you hold schools accountable if one or more of these groups is
not doing well but their low achievement is masked by other subgroups
or the All Students group? How will parents know if a school is not
providing a good education to one of these groups?
    Answer 2. The understanding stated in the question found above is
incorrect. Kentucky uses two methods to ensure schools have incentives
to close the achievement gaps for underperforming groups. First,
Kentucky uses a Non-Duplicated Gap Group model (Super Subgroup). By
combining all traditionally underperforming students into one group,
Kentucky can guarantee that 99 percent of the schools in Kentucky must
pay attention to achievement gaps of all students. This happens because
schools can no longer hide small numbers of gap group students who in
the No Child Left Behind model weren't counted.
    Second, Kentucky recognized the tradeoff of the super group model
and created a secondary method to focus on individual gap group scores.
Individual Gap Groups are not lost in the new model. The Kentucky
Department of Education recognized the issue of potential masking of
individual gap group scores even though all gap groups are publically
reported. To address this issue, a section has been added to another
State regulation (703 KAR 5:225, School and District Accountability,
Recognition, Support and Consequences) that requires the Kentucky
Department of Education to identify all individual gap groups that
perform significantly below the average of all students. All schools
with gap groups that are significantly underperforming face State
consequences. Schools in the Distinguished, Proficient and Needs
Improvement categories can be flagged for the State consequences for
underperforming individual gap groups. The Kentucky Department of
Education uses this model to eliminate the masking of low scoring
groups and will conduct ongoing data analysis to determine if the model
needs adjusting.
    Parents are able to see through the school and district report
cards the gap achievement rates for all individual groups and see
labels to indicate a school has a gap problem either with the Super
Subgroup or with the individual gap groups. Click on the following link
to access the school and district report cards: http://
applications.education.ky.gov/SRC/. Also, examples (screenshots) of
what can be seen relative to subgroup performance from a district
report card in the areas of achievement, gap and college- and career-
readiness are attached.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Response to Questions of Senator Murray and Senator Murkowski
                      by John B. King, Jr., Ed.D.
                             senator murray
    Question. How has incorporating both title I and non-title I
schools in your computation to identify the percentage of schools that
are ``priority'' and ``focus,'' been beneficial in accurately targeting
the schools in your State that need the most support?
    Answer. The Board of Regents has long had a policy that low-
performing schools, regardless of whether they receive or do not
receive title I funds, should be identified, provided support, and held
accountable for gains in student achievement. By basing the number of
Focus and Priority schools on the total number of schools in the State,
we were able to meet the ESEA waiver requirements in terms of the
number of title I schools that had to be identified while also
identifying comparably low-performing non-title I in which our State
regulations require similar interventions occur. Thus, this strategy
allowed us to create a unified accountability system for all schools in
the State, both title I and non-title I.
    We note, however, that if a State chooses to identify non-title I
schools as Priority and Focus Schools, it would be helpful if that
State could receive a waiver to allow Title I School Improvement funds
1003(a) and 1003(g) to be used in these schools.
                           senator murkowski
    Question 1. If you had been given complete autonomy to rate your
schools and provide assistance for school improvement, how would your
plan differ from what was approved by the Department?
    Answer 1. The waiver's principles regarding implementation of
College and Career Ready standards and assessments and its strategies
to promote great teachers and leaders were well aligned with
initiatives the New York State Education Department (SED) already had
under way. It is possible, however, that we may have considered: (1)
making determinations about our schools in a manner that even more
closely aligned our principal evaluation growth scores and school
growth measures, and (2) revising our methodology for identification of
Focus Schools within Focus Districts so that it was not driven by the
need to identify a fixed percentage of schools.
    We may have also sought to create a more unified system of
accountability among title I, title III and IDEA.
    Finally, we may have considered revisions to the way in which SED
and school districts invest School Improvement and title IIA funds to
better focus them on building the core competencies of the district to
support implementation of Common Core aligned curriculum and
instruction in their schools.

    Question 2. You noted in your written testimony that New York used
Race to the Top funds to create a statutory framework for a new teacher
and principal evaluation system under which local collective bargaining
efforts were required to establish evaluation plans that met the
requirements of the law. This included basing 20 percent of the
evaluations on State assessments, 20 percent on local measures, and 60
percent on other evidence such as observations and surveys. Have all of
New York's school districts achieved collective bargaining agreements
based on these requirements? If not, what are the snags? If so, what
have you learned so far about teacher and principal quality and what
have districts done with that information?
    Answer 2. New York State law requires that SED approve teacher and
principal evaluation plans, which in New York are called an Annual
Professional Performance Review (APPR) plans. A provision in the 2012-
13 New York State budget required that school districts have an
approved APPR plan by January 17, 2013 in order to be eligible for the
scheduled State aid increase. Districts that did not have an approved
APPR plan by this deadline would forfeit their portion of the scheduled
aid increase. A similar and permanent change in law has been proposed
in the 2013-14 State budget.
    By January 17, 2013, 685 out of 691 districts--more than 99 percent
of the State's districts--had complied and are now beginning
implementation of the evaluation system. Since then, two more districts
have been approved. Unfortunately, New York City--the State's largest
school district--is one of the four remaining districts that failed to
meet the deadline. However, the Governor and legislative leadership
have committed to empower SED to resolve the differences between labor
and management to establish a default evaluation system for New York
City if a negotiated agreement cannot be reached by June 1, 2013.
    Despite successful adoption of evaluation plans by the vast
majority of districts statewide, there are, and will continue to be,
snags along the way. For example, labor and management issues
contributed in part to the failure of some of the districts that do not
yet have an approved APPR plan. Even districts that are implementing
plans will surely face snags because rigorous and comprehensive APPR
plans will require significant changes in teacher and principal
practice.
    Since 2012-13 is the first year in which all principals and
teachers will be evaluated, it is very early in the process to discuss
lessons learned. However, based on our review of student growth data
from the 2011-12 school year, which we have available statewide for
teachers of English language arts and mathematics in grades 4-8 and
their principals, we observe, not unsurprisingly, that there are
significant variations in the distribution of effective teachers and
principals, as measured by growth in student performance, in schools
and districts across the State. We have heard consistently that the
development of APPR plans and their implementation are promoting very
important conversations in districts across the State about what good
teaching is and how it should be assessed and supported.
    Response to Questions of Senator Murkowski by Kati Haycock, M.A.
    Question 1. You noted your concern here today, and presumably as a
waiver plan peer reviewer, about State plans that would water down
accountability for individual subgroups. Yet, some plans that would do
so were approved. What was the Department's reaction when you shared
your concerns during the peer review process?
    Answer 1. All peer reviewers agreed, as a prerequisite to
participating in the process, not to discuss the peer review
decisionmaking process publicly. That said, I can tell you
unequivocally that peer reviewers in the round in which I participated
were never discouraged in any way from offering critical feedback.
Indeed, the Department staff who supported the process encouraged us to
express any and all concerns we had in writing and we did exactly that.

    Question 2. When you came to Anchorage for the Mayor's Education
Summit in 2011, you noted the data that despite a narrowing of our
achievement gaps, Alaska's performance in reading was at the bottom
compared to other States and that math performance was at about the
middle. You prescribed high expectations and increased teacher quality
as remedies. In your view, will the parameters laid down by the
Department for States' waiver plans fully address the needs of Alaska's
schools?
    Answer 2. As noted in our recent paper, A Step Forward or A Step
Back? State Accountability in the Waiver Era, States have taken a
number of different approaches to key accountability issues, including
setting ambitious, achievable goals for raising achievement and closing
gaps between groups; incorporating performance against those goals into
school rating systems; taking meaningful action in the lowest-
performing schools; and ensuring that all schools, not just the lowest-
performing ones, have both the incentive and support to improve.
    In its still-pending waiver proposal, Alaska has adopted the
ambitious, achievable goal of reducing by half the percentage of
students not meeting standards, overall and for each group. Performance
against those goals, however, does not factor into the State's 1-5 star
school rating system. This means that it's possible for a 5-star school
to be missing goals for low-income students, Alaska Natives, or
students with disabilities, for example. A different look at the year-
to-year growth of these groups does get factored into the rating
system, but counts for very little. And, each group's growth counts for
only 3.5 percent of a school's 1-5 star rating.
    Alaska's lowest-performing or ``Priority'' schools will receive
coaching and technical assistance, but there are no clear provisions
for ensuring that these schools have the best teachers. For those
schools that are not among the lowest-performing in the State, the only
required activity is improvement planning. That means that 85 percent
of schools and the students in them may not be getting the support or
incentive they need to improve.
    If implemented well, new college- and career-ready standards--as
required in the Department's waiver parameters--will ensure that all
students are held to high expectations. But successful implementation
of the standards requires that teachers and principals are provided
with ample support. Alaska's application provides some details about
supports linked to the new standards for curricular alignment and
changes to instructional practices--a promising one is to provide
school leaders with tools to evaluate the quality of standards
implementation at the classroom level. However, it appears that the
State is leaving the development of instructional materials up to
individual districts and teachers instead of capitalizing on State
capacity and economies of scale to develop and provide high-quality
resources that help teachers effectively teach the standards.
    To increase teacher quality, we must first know how effective our
teachers currently are and identify their areas of strength and
weakness. ED's waiver parameters are much more likely to provide this
knowledge than the evaluation systems currently in place in most
districts, particularly due to the requirement to include a measure of
student learning growth. At the time of Alaska's waiver application,
some details about its proposed evaluation system were still
outstanding, but our understanding is that Alaska's State Board of
Education recently approved the use of multiple types of student
learning data as one element of the new system. While Alaska's
application indicates that evaluation results will be used to provide
development to low performing teachers, it is silent about how else
evaluation results will be used, such as ensuring that all students
have access to effective teachers, or in decisions to retain or promote
teachers. Alaska is not planning to fully implement the new system
until the 2016-17 school year. If it stays with this timeline it will
not be in compliance with the requirements of the waiver application.

    Question 3. How long do you think it will take for data to be
available from approved waiver States that will inform reauthorization
of ESEA?
    Answer 3. States that received waivers in the first round of
approvals last winter have already released their first set of data
under their new accountability systems. The remaining States should
release their initial results this summer. That data as well as the
subsequent data that will be released annually should inform the
reauthorization of ESEA.

    Question 4. You noted in your opening statement that given time
constraints you would only focus on Education Trust's thoughts about
the accountability provisions in the waivers. What thoughts do you have
on other elements of the waivers?
    Answer 4. In addition to the accountability provisions, States'
waiver applications also addressed teacher quality, and standards. In
terms of teacher quality, we have looked at States' plans with an eye
toward design, implementation and use of evaluations as well as how
they addressed equitable access to effective teachers. The results are
mixed, but most of our concerns focus not on design, but rather on
implementation, use and equitable access. The States that received
waivers designed and adopted evaluation systems that reflect the
requirements of the application, which were similar to the Race to the
Top competition requirements. The larger questions we saw focused on
how thoughtful States had been about plans to implement these systems,
including the timeframe for implementation and the phase-in of the
system, and the use of the system. For example, few States discussed
using the results of their evaluation systems, once implemented, to
ensure that all children had equitable access to an effective teacher.
Further, few States discussed how they were going to use their systems
to support teachers and increase effectiveness. Finally, we are
concerned that as States move to implement systems and it proves
difficult there could be a watering down of rigor to the point that the
systems may no longer align to the initial waiver requirements.
    In terms of standards, most State plans emphasized the initial
adoption of college- and career-ready standards, but are vague about
how States will ensure that these standards are implemented in a way
that translates to increased student achievement. Specifically, few
States outline specific plans for alignment between the content of
teacher-preparation programs and the new standards. Also, some States
plan to place the development of teacher instructional supports on the
shoulders of individual districts, even though most districts do not
have the capacity to do this work well.

    [Whereupon, at 12:55 p.m., the hearing was adjourned.]

                                   


</pre></body></html>
